<html>
<title> - ESEA REAUTHORIZATION: IMPROVING AMERICA'S SECONDARY SCHOOLS</title>
<body><pre>[Senate Hearing 111-1121]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1121
 
                         ESEA REAUTHORIZATION: 
                 IMPROVING AMERICA'S SECONDARY SCHOOLS

=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,

                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION.

                                   ON

   EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT REAUTHORIZATION, 

           FOCUSING ON IMPROVING AMERICA'S SECONDARY SCHOOLS

                               __________

                              MAY 4, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
56-380                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
JACK REED, Rhode Island
BERNARD SANDERS (I), Vermont
SHERROD BROWN, Ohio
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado

                                     MICHAEL B. ENZI, Wyoming
                                     JUDD GREGG, New Hampshire
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     JOHN McCAIN, Arizona
                                     ORRIN G. HATCH, Utah
                                     LISA MURKOWSKI, Alaska
                                     TOM COBURN, M.D., Oklahoma
                                     PAT ROBERTS, Kansas
                                       
                                       

                      Daniel Smith, Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                          TUESDAY, MAY 4, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     2
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  prepared statement.............................................     3
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................     4
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     5
Johnson, Cassius O., Director of Education Policy, Jobs for the 
  Future, Boston, MA.............................................     6
    Prepared statement...........................................     7
Deshler, Donald D., Ph.D.,Director, University of Kansas Center 
  for Research and Learning, Lawrence, KS........................    12
    Prepared statement...........................................    14
Capozzi, John, Principal, Elmont Memorial High School, Elmont, NY    22
    Prepared statement...........................................    23
Harrison, Richard, Middle School Director, Denver School for 
  Science and Technology, Denver, CO.............................    25
    Prepared statement...........................................    26
Webber-N'Dour, Karen, Principal, National Academy Foundation High 
  School, Baltimore, MD..........................................    31
    Prepared statement...........................................    33
Habit, Tony, Ed.D., President, North Carolina New Schools 
  Project, Raleigh, NC...........................................    37
    Prepared statement...........................................    40
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    48
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    50
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico.    54
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    55
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    59
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    63
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...    66

                          Additional Material

Statements, articles, publications, letters, etc.:
    Submissions by Donald D. Deshler, Ph.D.:.....................
        What's Evidence Got To Do With It? An Observational Study 
          of Research-Based Instructional Behavior In High School 
          Classes................................................    75
        The Content Literacy Continuum: A School Reform Framework 
          For Improving Adolescent Literacy For All Students.....    98

                                 (iii)

  

 
      ESEA REAUTHORIZATION: IMPROVING AMERICA'S SECONDARY SCHOOLS

                              ----------                              


                          TUESDAY, MAY 4, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m. in Room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Bingaman, Murray, Reed, Sanders, 
Casey, Hagan, Merkley, Franken, Bennet, Burr, Murkowski, and 
Roberts.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Today's hearing, ``Improving America's Secondary Schools,'' 
will explore the challenges facing America's middle and high 
schools and how ESEA reauthorization can help States and 
districts address those challenges.
    Without question, among the most serious challenges is the 
high dropout rate in the United States. Each year, 1.2 million 
students drop out of school; that's about 7,000 per day. This 
crisis disproportionately affects students who are low-income, 
minority, or have disabilities. While only 70 percent of 
America's students graduate from high school on time, that 
number drops to just over 50 percent for Hispanic, Black, and 
Native American students. Students from low-income backgrounds 
are 10 times more likely to drop out of high school than their 
more affluent peers.
    Research shows that the middle grades are a critical time 
to influence whether students graduate from high school. The 
decision to drop out is rarely the result of a single life 
event; in fact, many students exhibit academic warning signs 
years before they leave high school. We need to look at ways to 
identify these students through the use of early-warning data 
systems. As early as sixth grade, such systems can use 
information on, for instance, absence rates or course failures 
to identify students who are struggling. This information can 
be used to target appropriate interventions to get them back on 
track. ESEA reauthorization offers an important opportunity to 
improve outcomes for millions of students by turning around the 
lowest performing secondary schools.
    About 2,000, or 12 percent, of American high schools 
produce over 50 percent of the Nation's dropouts. Twelve 
percent of the schools produce over 50 percent of the Nation's 
dropouts. In this reauthorization, I also intend to address the 
full spectrum of students' educational needs. We need to do 
more to ensure that every child gets a high-quality education 
early in life. We need that support to start at birth, if not 
sooner. In addition, we must do more for secondary school 
students. Currently, only about 10 percent of title I funds go 
to high schools, although they educate about one-quarter, or 25 
percent, of low-income students.
    So, today I look forward to hearing from our witnesses on 
the most effective interventions to help students stay on track 
to graduate and prepare for success in college and careers. I 
also look forward to the recommendations for what it takes to 
create world-class secondary schools that will help all 
students succeed.
    I know Senator Enzi will be here later, but Senator Burr is 
here, and I would turn to him if he has his opening statement.

                       Statement of Senator Burr

    Senator Burr. Mr. Chairman, very briefly, let me ask 
unanimous consent that the Ranking Member's opening statement 
be made a part of the record.
    The Chairman. It will be included in the record.
    Senator Burr. I thank the Chair. Let me also take this 
opportunity, if I could, to welcome our witnesses, especially 
Tony Habit, from North Carolina, who has really led a charge at 
trying to change the outcome of education in our State.
    Let me just echo something I think the Chairman alluded to, 
even though I didn't hear the whole statement. This past year, 
only 70 percent of our 9th through 12th graders crossed the 
goal line on time--meaning, a diploma, graduation. If this were 
a disease, we'd call it an epidemic, and we'd do whatever we 
needed to, to fix it. The truth is that, community by 
community, legislature by legislature, we all seem numb to the 
fact that 30 percent of the kids do not, on time, get the 
document they need to be invited for an interview. Federal law 
says that everybody can fill out an application.
    But, stop and think for a moment. Who is invited for an 
interview who does not have a high school diploma? For 
education? To allow this to happen for 30 percent of our high 
school students is unconscionable. At a time that we are 
challenged, right now, to address the career paths of our 
graduates of higher education, where, last year alone, over 60 
percent did not find a career; they found a job, but not a 
career. This year, in less than a month, we will see another 
group that comes out with 9.7 percent unemployment.
    Mr. Chairman, we have to fix education, we have to fix the 
economy, we have got to fulfill the promise we made to these 
kids: ``If you will stick with it, if you will work hard, 
education will be the key to an unlimited opportunity for you, 
and you will only be limited by how hard you are willing to 
work and what you are willing to put in.''
    It is my hope that we will listen intently to what our 
witnesses have to say today. This may be our last best chance 
to get this right.
    I thank the Chair.
    The Chairman. Thank you, Senator Burr.
    I will leave the record open for Senator Enzi's opening 
statement.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Senator Harkin, for holding this hearing today 
on improving America's Secondary Schools. The success of our 
Nation's middle and high schools is vital in preparing our 
students for the 21st century economy.
    The Federal Government's role should be to encourage and 
support States and school districts so that more students 
graduate from high school on time with the knowledge and skills 
they need to attend college and enter the workforce without the 
need for remediation. However, the present situation is 
discouraging. Every day in the United States, 7,000 students 
drop out of school. If the high school students who had dropped 
out of the class of 2009 had graduated instead, the Nation's 
economy would have benefited from an additional $335 billion in 
income they would have earned over their lifetimes. It is an 
incredible statistic. Because we could not reach those 7,000 
students, it will cost us and them $335 billion in income, 
which means we all lose.
    The future outlook is no better. It is estimated that 
without dramatic changes in our Nation's lowest-performing 
middle and high schools 12 million students will drop out of 
school over the next decade. The result long term will be a 
loss to the Nation of $3 trillion, and as you can imagine, even 
more in terms of the quality of life for those dropouts.
    We simply cannot afford to lose those students. We must 
deal with the situation head on--we cannot allow students to 
``waste'' their senior year, and graduate unprepared to enter 
post-secondary education and a workforce that is focused on 
skills and knowledge.
    As we begin our work on the reauthorization of the 
Elementary and Secondary Education Act we need to strengthen 
programs that provide relevance, context and rigor for students 
in both middle and high school. While some of my colleagues may 
disagree, I believe it is time to bring attention to the 
``Secondary'' part of the Elementary and Secondary Education 
Act. The Federal Government needs to provide some resources to 
school districts for these efforts and ensure that the reforms 
used are data-driven and have a track record of solid evidence 
based success. We learned at a hearing on school turnaround 
held a few weeks ago that there is no silver bullet. School 
districts need the flexibility to draw from the resources that 
are available the best possible solution for each of these 
struggling schools.
    In addition, it is important to emphasize the fact that a 
high school diploma does not guarantee that a student has 
learned the basics. Nearly half of all college students are 
required to take remedial courses after graduating from high 
school, before they can take college level coursework.
    The witnesses before us today demonstrate that this work is 
hard, but can be done. I am pleased that we have a 
representative of a career academy here, Karen Webber-N'Dour. 
These schools work for many students across the country because 
they help students discover their true potential. For example, 
I have heard from students in career academies that they 
entered thinking they would graduate from high school prepared 
to enter the construction trades. Instead, by being in a career 
academy, they discovered they had the talent and ability to 
become architects. Career academies provide the same rigorous 
content as traditional high schools, but do so in a way that is 
relevant to students and provides a context for their learning.
    Without a plan for reforming our secondary schools, the 
outcome for many of our students will not change, which is not 
acceptable. If we are to remain competitive in a global 
economy, we cannot afford to lose people because they do not 
have the education and skills they need to be successful. 
Strong partnerships and alignment among K-12 schools, 
institutions of higher education, business and government will 
help us meet this need.
    I want to thank each of the witnesses for being here today 
to share their compelling stories. I hope we can all learn from 
you how the Federal Government can be a partner in middle and 
high school reform efforts.
    The Chairman. Let me just take a moment to introduce each 
of the witnesses.
    First, we have Cassius Johnson, program director for 
education policy at Jobs for the Future, in Boston, MA, where 
he handles Federal secondary and post-secondary policy 
development and advocacy. Next is Don Deshler, the Williamson 
Family distinguished professor of special education and the 
director of the Center for Research and Learning at the 
University of Kansas. An expert in adolescent literacy, Dr. 
Deshler received a presidential appointment to serve as a 
member of the National Institute for Literacy Advisory Board.
    [Voice.]
    The Chairman. I said that. University of Kansas. I said 
that.
    [Laughter.]
    After Dr. Deshler, we will hear from John Capozzi, 
principal of Elmont Memorial High School, in Elmont, NY. Under 
his leadership, Elmont High School has beaten the odds, 
graduating over 94 percent of its students, 97 percent of which 
go on to college.
    I know Senator Bennet is not here yet. He wanted to 
introduce our next witness, but I will just say it's Rich 
Harrison, who is the founding middle school director of the 
Denver School for Science and Technology, in Denver, CO. Then, 
we will hear from Karen Webber-N'Dour, principal of the 
National Academy Foundation High School, in Baltimore, MD, a 
public high school that provides rigorous college preparatory 
and career pathway instruction.
    Senator Burr also mentioned Tony Habit. I wonder if the 
Senator from North Carolina would like to add anything to the 
introduction for Mr. Habit.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Mr. Chairman, I certainly would.
    I want to echo Senator Burr's welcome of Dr. Tony Habit to 
our committee today, as we welcome all of the witnesses here 
that are going to testify. I want to tell the group just a 
little bit about Dr. Habit.
    He is President of the North Carolina New Schools Project 
and he has more than 20 years in public school innovation 
reform. The New Schools Project, is an independent, not-for-
profit organization established to accelerate the pace of 
innovation in the State of North Carolina. As president, he has 
been working diligently to ensure that every student has access 
to a high-quality education that is going to prepare them for 
college and a career.
    The New Schools project is in partnership with our North 
Carolina Department of Education, and launched an unprecedented 
effort to create more than 100 new and redesigned high schools 
across the State since 2008. So far, they have created about 
106 new secondary schools.
    In reference to what Senator Burr was saying concerning the 
dropout rate, over half of the early-college high schools, had 
a zero dropout rate. I know, at the Medical School at Duke, 
they are going to create a high school focused on health and 
life sciences.
    North Carolina State University is going to focus on 
agricultural research--in a rural region of the State looking 
at biotechnology, engineering and sustainable energy. I know 
that, in the county where I am from, one of our community 
colleges, GTCC, has an excellent early-college program. As a 
matter of fact, one of my interns, many years ago, was a 
dropout, and then successfully completed the early-college 
program and went on to matriculate into UNC-Chapel Hill.
    It is a great program, we have done great things, and I 
look forward to hearing your testimony.
    The Chairman. Thank you, Senator Hagan.
    Senator Bennet, I had briefly introduced Rich Harrison, 
but, I would yield to you if you would want to expand on it. I 
just basically did not say much, because I do not know him.
    Senator Bennet. Well, I do know him, so I appreciate it, 
Mr. Chairman. Sorry I was a minute late.

                      Statement of Senator Bennet

    Senator Bennet. It is an honor to introduce Rich Harrison 
to the committee.
    Rich founded the Denver School of Science and Technology. 
DSST is an open-enrollment school in the Denver public schools, 
reflecting the diversity of our community. Forty-five percent 
of the students come from economically disadvantaged families, 
and 62 percent of the students are Latino or African-American. 
Almost half of this year's senior class will be the first in 
their family to go to college. Every senior in DSST's first 
three graduating classes has earned acceptance to a 4-year 
college. Then, when students from DSST get to college, they are 
ready to excel. Only 7 percent of students need remediation.
    DSST was chosen as one of three finalists, out of over 
1,000 schools, for the Race to the Top Commencement Challenge. 
I might say we learned, today, they had not been selected, 
which means that there must be some extraordinary place 
somewhere else in the country, because I cannot believe there 
is a place that would have been a better choice than DSST.
    We can learn from the success of programs like DSST, and 
Rich demonstrates the kind of leadership it takes to make 
reform work. Prior to founding DSST, Rich served as the 
principal of Kipp-Cole College Prep, joining the school after 
its reconstitution from Cole Middle School. Before becoming 
administrator, Rich was an English teacher at Peak-to-Peak 
Charter School, which is consistently rated one of the Nation's 
top 100 high schools.
    I know I speak for my colleagues when I say we are looking 
forward to your testimony.
    I can tell you, Mr. Chairman, I have spent many hours at 
DSST over the years, to learn from the teachers and the 
students that are there about what they are doing to achieve 
these results, and it turns out not to be rocket science.
    I look forward to hearing Rich's testimony.
    Thank you.
    The Chairman. Thank you, Senator Bennet.
    Now, I think all of you were notified by our staff that you 
would be given 4 minutes. Your statements will all be made a 
part of the record in their entirety. Because of some time 
constraints today, if you can just kind of sum up, in about 4 
minutes or so, your main points, and then we can get into an 
open discussion, here. I would appreciate it very much.
    We will start with Mr. Johnson.
    Welcome Mr. Johnson, please proceed.

STATEMENT OF CASSIUS O. JOHNSON, DIRECTOR OF EDUCATION POLICY, 
                JOBS FOR THE FUTURE, BOSTON, MA

    Mr. Johnson. Yes, Senator Harkin, thank you for the 
opportunity to speak before the committee today.
    I commend the outstanding work that you are doing on behalf 
of the American people and on this critical piece of domestic 
policy, the Elementary and Secondary Education Act.
    The mission of Jobs for the Future is to double the numbers 
of youth and adults who obtain the credentials and the skills 
needed to become competitive in today's labor market. Jobs for 
the Future identifies, develops, and promotes new approaches 
that are helping communities and States in the Nation compete 
more effectively in a global economy.
    As director of education policy, I have worked closely with 
staff in over 200 communities in 48 States to develop 
innovative educational workforce solutions.
    The continued failure of secondary schools in this country, 
in the United States, to dramatically improve the educational 
attainment of low-income young people, young people of color, 
and those in rural America, is the most significant factor in 
our country's drop from 10th to 9th--from 1st to 10th in the 
world in completion of race of post-secondary education. 
Reversing this course will require strong and coordinated 
action and a strengthened State and Federal partnership to 
raise graduation rates. From JFF's experience working across 
the Nation, we have learned that dramatically better outcomes 
are possible, especially for low-income students and students 
of color, but only when there is a continued and significant 
investment in groundbreaking and innovative high school 
designs.
    I want to talk about two pieces of JFF's work. First of 
all, the national network of early-college high schools. 
Launched in 2002, these schools have expanded to 200 in number, 
in 24 States, serving 42,000 students. In fact, the largest of 
the work is going on in the great State of North Carolina. In 
the 8 years since the early-college design was first developed, 
it has proven to be an exceptional approach for increasing the 
likelihood that high-needs students are on track for high 
school graduation and prepared for college. Students have the 
opportunity to earn up to 2 years of college credit in an 
associate's degree, and, on the average, are obtaining 23 
credit hours and getting exposure to a college-going culture.
    Another encouraging trend worth noting is the spread of 
what we call ``Back on Track'' models that are getting 
promising results with young people who are most at risk of not 
graduating from high school on time, if at all, and most likely 
not to complete a post-secondary credential. Six years ago, New 
York City began ground-
breaking work to open Back on Track schools as part of a 
systemic reform initiative to replace low-performing high 
schools. You see some of the same work going on in 
Philadelphia, in what they call accelerated high schools.
    To get to my recommendations, though, I want to leave you 
with three ``to do's'' in this ESEA reauthorization. First, 
adopt rigorous and fair graduation-rate accountability. That 
means, Congress should set the requirements that the State give 
significant weight to improvements and graduation rates. 
There's broad consensus that graduation rates should be given 
as much weight as academic performance in holding schools, 
districts, and States accountable.
    Second, the second ``to do'' is to turn around low-
performing high schools. Too often, policies directed at 
improving low-performing schools have little impact on the 
2,000 low-graduation high schools. We know that the off-track 
population tends to be concentrated in these schools. We 
recommend that Congress require districts and their schools to 
work with these schools to analyze and use data to identify the 
students who are off track to graduation, and put them in a 
place where back-on-design models can get them ready for 
college and to be successful in today's economy.
    Third, the third ``to do'' is support systemic initiatives, 
or, rather, establish incentives and advance innovation and 
invention. When a most-promising recent Federal policy develops 
an expansion of Federal support--it's expansion of Federal 
support for innovation at all levels of--to address the 
Nation's most perplexing education performance challenges. Just 
last week, foundation community came on board to supplement the 
Federal Government's investment through i3 to 500---to a tune 
of $560 million to the $650-million initial investment by the 
Federal Government. That's a powerful statement that speaks to 
the role that the Federal Government can play in scaling and 
actually calls--allowing for the invention of more effective 
models for off-track students, all toward the goal of getting 
more kids ready for college and success in today's economy.
    I look forward to the question-and-answer discussion.
    [The prepared statement of Mr. Johnson follows:]
                Prepared Statement of Cassius O. Johnson
                                summary
    The continued failure of secondary school systems in the United 
States to dramatically improve the educational attainment of low-income 
young people, young people of color and those in rural America is 
perhaps the single most significant factor in our country's drop from 
first to tenth in the world in the completion rate of post-secondary 
degrees by age 35. Reversing this course will require strong and 
coordinated action and a strengthened Federal-State partnership to 
raise the high graduation rate and the college preparedness level of 
high school graduates, especially among those from low-income families.
                           signs of progress
    From Jobs for the Future's experience working to improve college-
ready high school graduation with school, district, and State partners 
we have learned that dramatically better outcomes--especially for low-
income students and students of color--are possible, but only when 
there is continued and significant investment in groundbreaking and 
innovative high school designs.
    Around the country, innovative or redesigned high schools are 
beginning to amass evidence of their effectiveness in graduating more 
students with a college-ready diploma. One key example is the national 
network of early college high schools launched in 2002 with generous 
resources from the Bill & Melinda Gates Foundation, that has expanded 
to more than 200 schools in 24 States, serving 42,000 students.
    Another encouraging trend worth noting is the spread of what we 
call Back on Track designs that are getting promising results with the 
young people who are the most at risk of not graduating from high 
school on time, if at all, and most likely not to complete a post-
secondary credential. New York City, Philadelphia and a dozen more 
cities across the country are taking on an effort to open such schools 
as part of systemic reform initiatives to include invest in smaller 
schools or programs for their overaged and under-credit students, to 
help them get back on track to graduation.
                            recommendations
    A key task before the committee is to build from such exemplars of 
what is possible to the creation of a policy environment that 
accelerates the transition away from high schools that fail large 
numbers of students toward options that reduce dropout rates and 
increase college-readiness and success. To this end we would like to 
emphasize four major recommendations:

    <bullet> Rigorous and Fair Graduation Rate Accountability. Congress 
should set the requirement that States give significant weight to 
improvements in graduation rate. At the same time, the law needs to 
avoid penalizing the designs of innovative high schools such as early 
college (where students may spend 5 years and get significant college 
credit) or back on track models that serve students who have already 
spent many years not progressing in school and yet are getting 
exceptional outcomes for these youth.
    <bullet> Turning Around Low-Performing Secondary Schools. We know 
that the off-track population tends to be concentrated in these 
schools. We recommend that Congress require Districts with these 
schools to work with the schools on analyzing and using data to 
identify the students who are off track to graduation and put in place 
appropriate back on track designs for them.
    <bullet> Support district systemic activities. Congress can create 
incentives for systemic approaches to implementing strategies and 
models aimed at the large number of off-track students and dropouts by 
requiring districts and schools to use early warning indicators to 
intervene and provide support and put in place back-on-track 
alternative education options, as well as work with community-based 
organizations on community dropout recovery strategies.
    <bullet> Incentives, Innovation and Invention. The ARRA-funded Race 
to the Top and Investing in Innovation (i3) funds commit the Federal 
Government to foster innovation in practice and policy. Along with 
scaling innovative strategies, we recommend that Congress support the 
research and development of new school models that show promise in 
serving the most vulnerable and underserved of our youth.
                                 ______
                                 
    Chairman Harkin, Ranking Member Senator Enzi, and the honorable 
members of the U.S. Senate HELP Committee, thank you for inviting me to 
speak with you today. I commend the committee for its hard work during 
the 111th Congress on behalf of the American people and now as you move 
forward on the reauthorization of a critical piece of American domestic 
policy, the Elementary and Secondary Education Act.
    I speak to you from two perspectives.
    First, I speak from a body of work: As Director of Education 
Policy, I work closely with the program staff at Jobs for the Future in 
Boston and our partnerships in over 200 communities in 41 States to 
cultivate and promote innovative education and workforce strategies. 
Jobs for the Future identifies, develops, and promotes new approaches 
that are helping communities, States, and the Nation compete more 
effectively in a global economy. Our work improves the pathways from 
high school to college to family-sustaining careers. The JFF mission is 
to double the number of youth and adults who attain the credentials and 
skills needed to be competitive in today's labor market.
    Second, I speak from personal experience: In 1996, 14 years ago, I 
was a senior and student body president at Hamilton High School in 
rural northwest Alabama. My alma mater is one of the 2,000 low-
graduation rate high schools across the Nation that together produce 
more than half of U.S. dropouts. Having returned to Alabama on several 
occasions in the past few months, I know from conversations from 
friends, families and community leaders that low academic preparedness 
and the large number of dropouts are creating formidable challenges as 
the region tries to attract new jobs and economic activity to an area 
plagued by unemployment and a rural drug problem. From my small 
hometown to the great urban centers of this country, continuation of 
current trends in high school performance and graduation will lead to 
an unacceptable bifurcation of opportunity--a widening gulf between 
individuals with the skills and credentials to access higher paying 
careers and the poor and low-skilled who have little prospect of 
advancement. Unaltered, these trends pose a severe threat not only to 
our Nation's future economic growth, but to our social fabric.
    In spite of the high stakes involved here, I sit before you today 
encouraged by the questions being asked in this hearing. My hope is 
that today's discussions send a clear message that it is truly time to 
put the secondary into the Elementary and Secondary Education Act. This 
reauthorization of ESEA is the time to tackle the K-12 institution most 
resistant to reform--the low-performing high school.
                             the imperative
    The continued failure of secondary school systems in the United 
States to dramatically improve the educational attainment of low-income 
young people, young people of color and those in rural America is 
perhaps the single most significant factor in our country's drop from 
first to tenth in the world in the completion rate of post-secondary 
degrees by age 35. Among the lowest-income students, just 21 percent 
graduate from high school prepared for college; an alarmingly low 11 
percent earn a post-secondary credential, compared to a 51 percent 
credential completion rate for students from higher income brackets 
(NCES 1988 and 2000).
    Reversing this course will require strong and coordinated action 
and a strengthened Federal-State partnership to raise the high 
graduation rate and the college preparedness level of high school 
graduates, especially among those from low-income families.
    The committee is to be commended in recognizing that focusing just 
on raising achievement in high school is not enough, that we must also 
raise graduation rates dramatically. With the high school graduation 
rate basically flat for several decades, our Nation cannot make the 
gains we need in productivity without dramatic reductions in the 
dropout rate and significant and steady increases in district and State 
graduation rates.
                           signs of progress
    From Jobs for the Future's experience working to improve college-
ready high school graduation with school, district, and State partners 
we have learned that dramatically better outcomes--especially for low-
income students and students of color--are possible, but only when 
there is continued and significant investment in groundbreaking and 
innovative high school designs. Some of the best of these efforts are 
represented on this panel.
    Around the country, innovative or redesigned high schools are 
beginning to amass evidence of their effectiveness in graduating more 
students with a college-ready diploma. One key example is the national 
network of early college high schools launched in 2002 with generous 
resources from the Bill & Melinda Gates Foundation, that has expanded 
to more than 200 schools in 24 States, serving 42,000 students. In 
fact, the largest number of these high schools--70--are in North 
Carolina where Tony Habit and his New Schools Project have partnered 
with the State and with JFF to implement these schools. In the 8 years 
since the early college design was first developed, it has proved to be 
an exceptional approach for increasing the likelihood that high-need 
students are on-track for high school graduation and prepared for 
college.
    With a student population primarily composed of students of color, 
low-income youth, and first-generation college-goers, early colleges 
have overcome historically low education attainment levels and 
propelled students on a pathway to post-
secondary success. By graduation, early college students have 23 
college credits on average, and enroll in higher education institutions 
at significantly higher rates than peers in comparison schools.
    Moreover, a growing body of rigorous research that includes 
experimental and quasi-experimental studies has shown that early 
college students progress through key college preparatory courses at a 
significantly higher rate than control students and outperform peers in 
comparison schools. It is particularly striking that these schools 
appear to be closing the performance gap for students of color.
    Even as we sit here today Early College High Schools across the 
country are marking the success of these high schools by holding events 
to raise visibility in their communities as a part of the national 
Early College High School Week.
    Another encouraging trend worth noting is the spread of what we 
call Back on Track designs that are getting promising results with the 
young people who are the most at risk of not graduating from high 
school on time, if at all, and most likely not to complete a post-
secondary credential. We use the term ``back on track'' to 
differentiate such schools from traditional alternative schools, which 
too often have been holding tanks for troublesome students. In 
contrast, Back on Track schools combine accelerated academics with the 
supports and culture of effort these young people need to succeed in 
high school and college.
    Six years ago, New York City began groundbreaking work to open such 
schools as part of a systemic reform initiative to replace failing high 
schools with new small schools for entering ninth graders. At the same 
time, they invested in even smaller schools or programs for their 
overaged and under-credited students, to help them get back on track to 
graduation.
    The highest performing of these back on track schools are now 
graduating students at 2 to 3 times the rates of other high schools and 
students are earning almost twice as many credits in their first year 
as they earned upon enrolling in the schools. In Philadelphia, a 
similar effort to start what they call Accelerated Schools has 
graduated 853 over-age and under-credited students over the last 3 
years, raising the district's graduation rate by 2 percentage points 
each year.
    This work continues to spread. We have worked in over a dozen 
cities, from Mobile, AL to Portland, OR that are undertaking similar 
efforts.
                         policy recommendations
    The progress of the innovative frontrunner cities and States in 
seeding and supporting better alternatives for struggling students is 
impressive. But while identifying exemplars is important, creating a 
policy environment that promotes and expands successful secondary 
school options while shrinking the number of low-performing high 
schools is another.
    What suggestions does Jobs for the Future have for accelerating the 
transition away from high schools that fail large number of students 
toward options that can reduce dropout rates and increase college-
readiness and success? Our recommendations fall into four categories.

    1. Accountability measures that incorporate graduation rates 
rigorously but fairly;
    2. Turnaround policies that are appropriate for middle and high 
schools and that create openings for more quality options for off-track 
youth;
    3. Support district systemic activities such as reporting of and 
visibility of off-track students and the implementation of appropriate 
schools, programs or strategies that put these students back on track 
to graduation; and
    4. Incentives for innovation to create, test, and grow more 
effective high schools to help more low-income young people graduate--
and graduate ready for college success.

    Rigorous and Fair Graduation Rate Accountability. As with few other 
topics in education reform today, there is strong consensus about 
including graduation rates in high school accountability systems. 
Advocates and policymakers agree that graduation rates should be given 
equal weight with academic performance when holding schools, districts 
and States accountable for student achievement. Education reform is no 
longer just about getting students the right curriculum, teachers and 
supports. We must get more students across the line with a diploma in 
hand and ready for the next step to post-secondary education and 
training. JFF makes the following recommendations to Congress for 
building on current regulations and finishing the job on graduation 
rate accountability:

    <bullet> Define the graduation rate as a 4-year cohort graduation 
rate adjusted for transfers in and transfers out.
    <bullet> Require States to set aggressive annual measurable 
objectives for increasing the number of students who graduate.
    <bullet> Authorize the Secretary to approve State proposals to use 
an extended year graduation rate for select schools such as early 
college high schools and back-on-track schools.
    <bullet> Allow back-on-track schools to show interim progress 
towards annual measurable objectives through predictive indicators of 
student achievement, such as the number and percentage of students 
earning credit in core courses.
    <bullet> Ensure that any requirement by the Secretary that a 
percentage of students graduate under a 4-year cohort graduation rate 
allows for an exemption mechanism, such as a waiver, for select schools 
that by design will require more than 4 years for students to complete 
(i.e. early college high schools and back-on-track schools).

    Turning Around Low-Performing Secondary Schools. NCLB provisions to 
improve low-performing schools have had little impact on the 2,000 low 
graduation rate high schools that account for over half of the Nation's 
dropouts. Many of these schools with graduation rates below 65 percent 
have not been identified as low performing, in part because graduation 
rate regulations have yet to go into effect. The ``differentiated 
accountability pilot program'' and the recent ARRA School Improvement 
Grant requirements for identifying persistently low-performing schools 
have established a framework for distinguishing among troubled schools 
and driving the most intensive set of reform strategies to those that 
are the lowest performing. These developments are essential to the goal 
of creating incentives that advance the development and scaling of 
quality pathways, especially for those students who are off-track to 
graduation. JFF has found that, in many of these high schools, up to 80 
percent of students are behind in skills or credits.
    Congress should adopt school turnaround provisions that provide 
incentives and resources for States, districts and high schools to 
implement strategies and models that meet the challenges of large 
numbers of off-track students. Congress should:

    <bullet> Permit differentiated accountability. Allow States to 
distinguish between schools and districts in need of intensive 
interventions and those that may be closer to meeting annual measurable 
objectives.
    <bullet> Prioritize low-graduation rate high schools. Require 
States and districts to prioritize for immediate action secondary 
schools with graduation rates below 65 percent for immediate action.
    <bullet> Require specific school turnaround activities. Require 
schools identified for turnaround to analyze data to determine the 
number and percentage of students that are significantly off-track and 
identify strategies and models to put them back on track to graduation.
    <bullet> Require district-wide activities. District level 
leadership is essential for systemic approaches to implementing 
strategies and models aimed at the large number of off-track students 
and dropouts in the schools and communities within a district. Congress 
can create incentives by:

        <bullet>  Requiring districts and schools to use early warning 
        indicators to intervene and provide support for off-track 
        students at risk of dropping out.
        <bullet>  Requiring district analysis and use of data on the 
        district-wide off-track population in order to design 
        interventions and put in place back-on-track alternative 
        education options (e.g., transfer schools).
        <bullet>  Requiring district-wide dropout recovery strategies 
        in partnership with community-based organizations, such as re-
        engagement centers and back on-track alternative education 
        options including GED-to-college programs.

    Support district systemic activities. While over a million students 
drop out of school each year, the population of students who are in 
school but off-track to an on-time graduation is not a marginal group. 
An estimated 1.3 million students are off-track to graduation by the 
end of 9th grade. In the lowest graduation rate high schools, up to 80 
percent of entering students can be behind in skills or credits.
    Most high schools are not equipped--in terms of structure, human 
resources, curriculum, or schedule--to deal with this challenge. Too 
often, the only option for off-track students is simply to repeat the 
same curriculum, taught in the same formats and by the same teachers 
who failed to engage them the first time.
    Students who are significantly off-track to graduation need a very 
different model of schooling; they need well-staffed schools with 
experienced teachers and advocates, targeted instructional strategies, 
and accelerated learning options. Based on analyses of student data, 
these plans should include a range of strategies, from quick recovery 
systems for older students who are close to graduation to small 
learning communities that support multiple back-on-track strategies in 
a single setting to address the needs of students much further from 
graduation.
    Congress can create incentives for systemic approaches to 
implementing strategies and models aimed at the large number of off-
track students and dropouts by:

    <bullet> Requiring districts and schools to use early warning 
indicators to intervene and provide support for off-track students at 
risk of dropping out.
    <bullet> Requiring district analysis and use of data on the 
district-wide off-track population in order to design interventions and 
put in place back-on-track alternative education options (e.g., 
transfer schools).
    <bullet> Requiring district-wide dropout recovery strategies in 
partnership with community-based organizations, such as re-engagement 
centers and back-on-track alternative education options including GED-
to-college programs.

    Incentives, Innovation and Invention. One of the most promising 
recent Federal policy developments is the expansion of Federal support 
for innovation at all levels to address the Nation's most perplexing 
education reform challenges. The ARRA-funded Race to the Top and 
Investing in Innovation (i3) funds commit the Federal Government to 
foster innovation in practice and policy. In response, States and 
districts are already changing policies and advancing ambitious plans 
to scale effective programs and practices. The i3 competitive grants 
have opened important space for innovators to experiment with and 
invent new strategies for improving education outcomes for the most at-
risk. JFF makes the following recommendations to Congress:

    <bullet> Invest in scaling what works. Nationally, there are 
numerous strategies and school models, such as early college high 
schools, that have demonstrated effectiveness in increasing college and 
career-readiness for low-income students who are ready for college and 
a career. Congress should continue Race to the Top, i3 and other 
funding streams that focus resources to ensure more widespread adoption 
of and implementation of innovation strategies and approaches at 
secondary schools.
    <bullet> Invest in invention. The Nation will not move the needle 
dramatically on graduation rates without combining the redesign of 
failing high schools with a sustained effort at the invention of new 
models designed to help young people get back on track to high school 
graduation and post-secondary attainment. In the big cities that are 
ground zero of the dropout crisis, educators, youth developers, and 
social entrepreneurs have begun to invent new solutions that are 
leading to ``beat the odds'' results. Along with scaling innovative 
strategies, Congress should support the research and development of new 
school models that show promise in serving off-track students, English 
learners, and students in rural areas.

    The Chairman. Thank you very much, Mr. Johnson, for the 
statement.
    Mr. Deshler.

STATEMENT OF DONALD D. DESHLER, Ph.D., DIRECTOR, UNIVERSITY OF 
     KANSAS CENTER FOR RESEARCH AND LEARNING, LAWRENCE, KS

    Mr. Deshler. Thank you, Chairman Harkin, for this 
opportunity.
    If I might go right to the bottom line, speaking of 
adolescent literacy, with one statistic, the magnitude of the 
problem is this, 70 percent of all middle school and high 
school students read below proficiency on the NAEP. In the 
limited time that I have, with that as a backdrop, I'm going to 
talk about two incorrect assumptions, or myths, that adversely 
affect how struggling adolescent learners are often treated and 
taught in public schools, and how education public policy has 
been crafted.
    The first incorrect assumption is this, that it is too late 
to do anything about students once they get to middle school or 
high school without sufficient literacy skills. In some of our 
schools, this attitude has led to placing these students in 
low-track classes, assigning them the least experienced 
teachers, and crossing our fingers, and hoping that they do not 
become a disruptive force in our schools, but hang on long 
enough to graduate, so they do not count against our dropout 
statistics.
    From a public policy standpoint, a similar there-is-not-
much-we-can-do posture has been adopted. Evidence of this is 
the paltry investment that the Federal Government has 
historically made in students in grades 7 through 12, compared 
to investments made in children from birth through grade six 
and in the post-secondary programs, such as Pell Grants.
    The bottom line, our investment in adolescents is only 20 
percent of the total education expenditure. Since so little is 
invested in students in grades 7 through 12, these students, 
who fall in the middle of the continuum from birth through 
post-secondary, are appropriately referred to as the ``missing 
middle.''
    The second point that I want to make is, these students can 
learn. There's compelling evidence that shows that, when we use 
powerful evidence-based practices, dramatic changes occur in 
their performance. I cite two examples in my written testimony; 
there are thousands around the country mirroring this kind of 
achievement. It is not too late to change what is happening. To 
buy into the myth that the gap can't be closed is analogous to 
a doctor pulling the plug on a patient who is in the hospital 
because of a bad virus. The patient might be very ill and not 
functioning well, but he is not dead. There is still hope, and 
we need to act accordingly.
    The second incorrect assumption is the following: ``It is 
wiser to invest in younger children,'' or ``Let's get them 
while they are young and prevent problems from occurring 
later'' mentality. Don't get me wrong, I am a strong proponent 
of making investments in our younger children; there is 
compelling evidence to justify why it is a sound public policy 
to do so. However, there are a couple of fallacies in the 
position that ``it is sufficient to put all of our eggs in the 
early childhood basket.''
    First, unlike getting inoculated for chickenpox, early 
literacy education does not ensure that problems will not 
emerge as children grow older. In other words, the inoculation 
does not last. As children move into middle and high school, 
the demands of the curriculum change dramatically; enhanced new 
and more sophisticated literacy skills are needed.
    Second, even though we may have effective procedures for 
younger children, in this country we have not been effective in 
scaling those practices; hence, there are many young children 
who don't get validated practices. Many of these students move 
through the sieve, end up in middle and high school without the 
necessary skills.
    In conclusion, I would like to emphasize these three 
recommendations:
    No. 1, there are three pieces of legislation before the 
Congress currently: the LEARN Act, the Success in Middle School 
Act, and the Graduation Promises Act. All of these are well 
conceptualized and go straight to the problems that I have 
described in adolescent literacy.
    And second, the importance of investment in research in 
adolescent literacy. Research is the engine that drives 
innovation, that drives improvement on the front lines. 
Historically, very little investment has been made in research 
for older populations. It is another reason that we have fewer 
answers than we need for older students.
    I look forward to responding to your questions.
    [The prepared statement of Mr. Deshler follows:]
             Prepared Statement of Donald D. Deshler, Ph.D
                                summary
                              the problem
    When describing the ``literacy health'' of many adolescents in our 
country, the term ``crisis'' is not hyperbole; it is a very accurate 
characterization of the realities with which we must come to grips when 
we consider the fact that our schools must produce graduates capable of 
successfully competing, and leading, in the global arena. If this 
crisis is not addressed in the next reauthorization of ESEA, the 
futures of millions of today's struggling adolescent learners will be 
foreclosed and our Nation's economy and our Nation as a whole will be 
weakened as will the fabric of the families and communities that will 
become the homes to these undereducated and underprepared individuals. 
Some indicators of the severity of the problem are: (a) 70 percent of 
middle and high school students read below proficiency, (b) 30 percent 
of adolescents do not graduate from high school, (c) 40 percent of high 
school graduates lack the literacy skills employers seek, and (d) 
Federal investments in middle and high schools has historically been 
but a small fraction of investments made in younger children and those 
in post-secondary education--this has been referred to as the ``missing 
middle.'' This lack of funding has contributed to the dismal literacy 
attainment.
             important considerations in finding solutions
    <bullet> Because the curriculum demands change dramatically when 
students move into middle and high school, the basic literacy skills 
that they learned in early elementary grades are necessary but far from 
sufficient. To succeed in rigorous courses, students need to acquire a 
whole new set of literacy competencies--in short, literacy instruction 
must continue through the secondary grades.
    <bullet> There is a direct and unmistakable correlation between the 
literacy performance of students within a school and how highly a 
school is ranked. This means that if our country wants to turn around 
its low-performing schools, it must make literacy improvement a central 
part of its overall school improvement strategy.
                            recommendations
    1. Increase funding for middle and high schools.
    2. Support current legislative initiatives related to adolescent 
achievement.
    3. Support the development and adoption of State-led common 
standards that embed literacy standards throughout the content areas.
    4. Encourage States to develop a comprehensive literacy policy.
    5. Invest in professional development in literacy instruction for 
current and prospective teachers and administrators and encourage 
States to revise certification and licensure standards.
    6. Invest in ongoing research and evaluation.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi and members of the committee, 
thank you for this opportunity to speak about a large and rapidly 
growing group of students in our Nation's schools who are frequently 
misunderstood, inappropriately taught, or neglected altogether.
    My purpose is to speak about the millions of adolescents whose 
literacy skills are so low that they cannot make sense of their 
classroom texts, frequently fail to graduate from high school, and are 
unsuccessful in transitioning into careers or post-secondary education. 
Specifically, I will address issues related to adolescent literacy, 
including (a) the nature and scope of the problem; (b) why literacy 
instruction is essential in middle and high schools; (c) how improving 
adolescent literacy performance is foundational to turning around low-
performing secondary schools, (d) evidence that well-conceptualized and 
soundly implemented educational programs in and outside of schools can 
turn the performance of these students around--it is not too late to 
act; and (e) policy recommendations that would serve as the 
cornerstones of a sound strategy for dramatically changing the academic 
achievement for struggling adolescent readers and writers.
    The term ``crisis'' is typically defined as a threat or perceived 
threat to an organization's high priority goals. The term is often used 
to describe social challenges that our Nation faces. Frequent and 
inappropriate use of the term can cheapen its meaning. However, when 
describing the ``literacy health'' of many adolescents in our country, 
the term ``crisis'' is not hyperbole; it is a very accurate 
characterization of the realities with which we must come to grips when 
we consider the fact that our schools must produce graduates capable of 
successfully competing, and leading, in the global arena. If this 
crisis is not addressed in the next reauthorization of ESEA, the 
futures of millions of today's struggling adolescent learners will be 
foreclosed and our Nation's economy and our Nation as a whole will be 
weakened as will the fabric of the families and communities that will 
become the homes to these undereducated and underprepared individuals.
                  the nature and scope of the problem
    As little as 10 years ago, educators and policymakers had very 
little knowledge about what constituted the adolescent literacy 
problem. Limited information was available in the professional 
literature, and even less research had been completed on the 
characteristics of struggling adolescent readers and writers.
    That landscape has changed somewhat in the last decade. Increased 
attention from private foundations (e.g., the Carnegie Corporation of 
New York, the Gates Foundation, the Stupski Foundation) and even some 
Federal agencies has begun to shed light on the magnitude of the 
problem.
    Among the things we have learned are the following:

    <bullet> Three out of ten high school students do not graduate on 
time, and nearly 50 percent of students of color do not graduate on 
time (Gewertz, 2009).
    <bullet> Six million out of twenty-two million of America's middle 
and high school students are struggling readers.
    <bullet> According to the NAEP (National Assessment of Educational 
Progress), 70 percent of middle and high school students read ``below 
proficiency''--in other words, fewer than a third of adolescents have 
the literacy skills they need to succeed in school or beyond.
    <bullet> Only one out of four 12th-grade students is a proficient 
writer (Salahu-Din, Persky, & Miller, 2008).
    <bullet> Forty percent of high school graduates lack the literacy 
skills employers seek (National Governors Association, 2005).
    <bullet> Lack of basic skills by young adults costs universities 
and businesses as much as $16 billion annually (Greene, 2000).
    <bullet> One out of every five college freshmen must take a 
remedial reading course (SREB, 2009).
    <bullet> Nearly one third of high school graduates are not ready 
for college-level English composition courses (ACT, 2005).
    <bullet> Over half of adults scoring at the lowest literacy levels 
are dropouts (National Center for Educational Statistics, 2007).

    Collectively, these findings resoundingly underscore the fact that 
insufficient literacy attainment negatively impacts students' 
opportunities for success in the classroom, leading to a higher 
likelihood of dropping out of school, as well as markedly reduced 
earnings as adults. There is no longer the same call for low-skill, 
high-wage jobs that there was in the past. In fact, the 25 fastest 
growing professions have far-greater-than-average literacy demands, 
while the fastest-declining professions have lower-than-average 
literacy demands. About 45 percent of all job growth between 2004 and 
2014 will require high-level literacy skills.
why quality literacy instruction is essential in middle and high school
    In recent years, America's educational system has been successful 
in raising the reading and writing scores of younger children. For 
example, considerable evidence indicates that the Federal investment in 
Reading First (and its predecessor, Reading Excellence) yielded 
positive reading achievement outcomes. Specifically, the NAEP reading 
scores for fourth graders have been improving since 2002, and the 
racial achievement gaps have, in many instances, been narrowed. These 
achievement gains are the largest in reading for fourth-grade students 
in 33 years and demonstrate that targeted Federal investments that 
require schools to use evidence-based methods can produce significant 
growth in student performance.
    Despite the success experienced with early literacy initiatives, 
the NAEP data tell an entirely different story for middle and high 
school students. The literacy performance for 13- and 17-year-olds has 
remained flat for the last 37 years. Hence, some of the encouraging 
early gains appear to dissipate as students move into the secondary 
grades.
    The most significant instructional and policy question is whether 
these losses in achievement can be prevented. Fortunately, compelling 
evidence is accumulating showing that gains made in early elementary 
school can provide a solid foundation upon which to build additional 
success when students reach secondary schools. Two examples of 
successful programs will be showcased in the following section. Before 
looking at these cases, however, it's important to understand why early 
investments in literacy education alone are not sufficient to guarantee 
strong literacy performance when students reach adolescence.
    The literacy skills that students acquire in early elementary 
grades lay an essential foundation for later academic success, but they 
are not sufficient in and of themselves. The main reason is the fact 
that the demands of the curriculum change dramatically as students move 
into middle school and progress through high school, including the 
volume, abstractness, and complexity of text materials they must 
navigate. As demands change, so must a student's skill repertoire. 
Compared to the curriculum demands encountered in the elementary 
grades, starting in middle school, students are expected to respond to 
assignments that (a) are much longer and more complex at the word, 
sentence, and structural levels; (b) present greater conceptual 
challenges that affect reading fluency; (c) contain detailed graphics 
that often do not stand on their own; and (d) require an ability to 
synthesize information. On top of those factors, each content area 
(e.g., history, science, math, literature) often requires students to 
understand and use different types of strategies and approaches.
    Because of the rapidly changing and dramatically different 
curriculum demands in the later grades, adolescents must acquire 
additional literacy skills if they are to survive, let alone thrive, in 
secondary school. While some students can independently make the 
necessary adaptations to respond to this changed landscape, many 
adolescents cannot--especially those who struggled in learning to read 
and write in the first place. These students need explicit, scaffolded, 
coordinated instruction to help them acquire a set of strategies for 
dealing with the new literacy demands they encounter in middle and high 
school.
    It is important to note that in many low-performing secondary 
schools, a large percentage of the struggling reader group (as many as 
80 percent) have not acquired the necessary foundational word-level 
skills, including phonics, decoding, word identification, and fluency. 
Therefore, these students must receive intensive, explicit instructions 
to help ensure they master these essential foundational skills, as well 
as instruction in vocabulary and comprehension strategies. In other 
words, before these students can be taught the more sophisticated 
literacy skills described above, they must acquire the basic word 
recognition, decoding, and fluency skills that they should have learned 
during their elementary grades. The amount of time that must be devoted 
to intensive literacy instruction in middle and senior high school for 
these students is daunting. However, in the absence of doing so, the 
life trajectory for these students is dismal in light of the compelling 
correlations between literacy competence and employment, health, 
remaining clear of problems with legal authorities, and family 
stability.
      transforming low-performing secondary schools by improving 
                          literacy attainment
    If a large number of adolescents in a secondary school are 
performing poorly in reading and writing, in all likelihood, the school 
is a low-performing school. In other words, there is a direct and 
unmistakable correlation between the literacy performance of students 
within a school and how highly a school is ranked. This means that if 
our country wants to turn around its low-performing schools, it must 
make literacy improvement a central part of its overall school 
improvement strategy.
    Foundational to improving any valued educational metric (e.g., high 
performance on State assessments, reduced dropout rates, successful 
transitioning to and success in careers and post-secondary education) 
is ensuring that students are highly proficient in the literacy skills 
that enable them to deal with rigorous course requirements in school 
and challenging career and post-secondary experiences. If students 
cannot read and write with relative ease, they will fail, and their 
schools will be among the lowest performing. Schools will only improve 
as quickly as literacy proficiency improves.
    Transforming America's lowest performing middle and secondary high 
schools into productive learning environments in which students and 
teachers thrive requires an aggressive, comprehensive, approach that 
targets instructional, personnel, and infrastructure factors. Some of 
these factors are highlighted below:

    School leaders make instruction a top priority. School and 
departmental leaders are relentless in their pursuit of meeting 
important learning goals for all students. Creating conditions that are 
favorable for instruction and learning is a top priority and toward 
that end, leaders facilitate the development and use of protocols for 
observing, describing, and analyzing practice (Elmore, 2005).
    School culture is centered on student learning. Student learning is 
of paramount importance for all educators and each assumes a deep sense 
of responsibility and ownership for student growth. A school 
environment that is encouraging, inviting, and personalized is the 
norm. Staff demonstrate a sense of collective efficacy. That is, they 
believe that as a whole, they can organize and execute actions 
necessary to have a positive effect on students. In addition, there is 
a strong bond of trust between colleagues, parents, and students (Hoy, 
Tarter, & Woolfolk, 2006).
    Instructional practices are evidence-based. Recommendations 
recently released by the Institute of Education Sciences (Kamil et al., 
2008) and the Center for Instruction (Torgesen et al., 2007) about 
evidence-based instructional practices are the standard against which 
current practice is evaluated and improvement goals are set. 
Instructional practices seen in high frequency across classes include 
explicit vocabulary instruction; direct, explicit comprehension 
strategy instruction; guided discussion to determine the meaning of 
text; and instruction in essential content knowledge and concepts with 
scaffolded supports.
    Multi-tiered instructional supports are in place. Because some 
students require more intensive and explicit instruction of content and 
skills, schools provide scaffolded instructional supports to enable 
these students to build the skills that they will need to independently 
thrive in content classes (Ehren, Deshler, & Graner, in press). That 
is, instructional arrangements of increased intensity are made 
available to students, differentiated to address individual student 
needs. This instructional model is referred to as a multi-tier system 
of supports (MTSS), and where it is implemented with fidelity, failure 
rates are reduced.
    Literacy instruction is integrated in all classes. Content teachers 
from core classes (math, science, language arts, social studies) know 
that for students to understand and master critical course content, 
they must be taught how to navigate discipline-specific content 
materials (Lee & Spratley, 2010). Therefore, teachers provide a 
``reading apprenticeship'' in which they give students multiple models 
of how to use high-leverage learning strategies to process discipline-
specific text materials and focus classroom talk on how to make sense 
of discipline-specific text materials (e.g., Greenleaf & Hinchman, 
2009). In addition, the strategies that struggling readers learn in 
supplemental reading classes are reinforced in content classes so 
students are able to transfer what they have learned to other classes 
throughout their day.
    Instructional decisions are driven by student, classroom, and 
school data. The power of data in informing instruction at the student 
and classroom level is widely recognized as essential for student 
success (Learning Point Associates, 2006). Data systems are implemented 
and continually refined to be more responsive to teachers and 
administrators as they work to improve instructional impacts. In 
addition to data on how students are responding to instruction, highly 
effective schools collect actionable data to help them gauge how fully 
and efficiently they are using available resources (e.g., are all slots 
in the supplemental reading classes being fully utilized), what factors 
operate within a school that ``impede'' progress toward specified 
goals, and how closely literacy services within a school are aligned 
with the reading and writing profiles of students. For example, data 
collected during school-wide professional development can provide 
valuable feedback relative to the speed of implementation of a new 
instructional practice, the fidelity of implementation, and the 
sustainability rate over time. These and other measures help sharpen 
the focus of work on improving literacy outcomes and, therefore, are 
used by the school's Literacy Leadership Team to drive school-wide 
literacy improvement.
    Continual learning for all staff is a high priority. Data-driven, 
ongoing, job-embedded professional development along with instructional 
coaching supports is made available to all teachers and administrators 
(Darling-Hammond, et al., 2009). When applicable, the content of 
professional development sessions are evidence-based. In addition, 
accountability systems are in place to ensure that application and 
follow-up coaching is provided to improve the probability of 
implementation. As part of these initiatives, school leaders receive 
professional development on literacy interventions, and the knowledge 
that they gain will form the basis of expectations they will set and 
supports they will provide to their teachers.
    Student transitions from middle school to high school are carefully 
planned. Success in high school is greatly influenced by how 
successfully students transition into and succeed during their ninth-
grade year (Roderick, 2006). Hence, emphasis is placed on ensuring that 
students are prepared socially and academically to transition from 
middle school into high school. Supports (e.g., counseling, mentoring) 
are in place to catch and prevent potential failure. Such actions are 
aimed at the ninth-grade year because of the high correlation between 
setbacks during the ninth grade and students eventually dropping out of 
school.
    Positive behavioral supports are in place to ensure high 
productivity. High-quality instruction and learning occur in school 
environments that are orderly and where teachers and student feel safe 
to interact and to freely participate in the learning process. 
Productive learning environments are built, fostered, and maintained by 
implementing school-wide disciplinary practices. School-wide positive 
behavioral supports provide schools with an operational framework for 
achieving these outcomes (www.pbis.org).
   it's not too late to improve outcomes for struggling adolescents: 
                          two success stories
    All too frequently, educators and policymakers incorrectly conclude 
that nothing can be done to change the trajectory that struggling 
adolescent learners are on. In essence, they write off tens of 
thousands of students as educational casualties. Such a position is not 
only morally wrong; it flies in the face of a mounting body of evidence 
that underscores the fact that well-designed instructional programs for 
struggling adolescent learners in middle and high school can bring 
about dramatic changes in literacy attainment.
    The following two examples illustrate this claim. They have been 
chosen to show some of the exciting results that can happen in 
individual classrooms, and across entire schools, in terms of improving 
the literacy performance of struggling adolescent learners.
Example 1: Midwest Middle School--Dubuque, IA
    The Problem: A group of sixth-grade students with learning 
disabilities who were reading 2 to 3 years behind grade level were 
showing no signs of progress from the beginning of the school year in 
August to November.
    Toward a Solution: Because instructional time was limited, a 
decision was made to change the type of reading instruction these 
students were receiving. An evidence-based program (Fusion Reading) 
designed by researchers at the University of Kansas Center for Research 
on Learning was adopted. This program taught students a targeted number 
of high-leverage learning strategies to improve their ability to decode 
difficult words, read fluently, master discipline-specific vocabulary, 
and comprehend complex reading assignments. The teacher received 
appropriate professional development and follow-up coaching. Students 
received 60 minutes of instruction daily. The program was taught with 
high fidelity.
    The Results: Six months after instruction began, all students 
showed growth on their Measures of Academic Progress scores and 83 
percent of them met their target growth goal. The gains that they made 
were statistically significant (.004) with large effect size gains 
(1.71). Overall, these students are approaching the mean score range 
for the norm group. This means that the achievement gap for reading is 
closing in a dramatic fashion. With the new skills these students are 
acquiring, they will be able to enroll in rigorous classes because they 
can independently navigate and cope with the demands of their reading 
assignments.
Example 2: J.E.B. Stuart High School--Falls Church, VA
    The Problem: In the early 2000s, J.E.B. Stuart High School was 
labeled a ``failing school'' because of its poor academic record. The 
passing rates on the State assessment were as follows: Reading: 64 
percent, Algebra I: 32 percent, Chemistry: 44 percent, and History: 27 
percent. Stuart High has an enrollment of 1,500 students. The student 
body has a 30 percent mobility rate, 70 percent of its students were 
born outside of the United States, 25 percent are English Language 
Learners, 13 percent have disabilities, 86 percent are from minority 
backgrounds, and 54 percent qualify for free or reduced-price lunch.
    Toward a Solution: After looking at the poor record of student 
achievement, all of the educators at Stuart High School knew that 
drastic changes had to occur to give their students a chance to 
graduate and be college- or career-ready. High expectations were set, 
and a host of measures were put in place to change the culture and 
prevailing practices within the school, including a heavy emphasis on 
explicit vocabulary and comprehension instruction, ongoing discussions 
related to text, intensive strategic tutoring, multi-tiered 
interventions, extended learning time, heavy use of technology, and 
shared leadership. A core belief of the entire staff was that reading 
proficiency of every student was essential if they were to benefit 
fully from their high school education and become career- and/or 
college-ready. Hence, all teachers and administrators at Stuart High 
proudly say that they spell hope ``R-E-A-D.''
    The Results: Over a 5-year period, dramatic improvement was seen on 
virtually every indicator, each directly tied to the significant 
improvement in the core literacy skills of the student body. 
Specifically, on the State assessments, the pass rates became as 
follows: Reading: 94 percent; Algebra I: 98 percent; Chemistry: 88 
percent; and History: 96 percent. The International Baccalaureate (IB) 
enrollment increased from 18 to 48 percent, and the school exceeded the 
international average pass rate. Student performance never dropped 
below 80 percent. In other words, a school with high poverty, high 
diversity, 70 percent second language, and a 30 percent mobility rate 
outperformed elite private schools on the IB examinations.
                     federal policy recommendations
    Reauthorization of ESEA represents an opportunity to make a long 
overdue course correction in the proportion of Federal investments that 
have historically gone to adolescents in middle and high school 
settings. As shown in Figure 1, Federal education policy has long 
overlooked grades 7-12. As illustrated, early investments and post-
secondary investments each total about $25 billion annually. However, 
investments made to bolster the educational achievement of adolescents 
in middle and secondary schools are each under $4 billion annually. The 
Alliance for Excellent Education refers to this as ``the missing 
middle'' (Miller, 2009).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Investments in America's youngest children should continue to be a 
high priority as ESEA is reauthorized. But these investments should not 
be made at the expense of the needs of older children. An econometric 
model developed by Nobel Laureate James Heckman (an economist from the 
University of Chicago) demonstrates that with no investments at all, 
high-risk children will attain a graduation rate of 41 percent. With 
early investments alone, the graduation rate rises to 66 percent. 
However, when investments are made from early childhood through 
adolescence, the predicted graduation rate rises to 91 percent!
    Large numbers of our country's adolescents are on a trajectory that 
is leading them to dropping out of school and/or entering the work 
force grossly ill-prepared to obtain and keep employment that will 
support them and their families. Traveling on this trajectory will 
greatly enhance their probability of ending up in jail, divorcing, and 
not being a contributing member of their community. While the 
adolescents on this trajectory differ in many ways, most of them have 
one thing in common: they lack the necessary literacy skills to 
successfully navigate the complex world in which they find themselves. 
One of the primary roles of public policy is to put in place programs 
and structures that will address problems that disadvantage individual 
citizens and as well as our Nation as a whole. Public policy 
intervention is needed to reverse the poor literacy performance 
evidenced by many adolescents. The lives of these students and the 
economic vitality of our country will be the beneficiaries.
    The following recommendations are designed to dramatically alter 
the path that too many of our struggling adolescent learners are on.

    <bullet> Recommendation #1: Increase funding for middle and high 
schools. The neglect of financial support for students in grades 7-12, 
compared to the earlier grades, that currently and historically has 
existed, must be reversed immediately. Without such investments, 
serious progress in turning around low-performing secondary schools, 
dramatically reducing the current dropout rate, and making more 
students career- and college-ready will not occur.
    <bullet> Recommendation #2: Support current legislative initiatives 
related to adolescent achievement. Three bills currently before the 
Congress would favorably impact adolescent academic performance. The 
support of each would create a context conducive to significantly 
moving the needle on the adolescent literacy problem. First, the 
conceptual framework embodied within the ``Literacy Education for All, 
Results for the Nation Act'' or LEARN Act is sound and deserves strong 
support. The pre-K through 12 comprehensive nature of this proposed act 
affords schools the opportunity to put in place a literacy plan that is 
coordinated and integrated across all grade levels. As such, it 
recognizes that literacy instruction is, indeed, necessary at all age 
levels, not just the earlier ones.
    Second, the Graduation Promise Act would support State-led systems 
for high school accountability and improvement. States and school 
districts would identify low-performing high schools, and a rigorous 
diagnostic analysis would be used to identify and tailor research-based 
reforms to turn them around.
    Third, the Success in the Middle Act is designed to prevent 
students from becoming dropout statistics through the use of early 
warning systems that identify at-risk students and offer them support 
so they continue in school and graduate.
    Therefore, it is imperative that all three bills be passed.
    <bullet> Recommendation #3: Support the development and adoption of 
State-led common standards that embed literacy standards throughout the 
content areas. Our ability to prepare students to succeed in the 
marketplace is directly dependent on their ability to meet a set of 
uniformly high standards. Currently, there is so much variation across 
State standards that it is impossible to align them to college and 
career readiness benchmarks. State-led common standards in the core 
academic areas will result in setting one high bar to ensure that 
students have sufficient literacy skills to be ready for college and 
careers. To reach this goal, it is essential that standards within each 
of the academic disciplines include specific literacy competencies that 
students must meet.
    <bullet> Recommendation #4: Encourage States to develop a 
comprehensive literacy policy. To accelerate the rate at which schools 
embrace and seriously implement measures to improve adolescent literacy 
outcomes, each State's education agency must develop a detailed plan to 
work with districts to help them implement State policies relative to 
adolescent literacy and then monitor districts' progress. Among other 
things, States should identify the reading skills students need in 
order to improve reading achievement and to meet State standards in key 
academic subjects through high school.
    <bullet> Recommendation #5: Invest in professional development in 
literacy instruction for current and prospective teachers and 
administrators and encourage States to revise certification and 
licensure standards. Of all of the factors that contribute to positive 
student outcomes, the competence of the teachers who teach students is 
most important. That is, student behavior will change only to the 
degree that teachers possess the essential instructional competencies 
to enable their learning. Discipline-specific teachers must be prepared 
to integrate literacy instruction into their content instruction. 
Similarly, reading and writing specialists must demonstrate 
competencies in adolescent language and knowledge of explicit, 
intensive instructional pedagogies and supplemental teaching methods. 
Finally, school administrators must be prepared to lead school-wide 
literacy improvement efforts and create the kinds of instructional 
conditions that promote literacy attainment.
    <bullet> Recommendation #6: Invest in ongoing research and 
evaluation. In order to close the large achievement gap that exists for 
struggling adolescent learners and given the shortage of time available 
to teach them, teachers need evidence-based instructional practices 
that are more powerful and efficient than the ones currently available. 
Collectively, the existing research base on adolescent literacy is 
relatively scant, significantly hindering the headway that needs to be 
made with struggling adolescent learners.
    A sampling of the types of research questions that must be answered 
include (a) What are the best strategies and/or combination of 
strategies to use with adolescents demonstrating various learning 
profiles?; (b) How should instruction be designed to meet the unique 
needs of adolescents with disabilities and English Language Learners?; 
(c) How can teacher preparation and professional development programs 
be reconfigured so secondary-level teachers can efficiently acquire the 
necessary competencies to infuse literacy instruction into their 
classes?; and (d) What are the unique issues confronting low-performing 
rural secondary schools versus low-performing urban schools and what 
turnaround strategies work best in each setting?
    While some investments have been made through IES and NICHD to 
support research on adolescent learners, these investments have been 
infinitesimally small compared to the investments these agencies make 
in younger children. Thus, few of the proposals submitted to these 
agencies in adolescent literacy end up being funded. Strategies for 
engaging larger numbers of researchers to conduct research in 
adolescent literacy need to be identified and implemented.
                               conclusion
    The dismal literacy attainment of so many of our country's 
adolescents underscores how critical it is that the newly reauthorized 
ESEA include measures to address this problem. Education policy that 
focuses on improving the quality of instruction that takes place in our 
Nation's classroom can have the most immediate, significant and long-
lasting impact on student outcomes. The needle will move on adolescent 
literacy performance when policies are enacted that call for the use of 
instructional practices that are grounded in sound research. Keeping 
this focus in mind will provide a basis for all policy recommendations 
that follow:
                               References
Darling-Hammond, L., Wei, R.C., Andree, A., Richardson, N., & Orphanos, 
    S. (2009). Professional learning in the learning profession: A 
    status report on teacher development in the United States and 
    abroad. Washington, DC: National Staff Development Council.
Ehren, B.J., Deshler, D.D., & Graner, P.S. (in press). Using the 
    content literacy continuum as a framework for implementing RTI in 
    secondary schools. Theory into Practice.
Elmore, R.F. (2005). School reform from the inside out: Policy, 
    practice, and performance. Cambridge, MA: Harvard Education Press.
Gerwertz, C., (2009), Dropout costs priced for 50 major U.S. cities: 
    The economic benefits of reducing high school dropout rates in 
    America's fifty largest cities. Washington, DC: Education Week.
Greene, J.P., (2000). The cost of remedial education: How much Michigan 
    pays when students fail to learn basic skills. Midland, MI: 
    Mackinac Center for Public Policy.
Greenleaf, C.L., & Hinchman, K. (2009). Reimagining our inexperienced 
    adolescent readers: From struggling, striving, marginalized, and 
    reluctant to thriving. Journal of Adolescent and Adult Literacy, 
    53(1), 4-13.
Hoy, W.K., Tarter, C.J., & Woolfolk Hoy, A. (2006). Academic optimism 
    of schools: A second-order confirmatory factor analysis. In W.K. 
    Hoy & C. Miskel (Eds.), Contemporary issues in educational policy 
    and school outcomes (pp. 135-156). Greenwich, CT: Information Age.
Kamil, M.L., Borman, G.D., Dole, J., Kral, C.C., Salinger, T., & 
    Torgesen, J. (2008). Improving adolescent literacy: Effective 
    classroom and intervention practices: A practice guide (NCEE #2008-
    4027). Washington, DC: National Center for Education Evaluation and 
    Regional Assistance, Institute for Education Sciences, U.S. 
    Department of Education. Retrieved from http://ies.ed.gov/ncee/wwc.
Learning Point Associates, (2006). Effective use of electronic data 
    systems: A readiness guide for school and district leaders. 
    Chicago, IL: Leaning Point Associates.
Lee, C.D., & Spratley, A. (2010). Reading in the disciplines: The 
    challenges of adolescent literacy. New York: Carnegie Corporation 
    of New York.
Miller, M. (2009). Seize the moment: The need for a comprehensive 
    Federal investment in adolescent literacy. Policy Brief. 
    Washington, DC: The Alliance for Excellent Education.
National Center for Educational Statistics, (2007). The Nation's report 
    card: Reading 2007. Washington, DC: U.S. Department of Education.
National Governors Association, (2005). Reading to achieve: A 
    governor's guide to adolescent literacy. Washington, DC: National 
    Governors Association.
Roderick, M. (2006). Aligning dropout prevention approaches with 
    efforts to raise achievement and improve high school performance: 
    Evidence from the Chicago Public Schools. In D. Clark (Ed.). The 
    challenge of high school reform, 21(2), 12-19. Washington, DC: The 
    Aspen Institute.
Salahu-Din, D., Persky, H., & Miller, J. (2008). The Nation's report 
    card: Writing 2007. Washington, DC: Institute of Education 
    Sciences.
SREB, (2009). A critical mission: Making adolescent reading an 
    immediate priority in SREB. Atlanta: Southern Regional Education 
    Board.
Torgesen, J.K., Houston, D.D., Rissman, L.M., Decker, S.M., Roberts, 
    G., Vaughn, S., Wexler, J. Francis, D.J., Rivera, M.O., & Lesaux, 
    N. (2007). Academic literacy instruction for adolescents: A 
    guidance document from the Center on Instruction. Portsmouth, NH: 
    RMC Research Corporation, Center on Instruction.

    The Chairman. Thank you very much, Mr. Deshler.
    Now we turn to Mr. Capozzi.

  STATEMENT OF JOHN CAPOZZI, PRINCIPAL, ELMONT MEMORIAL HIGH 
                       SCHOOL, ELMONT, NY

    Mr. Capozzi. Thank you, Chairman Harkin and distinguished 
members of the committee.
    My name is John Capozzi, and I am the principal of Elmont 
Memorial High School. I would like to thank you for providing 
me with the opportunity to speak to you about the strategies we 
use at Elmont Memorial High School to improve teacher 
effectiveness and provide our students with the rigorous 
education that prepares them for their post-secondary goals.
    Elmont Memorial High School is the largest of five schools 
in the Sewanhaka Central High School District, with nearly 
2,000 students in grades 7 through 12. The demographics of our 
school are 77 percent African-American, 13 percent Hispanic, 9 
percent Asian, and 1 percent White. Our academic achievement 
and annual graduation rate of over 94 percent has dispelled the 
myth that children of color cannot be provided with an 
enriching, challenging, and first-rate education.
    I am often asked how Elmont Memorial High School does this. 
The driving force behind Elmont Memorial's success is our 
belief that all children can learn.
    Research clearly shows that the No. 1 factor in student 
achievement is teacher effectiveness. We understand that our 
student success is directly correlated to our highly effective 
and dedicated teachers. My primary role as the principal is to 
serve as the instructional leader of the school and to provide 
support and supervision to the faculty.
    The role of the principal has changed dramatically 
throughout the years. Today, principals are often required to 
be managers rather than instructional leaders. For student 
achievement to improve, the principal's primary focus must 
remain on improving teacher effectiveness.
    Recently, there has been much discussion on developing 
teacher-leaders in schools. At Elmont Memorial, we utilize 
teacher-leaders to turnkey successful instructional strategies 
at faculty workshops. Excellent teachers benefit from this 
plan; however, this alone will not help improve the instruction 
in the mediocre and poor teacher's classrooms.
    Principals and school administrators must take the lead in 
helping teachers develop their pedagogical skills. In order for 
a principal to be an effective instructional leader, they must 
first be a master teacher. A master teacher analyzes data and 
differentiates instruction. A mediocre teacher simply examines 
data and re-teaches the material. A poor teacher does not 
examine the data and continues on to the next topic. A master 
teacher develops lesson plans that are responsive to the 
different learners in their classrooms. A mediocre teacher 
simply looks at content as the foundation of lesson planning. A 
poor teacher does not have the skill set to plan effectively.
    Principals must be well-versed in pedagogy and be willing 
to work hands-on with their teachers to develop schools where 
excellent instruction is the standard. At Elmont Memorial, 
three areas that have greatly contributed to our success are 
our rigorous observation process, our comprehensive 
professional development plan, and our strong collaborative 
approach.
    The primary goal of our observation process is to improve 
instruction and student achievement. This process is a 
cooperative undertaking between the instructional supervisor 
and the teacher. As the principal and the instructional leader 
of Elmont Memorial, my role in the observation process is, 
first and foremost, to be a teacher of teachers.
    At the start of every school year, we develop and implement 
a comprehensive professional development plan based on the 
needs of our teachers. Additionally, to enhance the social and 
academic growth of our students, we utilize interdisciplinary 
teams. Our teaming program provides our teachers with a daily 
opportunity to collaborate on instructional practices and to 
develop intervention plans to meet the needs of the students.
    Our success in identifying at-risk students and providing 
them with the necessary instructional support has greatly 
contributed to Elmont Memorial High School's high graduation 
rate. We have developed and implemented an action plan. This 
allows us to be proactive in identifying at-risk students.
    In 2009, New York State had 56 percent of African-Americans 
and 55 percent of Hispanic students graduate from high school. 
At Elmont Memorial High School, 94 percent of African-American 
and 95 percent of Hispanic students graduated. Ninety-seven 
percent went on to college. This demonstrates the power of 
teacher effectiveness to positively impact student achievement.
    As a Nation, we must commit ourselves to provide all 
students with the highest quality education. It is my sincere 
hope that the reauthorization of the Elementary and Secondary 
Education Act will not only raise standards for public 
education, but also provide principals with the resources they 
need to develop and hone the skills of our most valuable 
educational resource: teachers.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Capozzi follows:]
                   Prepared Statement of John Capozzi
                                summary
    With nearly 2,000 students, a student body comprised of 77 percent 
African-American, 13 percent Hispanic, 8 percent Asian and 1 percent 
white, Elmont Memorial High School has proven that all children can 
achieve academic success regardless of race, creed, ethnicity or socio-
economic status. We understand that our students' success is directly 
correlated to highly effective and dedicated teachers. Research clearly 
shows that the No. 1 factor in student achievement is teacher 
effectiveness. My primary role as the principal is to serve as the 
instructional leader of the school and to provide support and 
supervision to the faculty.
    At Elmont Memorial, we continually analyze teacher effectiveness. 
Three areas that have greatly contributed to improving classroom 
instruction are a rigorous observation process, a comprehensive 
professional development plan, and a strong collaborative environment. 
The goal of our process is to improve classroom instruction and student 
achievement. At the start of every school year we develop and implement 
a comprehensive professional development, plan based on the needs of 
our teachers. The thrust of our professional development plan is 
assisting teachers to develop differentiated instructional 
methodologies that allow them to meet the various needs of their 
students. Additionally, to enhance the social and academic growth of 
our students, we utilize interdisciplinary teams. Our teaming program 
provides our teachers with the opportunity to collaborate on a daily 
basis.
    Our success in identifying and supporting at-risk students has 
greatly contributed to Elmont Memorial High School's high graduation 
rate. We have developed and implemented an A.C.T.I.O.N. Plan (Analysis, 
Collaboration, Teaching techniques, Instructional support, 
Opportunities for success, Needs of the students) that allows us to be 
proactive in identifying at-risk students. Once identified, 
individualized academic recovery plans are developed, implemented and 
monitored. As a result, students are afforded an opportunity to 
experience academic achievement.
    Our success at Elmont Memorial is built on the foundation of 
teacher effectiveness and individualized assistance for all of our 
students. This, coupled with administrative leadership that embraces 
these factors enables us to provide our students with the best 
education possible.
                                 ______
                                 
    Thank you Chairman Harkin, Senator Enzi, and distinguished members 
of the committee. I am John Capozzi, Principal of Elmont Memorial High 
School. I would like to thank you for providing me with the opportunity 
to speak to you about the strategies we use at Elmont Memorial High 
School to improve teacher effectiveness and provide our students with a 
rigorous education that prepares them for their post-secondary goals.
    Elmont Memorial School is the largest of five schools in the 
Sewanhaka Central High School District with nearly 2,000 students in 
grades 7 through 12. The demographics of our school are 77 percent 
African-American, 13 percent Hispanic, 9 percent Asian and 1 percent 
white. Our academic achievement and annual graduation rate of over 94 
percent has dispelled the myth that children of color cannot be 
provided with an enriching, challenging and first rate education. I am 
often asked how Elmont Memorial does this. The driving force behind 
Elmont Memorial's success is our belief that all children can learn. 
Research clearly shows that the No. 1 factor in student achievement is 
teacher effectiveness. We understand that our students' success is 
directly correlated to our highly effective and dedicated teachers. My 
primary role as the principal is to serve as the instructional leader 
of the school and to provide support and supervision to the faculty.
    The role of a principal has changed dramatically throughout the 
years. Today, principals are often required to be managers rather than 
instructional leaders. For student achievement to improve the 
principal's primary focus must remain on improving teacher 
effectiveness. Recently, there has been much discussion on developing 
teacher leaders in schools. At Elmont Memorial, we utilize teacher 
leaders to turnkey successful instructional strategies at faculty 
workshops. Excellent teachers benefit from this plan. However, this 
alone will not help improve the instruction in the mediocre and poor 
teacher's classroom. Principals and school administrators must take the 
lead in helping teachers develop their pedagogical skills. In order for 
a principal to be an effective instructional leader, they must first be 
a master teacher. A master teacher analyzes data and differentiates 
instruction. A mediocre teacher simply examines data and re-teaches the 
material. A poor teacher does not examine the data and continues on to 
the next topic. A master teacher develops lesson plans that are 
responsive to the different learners in their classroom. A mediocre 
teacher simply looks at content as the foundation of lesson planning. A 
poor teacher does not have the skill set to plan effectively. 
Principals must be well-versed in pedagogy and be willing to work 
hands-on with their teachers to develop schools where excellent 
instruction is the standard.
    At Elmont Memorial, three areas that have greatly contributed to 
our success are our rigorous observation process, our comprehensive 
professional development plan and our strong collaborative approach. 
The primary goal of our observation process is to improve classroom 
instruction and student achievement. This process is a cooperative 
undertaking between the instructional supervisor and the teacher. As 
the principal and instructional leader of Elmont Memorial, my role in 
the observation process is first and foremost, to be a teacher of 
teachers. At the start of every school year, we develop and implement a 
comprehensive professional development plan based on the needs of our 
teachers. Additionally, to enhance the social and academic growth of 
our students, we utilize interdisciplinary teams. Our teaming program 
provides our teachers with the daily opportunity to collaborate on 
instructional practices and to develop intervention plans to meet 
student needs.
    Our success in identifying at-risk students and providing them with 
the necessary instructional support has greatly contributed to Elmont 
Memorial High School's high graduation rate. We have developed and 
implemented an A.C.T.I.O.N. Plan (Analysis, Collaboration, Teaching 
techniques, Instructional support, Opportunities for success, Needs of 
the students) that allows us to be proactive in identifying at-risk 
students. Once identified, individualized academic recovery plans are 
developed, implemented and monitored. Additionally, our pupil personnel 
counselors play a significant role in providing academic support to our 
students. By conducting an annual review of every student, counselors 
assist students in formulating goals for each school year and plan for 
their post-secondary education. As a result, students are afforded an 
opportunity to experience academic success.
    In 2009, New York State had 56 percent African-Americans and 55 
percent Hispanic students graduate from high school. At Elmont Memorial 
High School, 94 percent of African-American and 95 percent of Hispanic 
students graduate. This demonstrates the power of teacher effectiveness 
to positively impact student achievement. As a nation we must commit 
ourselves to providing all students with the highest quality education. 
It is my sincere hope that the reauthorization of the Elementary and 
Secondary Education Act will not only raise the standards for public 
education but also provide principals with the resources they need to 
develop and hone the skills of our most valuable educational resource--
teachers.

    The Chairman. That's pretty amazing. That's over 9 out of 
10 going to college.
    Mr. Harrison.

 STATEMENT OF RICHARD HARRISON, MIDDLE SCHOOL DIRECTOR, DENVER 
         SCHOOL FOR SCIENCE AND TECHNOLOGY, DENVER, CO

    Mr. Harrison. Thank you, members of the committee, for the 
opportunity to share with you Denver School of Science and 
Technology's vision and program in the context of 
reauthorization.
    In Denver, our team of educators at DSST looks to double 
the number of students going to 4-year colleges and 
universities without remediation from Denver public schools. It 
is my hope that DSST's charter school model can be replicated 
to improve our expanding network of schools in Denver, as well 
as shape the direction of national secondary school reform.
    DSST Public Schools looks to drastically change the 
outcomes for young people in the city of Denver and model the 
reform necessary to increase student achievement and prepare 
all students for 4-year colleges and universities. DSST Public 
Schools currently operate open-enrollment, STEM-focused charter 
schools. Currently in our middle school and high school 
program, 48 percent of the students are from low-income 
households, and we are 68-percent minority. We attract a 
diverse student population that mirrors the general population 
of Denver.
    For 3 years in a row, DSST's graduating classes have earned 
100-percent acceptances into 4-year colleges and universities; 
and, thus far, our college remediation rate is 7 percent. Over 
the last 3 years, DSST has been the highest performing high 
school, as measured by the Colorado State growth model. 
Locally, according to the district's School Performance 
Framework, DSST's Middle and High School Program was the 
highest performing school in Denver Public Schools in both 
growth and absolute performance. Most importantly, DSST has 
demonstrated that all students, regardless of race or income, 
can earn a rigorous high school diploma and attend 4-year 
colleges and universities.
    Our status as a charter school, as well as our focus to 
meet the academic and social needs of a diverse population, has 
allowed for innovation in the areas of school culture, student 
support, and instructional approach. Preparing every student to 
succeed in academics and in character in a 4-year college is at 
the center of DSST's program. This starts in the middle school. 
Our sixth-graders spend a full day at Colorado College, a top-
rated liberal arts college. Our seventh-graders spend a full 
day working with students and professors at the University of 
Colorado School of Engineering. These are yearly school rituals 
that form the mind set of 100 percent college readiness at the 
student level.
    DSST has created a STEM program that engages students and 
prepares them to succeed in college. Every student in the 
middle school spends 2 hours each day in our literacy block, 
devoting extra time for reading, writing, and nonfiction 
studies in non-tracked classes. The expectation of our middle 
school math curriculum is designed to take all students to 
calculus by their senior year. We also provide additional 
instruction for reading recovery and math interventions for the 
many students who come to our school grade levels behind. This 
is necessary if we are to prepare our students for STEM fields 
and make it accessible.
    Of our first two graduating classes, we believe 47 percent 
have chosen STEM fields in college, considerably higher than 
the national average of 14 percent. DSST's status as a charter 
school has allowed for a democratic open-enrollment process so 
that any student, regardless of academic ability, neighborhood, 
or background can apply for admission through our lottery 
process. Most traditional urban public schools suffer from a de 
facto segregation based on income and neighborhood housing 
patterns.
    Under the leadership of Senator Bennet, the former 
superintendent of DPS, Denver has recently emerged as one of 
the more promising cities for education reform efforts. Denver 
Public Schools has aggressively supported the expansion of 
charter schools.
    We would like to present three recommendations for this 
committee:
    No. 1, create more high-performing secondary schools in 
every neighborhood, regardless of their classification as 
district or charter schools, that meet the needs of our 
Nation's diversity.
    No. 2, acknowledge the innovative work of high-performing 
charter schools that serve underrepresented and diverse groups 
of students, and involve them in the secondary school reform 
effort.
    No. 3, encourage charter schools and district schools, 
working together, to share in innovation around increasing 
student achievement and college readiness, and promoting choice 
and demand of high-performance schools.
    On behalf of Denver School of Science and Technology and 
Denver Public Schools, and in recognition of National Charter 
School Week, I thank you for the opportunity to share, and 
welcome further dialogue around the needs of our students.
    [The prepared statement of Mr. Harrison follows:]
                 Prepared Statement of Richard Harrison
                              introduction
    Thank you Chairman Harkin, Senator Enzi, and members of the Health, 
Education, Labor, and Pensions Committee for the opportunity to share 
with you Denver School of Science and Technology's (DSST) vision and 
program in the context of Elementary and Secondary Education Act 
reauthorization and the goal of ensuring that every student in every 
classroom achieves at the highest levels. In Denver, CO, our team of 
educators at DSST has taken on the task of redefining a world class 
secondary school program that looks to double the number of students 
going to 4-year colleges and universities without remediation from the 
city of Denver. It is my hope that DSST's program can be replicated to 
improve our expanding network of schools in Denver as well as shape the 
direction of Secondary School reform.
   issues facing secondary school reform: national and local contexts
    With the election of President Obama and the work around the 
Elementary and Secondary Education Act reauthorization, a dynamic 
national landscape for school reform has developed. Charter schools are 
becoming recognized as high quality organizations which successfully 
educate our Nation's young people. Within this broader context, the 
United States has been struggling to improve student achievement over 
the last decade. Student achievement trends and 4-year college-going 
rates continue to be a significant national problem that will undermine 
future economic and civic growth of the country. A national crisis 
persists around successfully educating our population and graduating 
students from 4-year colleges--particularly low-income and minority 
students.
    Denver Public Schools currently faces many of the same challenges 
of other large urban districts. Many schools are segregated by race and 
income. The district is challenged by a high rate of poverty and a 
large percentage of students who are not native English speakers. The 
data around college readiness calls for a sense of urgency around 
secondary school reform:

    <bullet> Out of 6,310 9th graders in Denver Public Schools in 2004, 
612, or 9.7 percent are likely to earn a 4-year college degree within 
10 years;
    <bullet> Of 4,164 low income 9th graders in Denver Public Schools, 
186, or 4.5 percent are likely to earn a 4-year college degree within 
10 years.

    These numbers in Denver are directly tied to the level of college 
readiness in middle school, where one in three students is meeting 
State standards in reading, writing, math, and science by the end of 
8th grade.
    There are very few highly successful one-track college preparatory 
school models in the country today that significantly increase student 
achievement in the context of truly diverse populations. In response to 
this crisis, DSST Public Schools looks to drastically change the 
outcomes for young people in the city of Denver and model the reform 
necessary to increase student achievement and prepare students for 4-
year colleges and universities.
              dsst public schools: background and history
    DSST Public Schools currently operate open-enrollment STEM-focused 
charter schools. We are part of the Denver Public Schools system.
    What sets us apart from urban charter schools, traditional district 
schools, and magnet schools is the rich student diversity of our 
program. Currently in our middle and high school, 48 percent of the 
students are from low-income households, and we are 68 percent 
minority--we are excited to attract a diverse student population that 
mirrors the general population of Denver. We draw from over 100 
different elementary and middle school programs in our open-enrollment 
process. Our students learn to thrive in a diverse environment, which 
is a valuable asset that equips them to enter college, the workplace, 
and the real world.
    Through a network of schools, DSST Public Schools is dedicated to 
providing a diverse student body with an outstanding secondary liberal 
arts education with a science and technology focus. By creating 
powerful learning communities centered on core values and a shared 
commitment to academic excellence, we will increase the number of 
underrepresented students (girls, minorities and economically 
disadvantaged) who attain college science and liberal arts degrees. Our 
graduates will be responsible, engaged citizens who are prepared to be 
leaders of the future.
    Denver School of Science and Technology welcomed its first class of 
9th graders in 2004 and has since become one of the most successful 
high schools in the State of Colorado. DSST added a middle school 
program to its model in 2008. For 3 years in a row, DSST's graduating 
classes have earned 100 percent acceptances into 4-year colleges, and 
our college remediation rate thus far is 7 percent. DSST has been the 
highest performing Colorado public high school over the last 3 years as 
measured by value-added student achievement growth on the Colorado 
State Growth Model. Locally, DSST's Middle and High School program was 
the highest performing Denver Public School according to district's 
School Performance Framework.
    DSST's middle and high school program has consistently been the 
highest performing secondary school in the district in both growth and 
absolute performance. Most importantly, DSST has demonstrated that all 
students, regardless of income, background, or ethnicity, can earn a 
truly rigorous high school diploma and attend a 4-year college. As a 
result, DSST has become a national model for school reform, hosting 
thousands of educators from all over the country.
    Unlike most districts, the reform effort in Denver is defined by 
the collaboration between district and charter schools. DSST's 
secondary schools will help Denver Public Schools to become a truly 
integrated school system--a national model for such efforts.
             introduction: dsst's secondary school program
    DSST's secondary program mirrors the recommendations and focus 
points in the Elementary and Secondary Education Act. DSST is a unique 
charter school and offers a distinctive value proposition based on 
serving diverse students, a 100 percent 4-year college acceptance track 
record, data-driven instruction that yields high value-added student 
growth, and our STEM focus.

    <bullet> 100 percent 4-year college readiness and acceptance focus: 
Every aspect of our secondary school program is designed to prepare 
students to succeed academically and socially in the context of 4-year 
colleges. Preparing every student to gain acceptance to and succeed in 
a 4-year college is at the center of DSST's academic program, and work 
towards this goal starts the minute a student walks in the door for 
summer school in the 6th grade year. In June 2009, Education Secretary 
Arne Duncan spoke at the National Alliance for Public Charter Schools 
Conference.

    The Denver School of Science and Technology serves grades 6 to 12. 
They take the 6th graders on college visits. Those children spend years 
choosing a college--instead of months--and 100 percent of their 
graduates go on to 4-year colleges and universities.

    From Summer School in the 6th grade through Senior Project, 
students strive to master the standards, knowledge, and skills that 
will prepare them for a 4-year college or university without 
remediation.

    <bullet> Real-Time Data-Driven Systems That Yields Value-added 
Student Growth: Identifying the value-added growth is the most 
important metric of student learning. DSST is committed to using data 
and up-to-date research to inform, reflect upon, and adapt instruction 
to meet student needs. DSST relentlessly focuses on the academic growth 
of our students. The result of this focus is outstanding student growth 
year-to-year as measured by State and nationally norm referenced tests. 
Most schools that use data-driven instruction places the data in the 
hands of select teachers and school leaders a few times a year. At 
DSST, every teacher uses technology to transform teaching and learning, 
harnessing powerful assessment and data tools to measure student 
progress towards standards on a daily basis and to adapt instruction 
accordingly. Teachers develop strategies to spiral and re-teach 
standards on which students, both individually and collectively, have 
not achieved mastery. Students use trackers to manage their own data 
and progress toward standards on a daily basis as well. Thus, they own 
the data, are fully transparent as to what they need to study and 
review, and own their progress toward grade level mastery. Even 6th 
graders at DSST keep track of their data on mastery checks, tests and 
quizzes, and benchmark exams in their notebooks.
    <bullet> STEM (Science, Technology, Engineering and Mathematics): 
Young adults who are well-educated in STEM are critical to the 
functioning of our democracy in our increasingly technological society 
and represent the next generation of economic growth in the innovation 
economy. DSST fully realizes that a college preparatory STEM education 
has to start with a middle school program. We work to develop a strong 
literacy foundation and laser-like focus on math conceptual 
understanding and demonstration of skills, and investing the necessary 
time in reading recovery and math interventions for the many students 
who come to our program grade levels behind. The expectation of our 
math curriculum is designed to take all students to calculus by their 
senior year. In the middle school program, every student takes an hour 
and a half of an integrated science sequence each day; in the high 
school, all students take the equivalent of 5\1/2\ years of science as 
part of their graduation requirement. Our one-to-one laptop program 
also drives our teaching and learning. DSST has a requirement that 
every student pass every core academic course that they take and our 
graduation requirements exceed Colorado's higher education entrance 
requirements. DSST has created a rigorous core curriculum and STEM 
program that engages students in the field and prepares them to succeed 
in STEM college majors. We anticipate that 47 percent of our students 
will go into STEM fields in college, considerably higher than the 
national average of 14 percent.
   a democratic open-enrollment process--creating choice and demand 
                             in our program
    DSST's status as a charter school has allowed for a democratic 
open-enrollment process so that any student, regardless of academic 
ability or background, can apply for admissions through our lottery 
process. This is a unique and important element of DSST as we enroll a 
truly diverse student population in terms of both income and race. Most 
traditional urban public schools suffer from a de facto segregation 
based on income and neighborhood and housing patterns.
    However, DSST is in a relatively unique and fortunate position of 
operating in a city that is becoming more diverse. As a result, DSST 
has the opportunity to serve ethnically and economically diverse 
student populations. One reason for the unprecedented level of 
cooperation and support from Denver Public Schools is the District's 
interest in developing more diverse, high-performing schools, and 
meeting the demand for these schools--as a note, DSST Public Schools 
had over 1,500 applications for 400 available seats in our 6th and 9th 
grade entry points in our schools. Within Denver's secondary school 
reform movement, there is widespread public belief that DSST's model 
reflects the world in which students will live and work. This model has 
greater long-term potential to transform public secondary school reform 
as students, regardless of race, income, or geography, have access to 
high performing and high-growth schools. As we expand to a network of 
schools in Denver, DSST--through parental and student choice--has the 
opportunity to reintegrate Denver schools.
       dsst's core practices: innovation, autonomy, and diversity
    Our student outcomes can be attributed to innovative strategies 
that have guided the organization over the first 6 years. DSST's 
guiding principles mirror the direction our Nation looks to take 
through the Elementary and Secondary Education Act. DSST believes that 
all students can learn, and that it is the responsibility of educators 
to ensure that students achieve. Our operating principles permeate 
every aspect of our work. We are mission- and values-focused, and our 
success lies in the development of highly effective people. We are 
outcomes-focused, relying on purposeful use of real-time data. Our 
organization is committed to innovation and excellence. Most 
importantly, our status as a charter school as well as our focus to 
meet the academic and social needs of a diverse population has allowed 
for innovation in the areas of school culture, instructional approach, 
and supporting our student population. Learning is at the core of our 
organization. We constantly seek to find out why things work, how we 
can we do them better, and we never stop learning.
    Our school culture is grounded in our school's six core values: 
Respect, Responsibility, Integrity, Courage, Curiosity, and Doing your 
Best. Our school culture is defined by our approach with young adults 
through these values. We hold high expectations for all students, and 
insure that our educators will do whatever it takes to enable students 
to meet these high standards. In DSST's high-accountability culture, 
doing your best is a core value, and doing well in school is ``cool.'' 
Students are individually known and cared for, and they are held 
accountable and challenged to do their best. This high-accountability 
culture includes:

    <bullet> Recognizing that every group of people implicitly operates 
based on a set of values, whether defined or not, DSST defines the 
values of our community with 100 percent clarity and purpose, leaving 
little to be defined unintentionally. Our core values form the heart of 
the DSST community. We gather as a school community to share in 
reflection, praise, and acknowledgement of our collective direction.
    <bullet> DSST was founded on the premise that the common good of 
our community has far more value than the pervasive ``individualistic'' 
culture teenagers live in today. An intentional shared community not 
only challenges students to think of others, but it also contributes to 
their sense of belonging to something much larger than themselves. 
DSST's rituals and routines, including our community morning meetings, 
promote a sense of belonging and common purpose that guide all 
students, faculty and staff.
    <bullet> A required after-school study hall for students who have 
not completed their homework.

    DSST believes that every student learns differently and that our 
classroom instruction must accommodate diverse abilities and learning 
styles. Rather than adhering to a single teaching philosophy or 
instructional model, DSST has tapped deeply into cutting-edge brain 
research to ensure that teachers are using the most effective 
strategies possible to attain maximum student growth and achievement. 
With brain research as a foundation, DSST also draws on the best 
practices from the field, visiting high-performing schools across the 
country, and then piloting practices in our own classrooms to define a 
set of DSST Core Instructional Practices. This balanced pedagogical 
approach, both incredibly progressive and surprisingly traditional, 
maximizes growth and achievement for all students. DSST Core 
Instructional Practices include:

    <bullet> Planning Lessons in 10-minute time segments and using 
hooks and real-world connections to maximize student engagement.
    <bullet> Using Differentiation to reach diverse learning styles and 
abilities in non-tracked, heterogeneous classrooms.
    <bullet> Spiraling and fluency activities that provide the 
repetition necessary to move new learning into long-term memory and to 
maintain previously learned concepts and skills.
    <bullet> Multi-sensory classroom approaches to improve access and 
retention.

    DSST realizes the challenges of supporting the needs of a diverse 
student population, particularly the at-risk. The more deeply a student 
is known and cared for, the more effectively a student can be 
challenged to learn and grow. At DSST all students are known deeply 
enough that teachers and staff in the building can personally care for 
them and hold them accountable so that they can realize their full 
learning and developmental potential. Clear expectations are 
communicated, and strong systems of accountability are in place to help 
students meet our high expectations. DSST provides an academic advisor 
for every student, who monitors student performance and maintains 
regular communication with parents and guardians; the advisor also 
works to build meaningful connections necessary to reflect on student 
progress academically, as well as with the development of character and 
expressions of core values. Our student support is defined by the 
combination of our focus on building relationships and our intervention 
systems. We provide:

    <bullet> Mandatory after-school tutoring, where our teachers work 
with students who fail a quiz or test;
    <bullet> Math and English summer school for students who have not 
mastered grade-level skills.
    <bullet> Math and English support classes that students must take, 
in addition to their regular courses, until they master basic fluency 
skills.
    <bullet> Weekly recognition of students for academic effort and 
success.
       partnership with denver public schools: a model for urban 
                            education reform
    DSST has the opportunity to dramatically impact K-12 education in 
Denver. DSST's ultimate goal is that Denver becomes the national leader 
of urban public education, as indicated by: (1) dramatically increasing 
the percentage of college-ready students from all backgrounds; (2) 
rigorous STEM education and programs that make Denver the national 
urban leader of science education; and (3) racially and 
socioeconomically diverse college preparatory schools that reflect 
today's workplace and society.
    To achieve these outcomes, Denver Public School (DPS) Board 
approved charters for four additional DSST 6-12 schools. By 2020, DSST 
Public Schools' five schools will be fully enrolled with over 4,000 
students, will graduate approximately 500 students per year and will 
double the number of college-ready students from DPS matriculating to 
4-year college each year (from 500 today to 1,000). DSST Public Schools 
will serve 10 percent of DPS's 6th through 12th grade population, but 
graduate the same number of college-ready graduates. And 100 percent of 
DSST Public Schools' graduates will be prepared to succeed in STEM 
fields of study.
    Securing financially viable facilities and funding meaningful 
professional development are great challenges for charter schools. DSST 
Public Schools has developed a strong pro-active strategy to deal with 
this issue, but must successfully execute the strategy. DSST has a 
written commitment from the Superintendent of DPS that DPS will provide 
leased facilities to DSST Public Schools for all four of the growth 
campuses and has already assigned DSST to a new DPS building for its 
second campus. DSST hosts many DPS teachers and school leaders on 
learning walks, and over the last 2 years hosted the Denver Teaching 
Fellows Program through The New Teacher Project. Taking our partnership 
to the next level, DSST will be submitting an i3 grant with Denver 
Public Schools. In this grant, DSST will be sharing the DNA of our 
innovative instructional model with the district to impact student 
achievement in several schools across the city.
    Under the leadership of Senator Bennet, the former Superintendent 
of Denver Public Schools, Denver has recently emerged as one of the 
more promising cities for education reform efforts. Denver Public 
Schools has aggressively supported the expansion of charter and 
innovation schools, begun to create a pay-for-performance compensation 
system, has opened up facilities to charter schools, and created school 
performance metrics to measure a variety of value-added student 
achievement data.
    Within this promising context, however, district student 
achievement continues to suffer. By any measure, Denver is failing to 
educate an entire generation of young people, which will have long-term 
consequences for our city and State. Today, 49 percent of DPS students 
graduate high school, and of those that do, less than 45 percent are 
academically prepared for college. There is an acute shortage of high 
performing secondary schools in Denver. As the Obama administration 
seeks to scale effective practices at a pace never seen before, DSST, 
together with DPS, is positioned to build a national model partnership 
that will expand impact and support positive change throughout a large 
urban district.
                               conclusion
    There is much debate in our Nation about how to improve our public 
schools. This is a critical conversation for many constituents as the 
stakes could not be higher. We suggest a simple guiding principle to 
guide the conversation: center the conversation around what kids need. 
Every student in every neighborhood deserves a high-performing school, 
so we simply must debate the quality of our schools first. Our Nation's 
policy must strongly favor having more high-performing schools in every 
neighborhood--regardless of their classification--district or charter 
school.
    There is nothing more important to our Nation's future than 
improving our public education system. The health of our democracy, the 
social and civic fabric of our communities, and the Nation's economic 
future depend upon it. Providing all students from all backgrounds and 
incomes with an outstanding K-12 education and the academic preparation 
to go to college without remediation should be the singular focus of 
the reauthorization of the Elementary and Secondary Education Act.
    As charter school leaders, we recognize that charter schools are 
one of many strategies to accomplish this goal. We do not believe that 
charter schools are the only path to take. Traditional district schools 
and alternative schools all have an important role to play in 
dramatically improving our Nation's public secondary education. Instead 
of using different governance or management structures of public 
schools to divide and distract our efforts to educate all students, we 
should be encouraged that there are multiple strategies that our 
districts can use to insure a great education for all students, and 
focus on the results that each teacher, school and district achieve for 
their students. This is one of many reasons why charter schools are a 
critical component of our education reform strategy.
    As the Nation seeks to improve student outcomes in STEM and 
increase the pipeline of well-prepared students entering STEM fields, 
DSST Public Schools has much to offer these efforts through advocacy 
and the sharing of a proven model. We would like to present the three 
recommendations based on DSST Public School's work with the Denver 
Public Schools for the re-authorization of the Elementary and Secondary 
Education Act:

    <bullet> Create more high-performing secondary schools in every 
neighborhood--regardless of their classification as district or charter 
schools--that meet the needs of our Nation's diversity;
    <bullet> Acknowledge the innovative work of high growth and high 
performance charter schools that seek to serve under-represented and 
diverse groups of students on the track to a 4-year college or 
university, and involve them in the secondary school reform effort;
    <bullet> Encourage charter schools and district schools working 
together to share in innovation around data-driven instruction, 
increasing student achievement and college readiness, and promote 
choice and demand of high performance schools.

    On behalf of Denver School of Science and Technology and Denver 
Public Schools, I thank you for the opportunity to share, and welcome 
further dialogue around the needs of our students.

    The Chairman. Thank you very much, Mr. Harrison.
    Now Ms. Webber-N'Dour.

 STATEMENT OF KAREN WEBBER-N'DOUR, PRINCIPAL, NATIONAL ACADEMY 
             FOUNDATION HIGH SCHOOL, BALTIMORE, MD

    Ms. Webber-N'Dour. Thank you.
    The Chairman. Did I pronounce that correctly?
    Ms. Webber-N'Dour. ``Indoor.'' Opposite of ``outdoor.''
    [Laughter.]
    The Chairman. All right.
    Ms. Webber-N'Dour. Good afternoon. My name is Karen Webber-
N'Dour. I am the principal of the National Academy Foundation 
High School, in Baltimore, MD. I am also a career academy 
graduate. Thank you for giving me the opportunity to be here 
today on behalf of my school, the National Academy Foundation 
(NAF), and the career academy movement.
    I am here today to tell you about the success of my school 
and thousands of other schools like it and why you should make 
sure that we continue and, in fact, expand our mission.
    The students at my school, NAF High School, have 
experienced unprecedented success. We are currently ranked as 
the sixth-best high school in Baltimore City, and admission is 
open to all students. For the past 4 years, 100 percent of our 
seniors have graduated, and 100 percent of our students have 
been admitted to college. For the past 3 years, our attendance 
rate has averaged over 90 percent. Our high academic standards 
have also led to impressive gains on our State achievement 
tests and we have closed the ``achievement gap'' among our 
increasingly diverse student body.
    Last year, our 12th graders scored almost 20 percentage 
points higher than the city average on both the English and 
algebra assessments. I believe the time is right to look at 
what career academies can do for more of our schools and more 
of our students. Career academies are one of the most 
established, prevalent, and well-researched models for 
reforming high schools.
    Career academies can be charter schools, parochial schools, 
or traditional public high schools, but they must have three 
essential components. A career academy is structured as a small 
learning community. A career academy uses college preparatory 
curriculum, focused on a specific career, such as finance. A 
career academy gives students access to a wide range of work-
based learning experiences, such as internships and job 
shadowing.
    The National Academy Foundation model also adds one 
additional component. The NAF requires each academy to have an 
advisory board, which formalizes the relationships between 
local businesses, higher education, community groups, and the 
school.
    It has been my experience that many students with varying 
levels of academic performance can dramatically benefit from 
this type of personal attention and curriculum that is career-
focused. To this point, the NAF Academy model supports open 
recruitment. Any young person who wants to enroll can do so. So 
we, therefore, attract both high- and low-performing students, 
but both groups become successful under this model.
    My high school is a wall-to-wall academy school. It serves 
400 students in five career-themed academies. The academies 
focus on finance, hospitality and tourism, information 
technology, engineering, and law. We also use living 
classrooms. In other words, we try to apply what is learned in 
the classroom to a real-world situation. Our latest project is 
to create an entirely student-run cafeteria.
    Our finance students won a MECU branch in our school. It is 
an actual bank. The MECU branch is a real living branch. You 
can make deposits, withdrawals, and you can open accounts in 
our MECU branch. Our students are trained tellers, so they are 
actually able to run the bank on their own, with supervision.
    Once our young people have experiences like these, there is 
a noticeable shift in the way they carry themselves, and this 
is really important. When our students have this change in 
personal behavior, it carries over to the expectations they 
have of their fellow students' behavior. I can tell you that 
this kind of positive peer pressure changes a school's culture 
indelibly.
    I mentioned, earlier, that NAF Academies have advisory 
boards that formalize relationships between the schools and 
their local communities. Our board has brought us amazing 
opportunities. Thanks to connections made through our board, 
Hilton Hotels created a $3-million fund for scholarships for 
Baltimore City high school students. Our National Academy 
Foundation students receive first priority. These board 
members' involvement changed lives in a way that will have a 
ripple effect for generations to come.
    Here we are today, the reauthorization of the Elementary 
and Secondary Education Act. It is a great opportunity to 
increase the number of career academies nationwide. Career 
academies are a widely-used school reform strategy, but they 
are estimated to reach only 5 percent of public high school 
students. Increased funding is critical to increasing both the 
quantity and quality of career academies.
    This is also an opportunity to promote the teaching 
methods, that are proven to help students be so successful, and 
the teacher training that is required to make these changes.
    We will also have to develop new ways of testing our 
students that can measure what they know and what they can do.
    It has been said that the NAF Academy model is the best-
kept secret in education. I believe this cannot, and should 
not, continue to be the case. There is an opportunity now to 
expand it in ways that can help students, schools, businesses, 
communities, and yes, the government, too, work better.
    Thank you for the opportunity to speak today.
    [The prepared statement of Ms. Webber-N'Dour follows:]
               Prepared Statement of Karen Webber-N'Dour
                                summary
    Established 40 years ago, career academies are one of the most 
prevalent and well-researched high school reform approaches, serving 
approximately 1 million public high school students.
    Most significant among the research is a 12-year random-assignment 
study conducted by MDRC which found that the career academy model can 
produce substantial, long term improvements in young people's ability 
to earn money and make a successful transition to adulthood, 
particularly for young men. It also showed that for the subset of 
students most at risk of dropping out, career academy participants 
showed increased school retention through the 12th grade, improved 
attendance, and earned more credits. The MDRC evaluation meets the 
Office of Budget Management's PART test, the highest standard for 
evaluating program effectiveness.
    The career academy model contains three essential components: that 
the academy is structured as a small learning community; that the 
academy uses college-
preparatory curriculum that applies a career-context to learning; and 
that students access a range of work-based learning experiences such as 
internships and job shadowing. The National Academy Foundation model 
also requires an advisory board to formalize the relationships between 
local businesses, higher education, and community groups and the 
school. To promote full implementation of the model, in 2004 a 
coalition of career academy organizations developed the ``Career 
Academy National Standards of Practice,'' which identify 10 elements of 
successful implementation of the career academy model.
    The National Academy Foundation High School is a small, public high 
school serving 300 students in five career-themed academies. The 
Academies focus on Finance, Hospitality & Tourism, Information 
Technology, Engineering, and Law. National Academy Foundation academies 
are also successfully implemented as a school-within-a-school in a 
larger comprehensive high school or as small schools that may only be 
one academy theme.
    Through living classrooms, interactions with experienced 
professionals, and paid internships, students at the National Academy 
Foundation High School are prepared for college and career success. 
Currently ranked as the sixth best high school in Baltimore, the only 
one of which that is open to all students. For each of the past 4 
years, our school has achieved a 100 percent graduation rate and 100 
percent of our students have been admitted to college. For the past 3 
years, our attendance rate has averaged over 90 percent. Our high 
academic standards have also led to impressive gains in State 
achievement tests and we have closed the ``achievement gap'' among our 
increasingly diverse student body. Last year our twelfth graders scored 
almost 20 percentage points higher than the city average on both the 
English and Algebra 2 assessments.
    The reauthorization of the Elementary and Secondary Education Act 
provides many opportunities to increase the prevalence of career 
academies and apply key lessons learned to improving high schools for 
all American young people. Increased funding is critical to increasing 
their scale and can also ensure quality among all schools that seek to 
use the model. We also need standards that allow academic and career-
themed courses to be integrated, expanding the relevance of coursework 
and deepening students' ability to apply core concepts. Alongside 
promoting these instructional methods must be assessments that measure 
students' skills in addition to the knowledge they have gained. These 
assessments must also be aligned with credentialing opportunities in 
which students can earn industry certifications or college credits.
                                 ______
                                 
    Good afternoon Chairman Harkin, Ranking Member Enzi, and members of 
the committee. I am Karen Webber-N'dour, principal of National Academy 
Foundation High School, a public high school in Baltimore City, MD. I 
am proud to be here today on behalf of my school, the National Academy 
Foundation, and the career academy movement.
    I am heartened by the increasing dialogue around the pressing need 
for American high schools to achieve college and career readiness for 
every student. I deeply understand this need, both as a high school 
principal and from my previous work life. I am not a career educator; I 
am a lawyer by training. After 10 years focusing on civil rights, it 
was clear to me that a quality education could be the key to the 
betterment of the disenfranchised populations with whom I was working. 
I decided to switch tracks to create opportunities for people who 
otherwise may not have them, and I have found the career academy model 
an ideal vehicle to do that.
    I also have a very personal connection to this movement; I am a 
career academy graduate. I embarked on my professional path at the 
Academy of Law, Politics, and Community Affairs at Tilden High School 
in Brooklyn, NY.
    Career academies are one of the most established, prevalent, and 
well-researched high school reform approaches. This model is time-
tested--the career academy movement began 40 years ago in Philadelphia 
and the National Academy Foundation has been refining its model for 
nearly 30 years. Today, there are estimated to be between 2,500 and 
4,000 career academies across the country, serving approximately 1 
million public high school students. Five hundred of these academies 
are part of the National Academy Foundation's network and they will 
reach 53,000 students this school year.
    Career academies' impacts have been demonstrated by rigorous 
research, including a longitudinal, random assignment evaluation by 
MDRC. The MDRC study meets high standards set out in the Office of 
Budget Management's PART test for evaluating program effectiveness.
    Career academies are one of the best examples of how educational 
interventions can apply research findings to improve practice. The wide 
range in the estimated number of career academies is due to the fact 
that many schools or programs with a career theme label themselves as 
career academies without fully applying the model. To address this and 
promote full implementation, in 2004 a coalition of career academy 
organizations developed the ``Career Academy National Standards of 
Practice.'' Based on both the experience of the organizations involved 
and on the MDRC findings, the national standards identify 10 elements 
of successful implementation of the career academy model.
                        the career academy model
    Among local, State and national career academy organizations, it is 
widely agreed that the career academy model contains three essential 
components: that the academy is structured as a small learning 
community; that the academy uses college-preparatory curriculum that 
applies a career-context to learning; and that through business, 
college, and community partners, students access a range of work-based 
learning experiences such as internships and job shadowing. The 
National Academy Foundation model adds one additional component, 
requiring that each Academy has an advisory board to formalize the 
relationships between local businesses, higher education, community 
groups and the school.
Academy Structure
    Career academies are organized as small learning communities so 
that students get the benefit of a supportive and personalized learning 
environment. The National Academy Foundation academy structure also 
emphasizes recruitment that is open to any young person who expresses 
interest in the career theme and attracts both high- and low-performing 
students. It also requires a scheduling and school structure that 
allows teachers to collaborate across subject areas.
    This can take hold in a variety of forms. The high school I lead is 
what we call ``wall-to-wall academies.'' It is a small high school 
serving 400 students in five career-themed academies. Four out of the 
five are affiliated with the National Academy Foundation. The Academies 
focus on Finance, Hospitality & Tourism, Information Technology, 
Engineering, and Law. National Academy Foundation academies are also 
successfully implemented as a school-within-a-school in a larger 
comprehensive high school or as small schools that may have only one 
academy theme.
Curriculum
    Career academies are at the forefront of the college and career 
movement because they combine academic learning with a contemporary 
approach to Career and Technical Education. This results in young 
people who are prepared to enter college and succeed there, and who 
have the critical skills necessary to excel in the 21st Century 
workplace.
    The National Academy Foundation has developed curriculum for its 
themes that is driven by proven, research-based methods that emphasizes 
literacy and project-based learning. In this highly-effective teaching 
approach, students are called upon to use teamwork, creativity, 
decisionmaking, communication and other core skills to perform tasks 
and achieve outcomes, mimicking the world of work. Professional 
development, technical assistance, and ongoing evaluation are offered 
by the National Academy Foundation to help teachers and academies 
succeed.
    At the National Academy Foundation High School we strive to create 
a living classroom for each Academy, and we take the opportunity to 
create relevance to the extreme. We have a branch of the MECU credit 
union in our school that is operated by our Finance students. Our 
Hospitality & Tourism students cater and run all of our special events 
and are hired to do so for many local government and business events. 
Our latest project is to create an entirely student-run cafeteria. Our 
Hospitality students can create better tasting food than available at 
any other cafeteria, our Finance students can handle the money and 
business side, and our IT and Engineering students can create systems 
and processes to track the inventory. These aren't projects for 
projects' sake. They are real life applications for students' knowledge 
and skills that also allow them to create benefits for their own 
school.
Work-based Learning and Internships
    Career academies integrate a range of work-based learning 
experiences that include mentoring from business professionals, career 
fairs, job shadowing, classroom speakers and culminate in an 
internship.
    High school internships, particularly those that are paid, are an 
essential component of workforce preparation and an important motivator 
and context setter for young people. Internships introduce youth to the 
habits and value of work, while making connections between academic 
learning, the real-world application of knowledge, and the role of 
business in the community. Indeed, these partnerships between academies 
and the local business community are the cornerstone of the career 
academy model, connecting youth with hands-on experiences under the 
guidance of practiced professionals.
    At the National Academy Foundation High School, we are able to 
provide a wide-range of opportunities for students to get a window into 
the world of work and apply the knowledge they have gained from their 
living classrooms. After students participate in job shadowing or 
internships, they are filled with the most incredible sense of pride 
and confidence. Once young people have had these experiences, there is 
a perceptible shift in the way they carry themselves. This even 
transfers over to the expectations that they have of their fellow 
students' behavior, all of which changes a school's culture indelibly.
Advisory Boards
    One of the most distinctive elements of National Academy Foundation 
academies is their relationship with their local communities. Teachers 
and academy directors rely on Advisory Boards, made up of local 
business, higher education, and community leaders. Employees of more 
than 2,500 companies serve as Advisory Board members for National 
Academy Foundation academies. They create access to expertise in the 
subject areas the academies are built upon, and connect students and 
their growing skills to a wide world of career paths. These highly-
engaged Board members provide students with paid internships and 
opportunities for job shadowing and mentoring; act as role models; and 
help to enhance career-themed curriculum through their own knowledge of 
the industry. Their constant involvement provides a stable base of 
support that allows academies to endure and flourish even when 
leadership at the school- or district-level changes.
    At the National Academy Foundation High School, we have the most 
incredible collection of professionals who are an integral part of our 
school. They help us to make the subject matter real, and they hold us 
accountable. We only have 15-20 board members, but each one of them 
comes with a network that grows our reach exponentially. We have over 
750 business people at our annual awards benefit who are deeply 
connected to our school.
    Through this group come the most amazing opportunities. For 
example, when Hilton Hotels earned a contract to take over the hotel at 
the Baltimore Convention Center, connections made through our board 
made it so they created a $3 million fund for college scholarships for 
Baltimore high school students who pursue hotel management and 
hospitality careers, with National Academy Foundation students 
receiving first priority.
                        career academy evidence
    Thanks to their longevity and the outcomes demonstrated at 
individual schools, career academies are one of the most well-
researched high school interventions. Attached to my written testimony 
is a summary of the research, Career Academies: A Proven Strategy to 
Prepare High School Students for College and Careers,\1\ compiled and 
recently updated by David Stern, Charles Dayton, and Marilyn Raby, and 
a recent paper commissioned by the National Career Academy Coalition 
and written by Betsy Brand of the American Youth Policy Forum, High 
School Career Academies: A Forty-Year Proven Model for Improving 
College and Career Readiness.\2\
---------------------------------------------------------------------------
    \1\ The article referred to may be found at http://
casn.berkeley.edu/resource-files/Proven
_Strategy_2-25-1010-03-12-04-27-01.pdf.
    \2\ The article referred to may be found at http://www.aypf.org/
documents/092409Career
AcademiesPolicyPaper.pdf.
---------------------------------------------------------------------------
    Most significant among this research is a 12-year longitudinal, 
random-assignment study conducted by MDRC and released in June 2008. 
The full report is also attached to my written testimony.\3\
---------------------------------------------------------------------------
    \3\ The article referred to may be found at http://www.mrdc.org/
publications/482/full.pdf.
---------------------------------------------------------------------------
    Key findings of the MDRC study include:

    <bullet> Career academy graduates earned 11 percent more in total 
earnings over the 8 years following high school than their non-academy 
peers.
    <bullet> Young men from career academies experienced increased 
earnings over 8 years totaling 17 percent more than their non-academy 
peers.
    <bullet> An increased percentage of career academy graduates live 
independently with their children and spouse or partner. Young men, 
specifically, reported positive effects on marriage and parenting.
    <bullet> While there were neither positive nor negative impacts on 
high school graduation rates or post-secondary attainment, for the 
subset of students most at risk of dropping out, career academy 
participants showed increased school retention through the 12th grade, 
improved attendance, and earned more credits.

    Especially noteworthy are the magnitude and persistence of this 
earning effect over 8 years; it is roughly the equivalent earning power 
of an associate's degree.
    The Coalition for Evidence-Based Policy, an independent, 
nonpartisan organization, has identified career academies as meeting a 
``top tier'' evidence standard of effectiveness, based on MDRC's long-
term evaluation. The career academies model joins only three other 
interventions that the Coalition has identified that meet the ``top 
tier'' criteria. MDRC is now conducting follow-up analyses to examine 
how the programs produced these effects and which features were likely 
to have contributed most to the impacts.
            national academy foundation high school outcomes
    Students at the National Academy Foundation High School experience 
unprecedented success. We are currently ranked as the sixth best high 
school in Baltimore and admission is open to all students. For the past 
4 years, we have achieved a 100 percent graduation rate and 100 percent 
of our students have been admitted to college. For the past 3 years, 
our attendance rate has averaged over 90 percent.
    Our high academic standards have also led to impressive gains in 
our State achievement tests and we have closed the ``achievement gap'' 
among our increasingly diverse student body. Last year our twelfth 
graders scored almost twenty percentage points higher than the city 
average on both the English and Algebra 2 assessments.
    All of this has brought us to the attention of many of the city's 
outstanding students. As attractive as the school is, our 
superintendent and our school leadership are determined to ensure that 
it remains an option for those who could benefit most. Next year, we 
become a 6-12 school, absorbing a failing middle school and its 
struggling student body. It will be a challenge, but I am confident 
that with the career academy model, 4-plus years from now, those 
students will be on their way to post-secondary and career success with 
the unmistakable professionalism that marks a National Academy 
Foundation High School graduate.
              opportunities in the reauthorization of esea
    The reauthorization of the Elementary and Secondary Education Act 
provides many opportunities to increase the prevalence of the career 
academy model and apply to key lessons learned over the 40-year 
refinement of the model to improve the high school experience for all 
American young people.
Funding for Career Academies
    While career academies are a widely used high school reform 
strategy, they are estimated to reach only 5 percent of public high 
school students. Increased funding is critical to increasing their 
scale and can also help to ensure quality among all the schools that 
seek to use the model. Since the National Standards of Practice were 
created in 2004, both the National Career Academy Coalition and the 
National Academy Foundation have developed detailed academy assessments 
to increase effective implementation in order to reap the most benefits 
for students, schools and communities.
Integrated Curriculum, Assessments and Credentials
    The skills and knowledge that prepare students to be successful 
college applicants and goers are many of the same ones that lead to 
success in the workplace. We need standards that allow academic and 
career-themed courses to be integrated to expand the relevance of 
coursework and at the same time deepen students understanding and 
ability to apply core concepts. Alongside promoting these instructional 
methods must be assessments that measure students' skills in addition 
to the knowledge they have gained. These assessments must also be 
aligned with credentialing opportunities in which students can earn 
industry certifications or college credits.
    The National Academy Foundation is working to develop a 
certification and assessment system for its academy students. This 
system will center around a combination of course tests, a student 
portfolio demonstrating proficiency in industry authentic projects, and 
an evaluation of the internship, that will provide a portable 
credential that will assist students in their applications to college. 
This certification and assessment system will also enable the National 
Academy Foundation to gauge student learning and will form the basis 
for articulation agreements with prestigious universities to engender 
student access and portability to high quality post-secondary 
opportunities.
    Thank you for the opportunity to provide this testimony. I am happy 
to answer any questions you may have.

    The Chairman. Thank you.
    And now our last witness is Mr. Habit.

 STATEMENT OF TONY HABIT, Ed.D., PRESIDENT, NORTH CAROLINA NEW 
                  SCHOOLS PROJECT, RALEIGH, NC

    Mr. Habit. Mr. Chairman and members of the committee, thank 
you so much for the opportunity to be with you today, and to 
speak briefly. It is an honor to be here as we talk about this 
very important issue for our Nation.
    I would, as a point of privilege, if you don't mind, say a 
special word about the practitioners who are at this panel 
today. It is very, very impressive to hear them talk. These are 
people who are on the ground, day to day, working with young 
people and teachers, and they deserve a great deal of respect 
from all of us.
    So, thank you for that, it is an honor to be with you.
    I want to thank Senators Burr and Hagan for their very 
generous comments in opening today. They are remarkable leaders 
for our State, and we are very, very grateful for the things 
that they do here on behalf of North Carolina.
    In North Carolina, we are so fortunate, in that we have had 
a succession of leaders who are deeply committed to this idea 
that education must change, and must change rapidly, in 
response to an economy that is changing at a breathtaking pace. 
Our Governor, Beverly Perdue, has launched a new education 
agenda called Career and College--Ready, Set, Go! That agenda, 
for the first time in our State's history, sets out the 
expectation that every child should graduate and--every child 
should graduate ready for the next step, which assumes 
continued education beyond high school. She has taken these 
steps and, with her budget, made recommendations to build on 
the innovation work in North Carolina during times that are 
very, very tight for our State, as they are for most States.
    Our general assembly shares this commitment; they have 
created a commission called the JOBS Commission. That 
commission, in effect, looks at, How do we join our businesses, 
schools, and jobs, to connect secondary school innovation to 
economic and workforce development in ways that will accelerate 
the change process that I am going to talk about briefly today? 
That commission is led by our State's Lieutenant Governor, 
Walter Dalton.
    By so many measures, we have been very fortunate, as a 
State, to have great progress, in that there are indicators 
that suggest that the work is putting us where we really need 
to be. For example, last year, North Carolina ranked No. 1 in 
the percentage of students enrolled in advanced mathematics in 
high school, at 80 percent. But, the economic restructuring has 
created a sense of urgency around the transformation of 
secondary education that has really made our work possible at 
the North Carolina New Schools Project.
    We recently commissioned a poll of young people who have 
graduated, to ask them about their perceptions of what they 
received and did not receive in secondary schools. What they 
came back to us with was very clear messages that they felt 
there were significant gaps in their preparation, both for high 
school and for life beyond high school. As we look at our 
State's graduation rate, only 72 percent of our students 
graduate in a 4-year period in North Carolina; and for African-
American students, that number is around 63 percent.
    As has been said earlier, our organization was created to 
serve in the nexus between the public sector in government and 
private sector to help accelerate the change process in ways 
that will both be sustainable for the long-term and that will, 
ultimately, systemically impact every community and every 
school in North Carolina.
    So, I want to briefly update you on our progress, point to 
a few data points, and then talk briefly about where we are 
headed, as an organization and as a State.
    To date, we have created 106 innovative new secondary 
schools around North Carolina that range from early-colleges. 
Early-colleges, as you have heard earlier from our partner, 
Cassius, with the Jobs for the Future, are typically based on 
the campus of a 2- or 4-year college or university, in which 
students, beginning in the 9th grade, are accelerated toward a 
12th or 13th year, and expected to graduate high school with up 
to 2 years of college credit, at no cost to them or to their 
families. Students who enroll in early-colleges are typically 
underserved, and these are the students who would not likely 
complete high school, and are typically the first in their 
families to succeed in college.
    We are also involved in the development of innovative 
schools on traditional campuses that are focused in ways that 
are inconsistent with conventional high schools; where 
teachers, working in teams around a group of students, have the 
ability, and the support, to meet the individual needs of each 
student.
    I believe that the evidence of these schools provides us 
with some data that gives us--I'm looking at the time, here, 
and realizing I'm going to have to significantly change my 
remarks.
    Let me just add a few points here, and I'll conclude.
    With the early-colleges, we find that the students--by the 
end of the 9th grade, there essentially is no achievement gap--
no achievement gap between the minority students and the 
majority students, compared to conventional schools, where the 
gap in achievement is 10 points or greater. We are seeing that 
students in our innovative, redesigned schools are graduating 
at much greater rates than students in conventional high 
schools that are compared to them, across the board.
    I am going to mention a couple of lessons along the way, 
and skip the concluding comments that I have here.
    First is that changing beliefs in schools is critically 
important, as you have heard from others who have spoken today. 
That is, the traditional set of low expectations for many 
students really is a cancer that undermines the attempt to set 
very high and ambitious goals for student performance.
    Second, setting a goal that every child should be expected 
and supported to attend college provides a way to unify the 
thinking of teachers, it gives them a platform with which to 
ask meaningful questions and to connect with one another, and 
ultimately focus on the resources and time of that school.
    Third, meaningful change in schools is often undermined by 
the fact that schools lack the capacity. They lack the 
training, the tools, and experience around change management. 
Many of our private-sector partners have, for years, been 
working around change management, and going out and purchasing 
expertise in change management. We need to expect schools to 
have the same supports and structures if they are to be 
successful at creating the new American high school.
    And last, the idea that we heard earlier, that rethinking 
leadership is critical. Principals in new schools must be 
leaders of teachers, and teachers of teachers, as we heard 
earlier, rather than managers of facilities who focus on data 
and stability of campuses.
    With that said, let me conclude my comments and hope that 
there are some comments or questions from you all.
    [The prepared statement of Mr. Habit follows:]
                Prepared Statement of Tony Habit, Ed.D.
    Mr. Chairman, Ranking Member Enzi and members of the committee, 
thank you for the invitation to testify today. I am pleased to be with 
you to consider the urgency for change in our Nation's secondary 
schools. My name is Tony Habit, and I am president of the North 
Carolina New Schools Project.
    In North Carolina we are fortunate to have leaders who appreciate 
both the urgency for change and the magnitude of the change that must 
occur. Our governor, Beverly Perdue, continues to champion innovation 
in our State's secondary schools with an education agenda that sets a 
paramount goal of raising the State's graduation rate and ensuring that 
graduates are well prepared for college, career and citizenship. Even 
as North Carolina faces another year of serious fiscal challenge, 
Governor Perdue's proposed budget calls for continued investments to 
improve educational outcomes as an essential strategy to advance the 
State's future workforce.
    The North Carolina General Assembly shares this commitment by 
enacting legislation in 2009 to establish the JOBS Commission--Joining 
Our Businesses and Schools--that is co-chaired by Lt. Governor Walter 
Dalton and Representative Rick Glazier. The Commission is tasked with 
recommending the next phase of secondary school innovation with a 
particular emphasis on economic development.
    North Carolina also has benefited from the unparalleled 
philanthropic leadership of the Bill & Melinda Gates Foundation to 
transform the Nation's high schools to meet the demands of this 
century.
    By many traditional measures, North Carolina is fortunate to have 
high schools that in relative terms have succeeded over the last 
century in moving from institutions that served very few to ones that 
strive to serve all students. At 80 percent, North Carolina is ranked 
first in the country in the percentage of high school students taking 
advanced math courses.\1\ North Carolina ranks in the top third of 
States for the percentage of high school seniors passing Advanced 
Placement exams.\2\ Sixty-three percent of our State's 12th grade 
students took the SAT in 2009, and North Carolina had the second 
largest 10-year gain in SAT math scores among States with over 50 
percent of the population taking the SAT.\3\
---------------------------------------------------------------------------
    \1\ National Center for Public Policy and Higher Education (2008). 
Measuring Up 2008. Available at http://measuringup.highereducation.org/
default.cfm.
    \2\ College Board (2010), AP Report to the Nation 2010, Available 
at http://www.college
board.com/html/aprtn/pdf/ap_report_to_the_nation.pdf.
    \3\ Public Schools of North Carolina (2005). The North Carolina 
2005 SAT Report. http://www.ncpublicschools.org/docs/accountability/
reporting/sat/2005/sat_report_2005_part1
.pdf.
---------------------------------------------------------------------------
    At the same time, North Carolina has felt acute pain from dramatic 
economic shifts of the past decade, and hastened by the downturn of our 
State and Nation during the last 2 years. In the first 5 years of the 
last decade, for example, North Carolina lost nearly one-quarter of its 
manufacturing jobs--184,200 jobs in all. The ``Big Four'' of our 
State's traditional manufacturing base--tobacco, textiles, apparel and 
furniture--are projected to continue shedding jobs.
    As low-skill, high-wage jobs have vanished, some communities are 
left bereft of opportunity. Idled middle-aged workers often are trapped 
in a string of low-skilled, low-wage jobs or are required to return to 
college for retooling without the preparation in high school required 
to succeed.
    There is strong evidence as well that our most recent high school 
graduates are under-prepared for the demands they are facing in the 
``real world.'' In a poll commissioned by our organization a few years 
ago, half of North Carolina high school graduates in college reported 
gaps in their preparation for college academic work and half of recent 
graduates in the workforce report gaps in their preparation to get a 
good job. A quarter of the recent graduates in college reported having 
taken a remedial course.
    In addition, far too many high school students never reach 
graduation. North Carolina's cohort graduation rate in 2009 was 72 
percent of the students who entered 9th grade in 2005. For African-
American students, the graduation rate was only 63 percent. For 
Hispanics, it was only 59 percent. And for students from low-income 
families, it was 62 percent.
    My organization, the North Carolina New Schools Project, is an 
independent, not-for-profit corporation that serves as the nexus of the 
leadership of Governor Perdue and our State Board of Education; the 
strong interest in change among the Gates Foundation and other 
philanthropies, public and private colleges and universities and the 
private sector; and the pressing economic need that North Carolina 
faces.
    While impressive in relative terms, the incremental gains of our 
high schools are insufficient both in terms of scope and in terms of 
pace to address a changing economy. North Carolina must graduate more 
students with more skills and knowledge than ever before. The New 
Schools Project was established to accelerate the pace of innovation in 
our State and to ensure that all students have access to high-
quality schools that will prepare them fully for college, work and 
life.
    Since I last appeared before this panel, in the spring of 2007, the 
number of innovative high schools that we support has more than 
doubled--to 106 schools across the State. The number of students has 
tripled from about 7,000 in 2006-2007 to more than 21,000 this year. 
Two-thirds of the schools are early colleges that are proving to be 
highly successful in keeping students in school, challenging them with 
high expectations and effective support and graduating them well-
prepared for college and career. The other 36 schools are yielding 
invaluable lessons about the challenges inherent in redesigning 
existing, traditional high schools into ones that truly serve all 
students.
    I believe that the results being achieved by North Carolina's 
innovative schools are persuasive evidence that secondary schools can 
be transformed into places of powerful teaching and learning where 
truly all students graduate ready for college and careers.
    For example, a recent independent study of early college in North 
Carolina found that these schools are succeeding in erasing the 
achievement gap.

    <bullet> By the end of 9th grade, little or no gap separated the 
performance of non-minority students from under-represented minorities 
in the core subjects of English I and Algebra I. Gaps of 10 points or 
more were measured for similar students attending traditional schools.
    <bullet> Overall, the study's first-year analysis found that by the 
end of 9th grade, 83 percent of early college students had successfully 
completed Algebra I, compared to 67 percent of similar students 
attending other schools.

    On a number of other measures as well, North Carolina's innovative 
high schools are improving outcomes for students. Consider these 
results from 2008-2009 for the 101 innovative high schools that the 
North Carolina New Schools Project (NCNSP) was helping to support:

    <bullet> North Carolina's innovative high schools are making 
academic progress.

        <bullet>  Nearly 7 in 10 (67 percent) of 101 innovative high 
        schools last year out-performed their comparison high school on 
        the State's ABCs accountability measurement, based on statewide 
        exams in core subjects.
        <bullet>  Passing rates for early college high schools on 
        Algebra I end-of-course exams were nearly 10 points higher than 
        the State average and more than 15 points higher on English I 
        exams.
        <bullet>  Early college students earned higher grades, on 
        average, than college-age students last year in their community 
        college courses. Of all the college courses taken by early 
        college students, 75 percent received a grade of C or higher, 
        compared to 70 percent of courses taken by other college 
        students.

    <bullet> Students in North Carolina's innovative high schools are 
graduating.

        <bullet>  Nearly three quarters of the redesign high schools 
        with senior classes in 2008-2009 (17 of 23 schools) achieved 
        graduation rates outpacing those of comparison schools in their 
        districts with similar student demographics.
        <bullet>  Seventeen of the schools also had graduation rates 
        above 80 percent, with eight of the 17 with rates of at least 
        85 percent, compared to North Carolina's overall graduation 
        rate of 72 percent for the class of 2009.

    <bullet> North Carolina's innovative high schools are challenging 
students.

        <bullet>  Of 59 high schools in North Carolina where at least 
        25 percent of students took Algebra II in 2008-2009, 41 were 
        innovative schools supported by NCNSP.

    <bullet> Students in North Carolina's innovative high schools are 
less likely to drop out.

        <bullet>  The combined dropout rate in 2008-2009 for 97 NCNSP 
        schools open this year and last was 2.96 percent, compared to 
        4.27 percent for all high schools in the State.
        <bullet>  In 9th grade, the most critical year and where 
        students are at greatest risk of quitting school, NCNSP schools 
        had a combined dropout rate of 3.1 percent, compared to 5.7 
        percent for all North Carolina high schools.
        <bullet>  42 of 97 NCNSP schools lost no students as dropouts 
        in 2008-2009.

    <bullet> Attendance is better in North Carolina's innovative high 
schools.

        <bullet>  The combined attendance rate for 101 NCNSP schools in 
        2008-2009 was 95 percent, vs. 93.5 percent among comparison of 
        high schools.
        <bullet>  Nearly four of every five innovative high schools in 
        2008-2009 had better attendance than a comparable, traditional 
        high school.
            lessons learned on the road to meaningful change
    Since 2003, the North Carolina New Schools Project has partnered 
with local school districts and, in some cases, with national partners 
such as the Asia Society, the New Technology Network, and the 
KnowledgeWorks Foundation to open innovative schools of various 
designs. We engage with a school and its school district for at least 6 
years--a planning year followed by 5 years of implementation. This 
timeframe recognizes both the scope of the change we are pursuing and 
its complexity. This day-to-day, on-the-ground experience in working to 
foster innovation--along with what we have gleaned from the experience 
of others in the field--has offered us important insights into what it 
takes to transform secondary school to make it more effective for more 
students. Let me offer you four specific observations to consider.
Changing Beliefs
    Simply put, low expectations are a cancer that can weaken a school 
enough to make significant changes in teaching impossible. It is clear 
how this occurs in a typical high school--some students are tracked 
into demanding courses which prepare them for a future beyond high 
school, while others are tracked into classes that offer little 
challenge and even less future. The usual justification is that 
``those'' students were not ``ready'' for Algebra II or honors English. 
Some parents reinforce these beliefs by advocating that certain 
students be discouraged from enrolling in advanced courses.
    If I do not believe that all students can do the work, I do not 
feel obligated to assume responsibility for changing the way my school 
is organized or the way resources are allocated to ensure that all 
students succeed. In the schools we partner with, we work to instill 
the notion that preparation to tackle new demanding content is the 
responsibility of the teachers, not the students.
    In our partnership with schools, we insist that they be fully 
representative of the student population of their district; we do not 
allow access to innovation to be limited to the best and brightest. 
This is one of our stakes in the ground to enforce what we believe as 
an organization about who can do the work. Notably, three of every four 
of our partner schools subject to No Child Left Behind's growth 
provision last year made Adequate Yearly Progress. Among the 60 early 
colleges open last year, only two fell short of that goal.
    Teachers and administrators frequently do not believe all 
students--particularly poor and minority students--can master the 
knowledge and skills that lead to true opportunity until they see it 
first hand. As part of our work, we have taken hundreds of educators 
from across North Carolina on study visits to schools in other parts of 
the country whose results are irrefutable. Educators study some of the 
country's most successful high schools to learn how changed instruction 
and high levels of student support combine to improve student outcomes. 
This includes direct classroom observation that leads to deeper 
reflection about changing instruction. More than 20 schools such as 
University Park Campus High School in Worcester, MA, and Urban Academy 
at the Julia Richmond Complex in New York City are used for these site 
visits. In partnership with the University of North Carolina system we 
are now developing four of our own innovative schools into ``learning 
labs'' to make these kinds of transformative site visits even more 
accessible.
    While it seems counter-intuitive, there is strong evidence 
supporting the premise that with greater challenge, students try harder 
and perform better. This is particularly the case when schools and 
students focus on the most important content and skills and when the 
material relates to students' own aspirations. The term ``comprehensive 
high school'' speaks to the difficulty of achieving this kind of focus 
in the traditional setting. We work to create high schools of no more 
than 400 students that provide focus either through an academic theme, 
an instructional approach, or their location on a college campus in the 
case of our early college high schools. Additionally, a school's focus 
represents one strategy to enable teachers in the core courses to work 
together to make connections between courses and the world of work. The 
intent of a focus is not preparation for a specific career, but rather 
preparation for a lifetime of learning and workplace changes.
    As adults, we should not shy away of expecting more from all 
students. In our survey of recent graduates, 77 percent said that high 
school graduation requirements were easy to meet, 80 percent said that 
they would have worked harder had the expectations been higher and 68 
percent said that they would have worked harder in high school had they 
known then what they know now about real world demands. As adults, we 
must bear the burden of our knowledge of what preparation for college, 
work and life requires and must act on that knowledge.
Setting College as the Goal
    Often, the limitations of beliefs about students' capabilities 
emerge around the notion of making every graduate ``college-ready.'' 
Inevitably, someone raises the challenge that not every graduate will 
go to college.
    The overarching goal of North Carolina's innovative high schools is 
to ensure that every student graduates college-ready. We are even more 
explicit in asking, first, that students meet the admission 
requirements of the University of North Carolina system and, second, 
that every student earn college credit before leaving high school.
    This college-ready imperative is intentionally provocative. It 
becomes a point on which a faculty must agree and collaborate. Another 
value to the small scale of our innovative high schools is that they 
allow teachers to be flexible in meeting the academic needs of 
students, to alter what is offered and for how long in ways that a 
2,000-student high school cannot.
    At the same time, this imperative is based on a growing body of 
research that shows that the skills high school graduates need in order 
to be ready for college and ready for the 21st century workplace are 
the same.\4\
---------------------------------------------------------------------------
    \4\ See ACT, Ready for College and Ready for Work: Same or 
Different?, 2006 and Achieve, Ready or Not: Creating a High School 
Diploma That Counts, 2004.
---------------------------------------------------------------------------
    The most recent such study, conducted by ACT, analyzed data and 
items from its college and work readiness tests, found that 90 percent 
of jobs that do not require a bachelor's degree but that do provide a 
``self-sufficient'' wage require the same level of mathematical and 
analytical reading and writing skills as those needed by students who 
are planning to enroll in a 4-year university.\5\ The report goes on to 
state that this finding suggests that ``all high school students should 
be educated according to a common academic expectation that prepares 
them for both post-
secondary education and the workforce. This means that all students 
should be ready and have the opportunity to take a rigorous core 
preparatory program in high school, one that is designed to promote 
readiness for both college and workforce training programs.'' \6\ 
However, another ACT study released this month showed that high school 
teachers' view of college-ready content misses the mark in terms of 
focus.
---------------------------------------------------------------------------
    \5\ Examples of jobs cited in the report that do not require a 
bachelor's degree but do provide a ``self-sufficient'' wage include 
electricians, construction workers, upholsterers and plumbers. From 
ACT, Ready for College and Ready for Work: Same or Different?, 2006.
    \6\ ACT, 2006, page 2.
---------------------------------------------------------------------------
    Voters in North Carolina, perhaps intuitively, understand this 
convergence. In a poll we commissioned, 70 percent agreed that the 
skills to succeed at work and in college were the same. Eighty-four 
percent said it was important for nearly all high school graduates to 
move on to a 2- or 4-year college, with 69 percent calling it very 
important.
    We have good reason to believe that students can meet this higher 
expectation. Last year, students in North Carolina's early college high 
schools on average took at least three college courses.
Managing for Significant Change
    Meaningful change in high schools is essential and elusive; it is 
worth remembering that A Nation at Risk was a report about changing 
secondary education. Schools and school districts are rewarded for 
maintaining the status quo and for adding new programs. For example, 
rather than consider the absence of personalization and effective 
student supports within a school, districts will add a dropout 
prevention program or a specialist for that problem. At its heart, 
however, changing schools to graduate all students to be college-ready 
means redirecting all of the resources of a school to provide greater 
student support and to address highly focused targets for achievement. 
This is especially true in using the resources represented by the role 
and responsibilities of adults in the school.
    While the private sector has experienced decades of organizational 
restructuring in which workers are displaced in one function and then 
rehired in another to adapt to changing market conditions, the 
education sector possesses no such history. Changing the roles of 
adults in schools typically results in conflict and undermines the 
overarching school change process--if not derailing it altogether. Most 
schools and districts lack the expertise or organizational structure 
with which to manage change and innovation.
    Further, since communities and educators must embrace the need for 
change, the absence of resources and expertise for most schools and 
districts to effectively engage their communities means that well-
intentioned efforts can be undermined by relatively few, well-organized 
citizens or disgruntled educators.
    Current funding and professional development programs reinforce a 
piecemeal approach to change and typically fail to support a coherent, 
sustained and focused model for schools. It stands to reason that if 
tools and plans for school change are not supported by high-quality and 
aligned training that the likelihood of success will be greatly 
diminished.
    The New Schools Project and its partners provide specific supports 
for new and redesigned high schools that deviate from this norm. They 
include:

    Teaching for Results: This annual series of intensive professional 
development sessions for teachers supports the use of protocols and 
other tools to sustain the focus on instruction, academic rigor and 
professional learning communities. The sessions stress differentiating 
instruction, teaching literacy across the curriculum, facilitating 
meaningful learning, and providing effective student support.
    Leadership Institute for High School Redesign: In cooperation with 
the University of North Carolina Center for School Leadership 
Development and the Principals' Executive Program, the Leadership 
Institute for High School Redesign offers a peer support and 
professional development network for principals in new and redesigned 
high schools. The network promotes effective instructional leadership.
    Coaching: Each new school also benefits from coaching services in 
which experienced educational leaders and master teachers assist with 
facilitating the overall change process and with the development of 
instructional strategies such as differentiation of teaching to meet 
individual needs of students; lessons and units which engage students 
in learning; and the improvement of literacy and mathematics skills.

    Investing financial resources and expertise in building the 
capacity of schools and districts to manage change is essential. 
Schools and districts must be expected to define a single, 
comprehensive model for change regardless of what that model might be 
and sustain the work over time.
    Further, within the broader model for change, strategies for 
professional development of teachers and school administrators and 
district office personnel must be tightly aligned and integrated so 
that they connected at all levels to point in the same direction. In 
our work this year to help schools define rigor, the sessions involved 
both principals and teachers; in essence, they debated within their 
school the definition after visiting other schools in North Carolina 
thought to offer rigorous instruction. Expectations of teachers and 
principals must be aligned with those of district administrators for 
high school innovation to be sustained.
Rethinking Leadership
    Finally, a new generation of student-focused schools calls for a 
new model for school leadership. The principal in a traditional high 
school is a building manager first and an educator second. Schools 
which place teaching and learning above all else are led by principals 
who understand both school design and who facilitate among teachers an 
unrelenting focus on high quality teaching and learning.
    One element of our partnerships aimed at ensuring the 
sustainability of innovation is our expectation that our partner 
schools are completely autonomous, with its own principal and school 
budget, an essential step to create more entrepreneurial faculties with 
both the responsibility and accountability for the success of all 
students. This increases the demand for capable leaders.
    New, proactive initiatives to identify, recruit, place and support 
principals to lead schools are required. Leadership preparation 
programs should emphasize both school designs that support achievement 
and the role of principals as facilitators of adult learning in schools 
intended to strengthen teaching.
    Since most district administrative staff begin as principals, 
creating a new generation of school leaders who believe and act as 
though all students can succeed will inevitably change districts over 
time.
strategies going forward: aligning innovation with economic development
    Our pressing priority is scaling the success of innovation across 
districts and regions. One key strategy is to link innovation with 
economic and workforce development.
    In cooperation with government, the private sector, higher 
education and others, we are developing ways to connect new schools to 
promising growth sectors of the economy with high-wage, high skill 
jobs. This emphasis includes the development of networks of STEM--
science, technology, engineering and mathematics--focused secondary 
schools, the incorporation of one-to-one computing and rethinking the 
role of career and technical education in a way that helps all students 
become both college- and career-ready.
    We think that achieving cost-effective, scalable solutions in 
secondary school innovation demands greater collaboration among schools 
that share a similar focus. New Schools is creating groups of schools 
with shared themes keyed to North Carolina's economy such as 
biotechnology, health and life sciences, aerospace and energy. Each of 
these schools will incorporate engineering and technology to achieve 
mastery of science, mathematics and the skills essential in the 
innovation economy.
    For example, Duke Medical Center will soon host a secondary school 
focused on health and life sciences and that also incorporates 
engineering. An agricultural research center in a poor, rural region of 
the State will soon host a new school focused on biotechnology and 
agribusiness. North Carolina State University will soon host an early 
college themed around engineering and sustainable energy. In each of 
these examples, the schools will be part of a network of similarly 
themed schools, and each will have strong ties to the private sector in 
the development of academic content.
    These clusters of STEM schools will also incorporate one-to-one 
computing. With the assistance of corporate partners like SAS and AT&T 
and private charities such as the Golden LEAF Foundation, New Schools 
is creating models in which each student has a laptop, netbook or some 
other digital device that in some instances have already replaced 
textbooks. These schools will leverage technology to transform teaching 
and learning; demonstrate instructional strategies and data analysis 
that use technology to engage students in interactive learning; and 
inform the anticipated statewide expansion of one-to-one computing in 
the near future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, the historical division between courses of study focused 
on college preparedness and those intended to graduate students 
prepared for work have frustrated attempts to ensure true readiness for 
life behind high school.
    The New Schools is working in cooperation with our State 
Superintendent of Public Instruction to advance a blended approach 
integrating core academic courses and career and technical courses. 
Unlike traditional secondary schools, these schools will blend course 
content into new structures for earning high school credit, making the 
transition from discrete blocks of knowledge toward an integrated and 
applied approach to learning. Students enrolled in a STEM-themed 
school, for example, might learn Algebra I and introductions to 
biotechnology and physical science in the same course. Other approaches 
might pair an online high school or college course with a different, 
but related high school course or seminar, making connections across 
disciplines. Students will have the opportunity to pursue individual 
paths through internships, mentoring, field experiences and 
individually designed projects.
    This integrated approach to learning will accomplish the dual goals 
of: (1) engaging students to master more demanding content by 
illustrating the application of academic content to real-world problems 
and needs; and (2) mimicking the world of adult learning in which 
solving complex problems requires applications of information ranging 
from literature to mathematics, science and technology.
    In conclusion, the North Carolina New Schools Project believes that 
a clear and unwavering focus on the bottom-line goal of graduating all 
students ready for college, career and life in the 21st century drives 
real change in the classroom. In that same spirit, we believe that the 
Elementary and Secondary Education Act must be aligned to support that 
same goal.

    The Chairman. Thank you very much, Mr. Habit.
    Thank you all for very succinct, but very pointed, remarks. 
As I said, your statements will be made part of the record in 
their entirety.
    I will now recognize Senators for 5-minute rounds of 
questions. As you know, we sent a notice out--and I shared this 
with Senator Enzi. We agreed on a new structure so that people 
will be recognized in the order of their appearance, regardless 
of party, on this committee. So, the order that my staff has, 
of appearance, is Franken, Hagan, Burr, Bingaman, Roberts, 
Murray, Murkowski, Bennet, Merkley, Reed, Casey, and Sanders. 
The only one that's out of order there is Murkowski, because 
she is standing in for the Ranking Member. I will recognize her 
after my opening questions.
    Let me just pose a general question to all of you--
graduation rates. You have all talked about improving 
graduation rates, getting kids ready for college. We heard, the 
other day--maybe last week, from other witnesses--about the 
problem with dropouts. You get kids that are behind, they are 
in high school, they have some problems, they drop out, they 
come back, they are behind--if you can get them back in. That 
is one part of my question, What do we do with dropouts? How do 
we get them back? But, the idea that somehow they have to 
graduate with their peers in 4 years, and if--are we going to 
set up, or should we set up, some kind of performance criteria 
for high schools, secondary schools, in terms of graduation 
rate in 4 years? Is that all that important? Or is it just 
important to get these kids through? Some kids may take 5 
years, or 4\1/2\ years. So, if we are saying, ``Well, if there 
is some performance criteria on 4 years, do schools then start 
thinking about, `What do we cut?' `How do we slice and dice 
this?' `How do we shove these kids through in 4 years?' Because 
we will get evaluated on that.'' Is there another set of 
performance evaluations that we ought to be thinking about, 
which is not strictly a 4-year--but in terms of how many kids 
graduate, and how ready they are either for career or college? 
So, if you could address yourself to that.
    Mr. Johnson, we will start with you.
    Mr. Johnson. Yes, thank you for that question. We know, in 
these low-performing schools, there are, given our research, 
upwards to 80 percent that are actually off track. So, they're 
going to need some type of educational setting that has the 
curriculum, the supports needed to get them back on track to 
graduation. When it comes to graduation-rate accountability, I 
think our position at JFF has been that--aligned with many of 
the Governors, who have agreed to grad-rate accountability 
definition--and we see, in regulation now, a great deal of 
activities now by States to put in place 4-year graduation-rate 
definitions and measures of progress. When you move beyond that 
and look at these programs that get these off-track students 
where they need to be, the accountability needs to be fair for 
them in allowing for the use of an extended rate, as the 
regulations provide. And that, ``as long as they get them 
across the line,'' is the problem.
    The criteria for the type of educational options that 
qualify for the use of extended rate needs to be extremely 
tight, because the last thing we want to do is to create an 
incentive for pushout among districts.
    The Chairman. That is what I am concerned about.
    Anybody else want to address themselves to that? If someone 
drops out, how do you get them back? And should there be some 
kind of incentive, initiative. Mr. Capozzi, you talked about 
initiatives----
    Mr. Capozzi. Thank you.
    The Chairman [continuing]. To get these kids back in.
    Mr. Capozzi. Senator Harkin asked, ``How do we get them 
back.'' First, we should not let them drop out. That is first 
and foremost. What we do at Elmont Memorial High School--and it 
is becoming harder and harder, especially with our State aid 
being cut--we had summer school. I will give you a perfect 
example. We are on the westernmost portion of Nassau County, so 
we are right on the Queens city border. Students, every year, 
every month, come to our school below grade level. We had 
summer school and we had night school; therefore, we could 
catch kids up with quality education, as well, not just push 
them through.
    What we do, we use an acronym called ACTION.
    The Chairman. I read that in your statement.
    Mr. Capozzi. Right. It's something that's real, and it's 
something that works. A big part of it is our pupil-personnel 
counselors. The average class size in our school is about 325, 
330, we don't let a student fall through the crack. We 
establish a culture, in the school, that every student is a 
success story. It's not easy, it's hard work. But, as far as 
the graduation rates go, it's the way we report it. I could 
have someone in my cohort for a couple of months, they'd move, 
he or she is still in my cohort. And it's reported like that.
    I would not like to see 5-year graduation rates. I believe 
that students can complete a quality education in 4 years.
    The Chairman. Anybody else want to address this? I might 
gently disagree with you on that.
    Mr. Capozzi. That's OK.
    The Chairman. Because some students have tough home lives.
    Mr. Capozzi. Absolutely.
    The Chairman. They get off track. They may get into drugs, 
they may even be incarcerated for a while, in a juvenile home 
or something--and then they come back.
    Mr. Capozzi. The school has taken on--I'm sorry.
    The Chairman. Pardon?
    Mr. Capozzi. I'm sorry, I didn't mean to interrupt.
    The Chairman. Oh, no, I was just saying that sometimes, you 
know, to try to get these students to graduate in 4 years 
becomes overwhelming.
    Mr. Capozzi. It does. It's not easy, but that's what we're 
paid to do. That's what teachers are paid to do, to help 
students graduate. You know, what schools----
    The Chairman. But, again, I challenge you, Mr. Capozzi--is 
it more important to get that kid to graduate and to actually 
absorb learning, or to say, ``You've got to graduate in 4 years 
or you're out of here?''
    Mr. Capozzi. I don't think you say, ``You're out of here.'' 
But I, and I disagree, respectfully, that we don't just push 
kids through. summer school is not some ``flunky dropout 
building'' where you put the failures in. Stuff happens. Kids 
have a whole--I received a phone call today, ``How is that 
child going to graduate with something so traumatic her life?'' 
It's something that we do--schools become more than an 
educational institution. They really are. And we look at that, 
and we know that, and we realize that, and we perform upon it. 
Kids with hard home lives--that's a fact of life, but, you know 
what, we can't give into it.
    The Chairman. Mr. Capozzi, my time has run out. If I get 
another round, I'll come back to that question.
    Senator Murkowski.

                           Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    You've mentioned, Mr. Capozzi, that the real ticket here is 
to keep kids from dropping out in the first place. I certainly 
appreciate it, although I think the Chairman has raised some 
real issues that we struggle with.
    I want to go back to some of the comments that you made, 
Mr. Deshler--and, Mr. Harrison, you spoke about within your 
school--and that's focusing on this ``missing middle,'' you 
call it. It seems like we get so caught up in working with the 
kids once they hit high school, and say ``OK, we've got to 
figure out ways to keep you in.'' But, our reality is, kids 
start checking out a heck of a lot earlier than high school, 
and our focus, earlier on, whether it's the literacy aspect or 
challenging them through STEM programs, getting them into a 
college--having a sixth-grader go to a college, I think, is a 
great way to get them thinking about what they need to be 
doing.
    Are we, from a funding perspective, then--as we think about 
how we allow for the programs that deal with literacy, how we 
challenge our kids in the different areas--are we missing the 
boat by not starting earlier, as we focus on these kids? I 
don't mean to limit it to just Mr. Deshler and Mr. Harrison, 
but I worry about the kids that are in the middle school, where 
we just kind of figure, ``OK, you made it through elementary, 
you're cruising now.''
    Mr. Deshler. Right. Excellent question. For years we have, 
policywise and within the educational community, had this 
conversation about, ``Where do we do the investment?'' And, as 
I said in my statement, no one can argue against looking at 
younger children and doing the very best that we can, and what 
we know, with younger students.
    The problem is, the curriculum changes as students move 
along. We may have a student well prepared in the early 
elementary years, doing fine, but as he moves past fourth 
grade, fifth grade, the demands of the curriculum change, but 
we no longer are teaching them literacy skills, and many of the 
students start to fall behind, get discouraged, start to 
disengage, and then it becomes a vicious cycle.
    Senator Murkowski. So, do we continue those literacy skills 
throughout high school?
    Mr. Deshler. Absolutely. But, they change. I think 
something that is exciting about the new core standards that 
are being discussed is the infusion of literacy instruction 
throughout middle school and high school, which is something 
that has not happened in the past. It's not just students who 
are struggling in learning, but students who are doing well. 
The demands to take in large amounts of content and to draw 
inferences and problem solve, and so forth--students need 
deliberate instruction in how to do that from a literacy 
prospective.
    Senator Murkowski. Let me go to Mr. Harrison.
    I know you wanted to comment on this, but I also would like 
a little bit of discussion on--the terminology that you used, 
Mr. Habit, was ``rethinking leadership.'' I'm curious, as to 
some of the responses that you may have to the proposal that we 
need to remove the principals from the schools that are not 
succeeding. From a rural State, that's a real issue for us. So, 
I'd like to hear a little bit of your input on that, too.
    Mr. Harrison, and then Mr. Habit, if you could address 
that.
    Mr. Harrison. Sure. I think it's really important to think 
about middle school as the time where kids either get on the 
bus or get off the bus. I think there are a couple things that 
a lot of urban charter schools have done around the focus of 
school culture and the teaching of values. I think we have to 
do a better job of teaching our most at-risk students the 
values that they need to have to be productive citizens here in 
our country. We also have to have a school culture that creates 
a mindset in kids that they want to stay and be a part of a 
school. I think that's really important.
    I think when you talk about ``rethinking leadership,'' I 
always--I'm very concerned about our student achievement. But, 
more importantly, I'm concerned about the level of 
relationship-building that myself, teachers in our building, 
our staff--we need to connect better with our students and with 
our parents, and really making sure that they feel ownership of 
our school. I think there have been a lot of charter schools 
that have made a lot of progress in really making it feel like 
a team and a family.
    I'd like to just point out a couple of things that I think 
support that. There was a question around retention and 
attrition issues that a lot of urban middle school and high 
schools are facing. I think that this is where we think about 
the use of data.
    There are two data systems that DSST is known for. We track 
data around student achievement. I can look in a sixth-grade 
student's notebook and know exactly what standards he or she 
needs to work on. So, I can talk to a student and know, ``Hey, 
you know what, how's adding fractions with unlike denominators 
working for you?'' That type of relationship-building is really 
important, but using data to make sure that there's a sense of 
urgency for that child to master fractions and decimals, that's 
really important in the sixth grade.
    No. 2, we have an extensive data system that tracks school 
culture data. This is a little bit unique to DSST. I know 
exactly how many times a student hasn't done their homework, or 
how many times they've had a compliance violation, or the 
number of times they've been awarded for an ``effort of the 
week'' or a school performance award around a test when we have 
our interim assessments. I think that there are some systems 
that we should look at to share more often so that school 
leaders are empowered with the tools and around data to really 
creating culture and buy-in from all students.
    Senator Murkowski. My time's expired, Mr. Chairman, but 
hopefully there'll be an opportunity for someone to address 
that issue--the principals.
    The Chairman. Senator Franken.

                            Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    Mr. Harrison, you talk a lot about charter schools, and 
your school obviously is doing an exceptional job. I read your 
whole testimony, and it's--congratulations on your remarkably 
successful school. But, unfortunately, charter schools do have 
a mixed record; in fact, a recent study by researchers at 
Stanford found that fewer than one-fifth of charter schools 
offered a better education than regular public schools. Almost 
half offered an equivalent education, and more than a third 
were, quote, ``significantly worse.''
    We have these schools come before us that are incredibly 
successful, like yours--we had one, Green DOT, from LA.
    Mr. Harrison. Yes.
    Senator Franken. Then, you know, I asked about it, and it 
turned out that it had gotten funding from Bill and Melinda 
Gates, which I think is great. Bill and Melinda Gates are doing 
great stuff, and you can look at that school as a laboratory. 
That's an investment in laboratories. Did you get outside 
funding like that?
    Mr. Harrison. Yes, we did. Let me talk to you about DSST's 
model. We do use fundraising to support infrastructure-
building, but our program is strictly on per-pupil. I think we 
need to--we can't rely on the kindness of others all the time. 
That's going to change from year to year. I don't think that--
--
    Senator Franken. Well, I guess what I'm trying to say is--
we see a lot of successful stuff, a lot of successful stuff in 
these hearings. And our job on this committee is to scale that 
up.
    For example, Mr. Deshler, you talked about this Dubuque, 
IA, program, in which they were reading from a program called 
Fusion Reading, and had remarkable results. And I was reading 
the thing. I said, ``OK, let's just do that.'' You know? Why do 
we have to re-invent the wheel every time? We have all these 
things that are working, and we hear them all the time, and I'm 
trying to figure out how, as a Senator, where the disconnect 
is.
    I like the Investing in Innovation Fund. I think that's a 
terrific tool to--basically, it's what the administration has 
done through the stimulus package, invested in finding things 
that work, and scaling them up.
    Now, one of the things that you, Mr. Habit and Mr. Capozzi, 
talked about were principals, the importance of principals. 
Both of you spoke to the fact that principals used to be 
building managers, and now need to be leaders and teachers of 
teachers. I'd like you to speak to that, because Senator Hatch 
and I put a bill together, where we believe the exact same 
thing.
    What does that entail? And are you substituting for 
education schools that aren't teaching the teachers? I know 
it's an ongoing process, and it has to be, but can you speak to 
that a little bit?
    Either of you.
    Mr. Habit. With regard to----
    Senator Franken. Both.
    Mr. Habit [continuing]. Principalship?
    Senator Franken. Yes.
    Mr. Habit. Yes. Well, the approach that we take is that the 
principal needs direct support in making that transition from 
being a building manager, focused on safety and so forth, to 
focusing on teaching and learning. So, we assign coaches, who 
are master principals, to sit with that principal, to 
essentially do the same sort of demonstration and mirroring you 
expect with teachers in a classroom, to get classroom-level 
change. So, if the growth doesn't happen with that sort of 
support, then the principal needs to be outsourced and the 
recruitment needs to happen for a new principal.
    The problem is, the ranks are thin. We need solid models 
for the identification and recruitment and support of 
topnotch----
    Senator Franken. Especially in rural schools----
    Mr. Habit. Yes.
    Senator Franken [continuing]. As Senator Murkowski points 
out.
    Mr. Habit. But, I would suggest, even in wealthier 
communities, the ranks are very, very thin. Because the job is 
quite challenging. That's why I made my opening comment about 
the folks on this panel. It is a very, very demanding job. 
Scaling success, whether it's a charter or an innovation in a 
conventional school, is going to come down to the ability of 
that person to lead that change.
    Mr. Capozzi. When you talk about things that work, and you 
look at what needs to change, I really look at it as pretty 
simple. Student achievement is directly related to effective 
teachers. Effective teachers are directly related to effective 
principals.
    Being a teacher of teachers, I came from, within my--I'm a 
product of my observation process that I came through. I'm 
lucky enough to have three assistant principals, chairpeople of 
each department, to really handle the day-to-day operations. My 
focus is primarily on instruction. If you lose that teacher 
effectiveness, the culture of high standards for teachers--and 
students, for that matter--will go down. We really need to--we 
talk about--and I spoke briefly about teacher-leaders. They're 
not trained to train teachers. It's good, once in a while, but 
principals will bring about change. Teachers won't. The 
principal is the one that will bring about change within the 
building.
    Senator Franken. Thank you.
    My time is expired. I'd love for the whole committee to 
spend a weekend at the Greenbrier and just keep bringing these 
people, so that we just spend, like, an amazing--am I out of 
order?
    [Laughter.]
    Senator Roberts. I think----
    Senator Franken. You just want to go endlessly with these--
--
    Senator Roberts. I think with the Greenbrier, you are. I 
don't know about the rest of it.
    [Laughter.]
    Over here. You knew where that was coming from.
    Senator Franken. Yes. You again.
    [Laughter.]
    The Chairman. Sounds like an interesting week, I'll tell 
you that. No, that'd be good.
    Let's see, Senator Hagan was next.
    Senator Burr.
    Senator Burr. I have a slightly different takeaway than my 
good friend from Minnesota. I don't think there is a silver 
bullet. I think what I've heard is success stories, and the 
tool was very different, from individual to individual. The 
common thread was, you bought in to the belief that this was 
the answer to education. More importantly, you forced the 
staffs to buy in to that belief. Amazingly, this is not about, 
in my estimation, replication; it's about a commitment, by 
educators and principals and policymakers, that anything less 
than some number is unacceptable. And I will tell you, that 
number is not 70 percent or 72 percent of graduation on time.
    Mr. Johnson, you talked about technology a little bit, you 
talked about the change in students that we've seen go on. Does 
it trouble you that, with today's high school students who 
communicate totally different than I did, when I was their age, 
when they pick up a cell phone, they have no intentions of 
making a call, they're going to send a text or take a picture, 
yet--I do it the old-fashioned way, I want to talk to 
somebody--does it bother you that we still use textbooks?
    Mr. Johnson. At the risk of walking into a conversation 
about the textbook industry----
    [Laughter.]
    Mr. Johnson [continuing]. I'll say that the generation is 
different, and they communicate----
    Senator Burr. But, why not breach it? What is so magical 
about a textbook? Why, in a generation that thinks of knowledge 
as an instantaneous thing, that looks at news as accessing when 
they want to, not waiting until the morning--why are we so tied 
to a textbook?
    Mr. Deshler. I think that's a question that many people are 
asking. And we do want to capitalize on the technologies that 
are available to us. However, to solve problems and to grapple 
with issues and come to a deep understanding of knowledge and 
information, we must have students going beyond sound bites.
    Senator Burr. Well, I'm not talking about sound bites, Mr. 
Deshler, I'm talking about downloading the textbook----
    Mr. Deshler. Well, OK.
    Senator Burr [continuing]. To an electronic tool, where we 
totally eliminate the book bags, we end the security concerns 
we have in high schools. We've proven that when we put a laptop 
in a child's hand, we give them access like they've never seen 
before. The amazing thing is, there's a different buy-in on 
their part. I think this is not just about the buy-in that you 
take in how you do, or the staff takes; this is about the buy-
in from the kids who make up that classroom.
    Let me just ask Mr. Johnson one more thing. You stated that 
your No. 1 goal was to have rigorous accountability toward the 
graduation rate. Can you describe for me what the tools are for 
rigorous accountability?
    Mr. Johnson. Rigorous accountability for graduation rates.
    Senator Burr. Yes.
    Mr. Johnson. I think that, first of all, the elements of 
that include the right, consistent definition across States; 
States setting annual measurable objectives in regard to 
improving graduation rate; and the third element of which 
includes having some flexibility for the use of an extended 
rate for select schools, such as Back on Track schools, tightly 
defined, and early-college high school, that, by definition, 
cannot do a 4-year graduation rate, because they're a 5-year 
design.
    Senator Burr. Sure.
    Mr. Johnson. On your technology question, I think that it's 
an important role for the Federal Government to play, in regard 
to inventing platforms that may tip the scale on this regard--I 
think it's part of the solution set--and then scaling them up 
appropriately.
    Senator Burr. Mr. Capozzi, I heard your testimony. I 
understood everything you said. I didn't hear about pre-high-
school deficiencies in education, I didn't hear about the lack 
of parental involvement. So, who, in your school, IDs those at-
risk students?
    Mr. Capozzi. At Elmont Memorial High School, it's not a K 
through 12 district. We have an elementary school district, the 
Elmont Union-Free school district, then we have the Sewanhaka 
Central high school district. Our pupil-personnel department 
does an excellent job. They articulate with the elementary 
schools, early.
    Senator Burr. So, it's necessarily tied to: This person 
didn't have the same skills coming in, in ninth grade; this 
child doesn't have a parent that's involved.
    Mr. Capozzi. No.
    Senator Burr. This is an assessment of the individual 
student.
    Mr. Capozzi. We have a saying ``We get what we get, and we 
have to do it.'' You're looking at every child. When I talked a 
little bit about differentiating to meet the needs of all 
learners, we don't just walk the walk or talk the talk, we do 
it. It's about meeting every student's needs, whether it's in 
the classroom or outside the classroom.
    Senator Burr. My time's expired, but I'm going to ask two 
questions that can have short answers.
    What's the student-teacher ratio in your high school? And 
how long did the turnaround take?
    Mr. Capozzi. OK, average class size, I'll say, is about 
23--we're 7 through 12, so in about 7th and 8th grade, a little 
bit higher; about 27, 28, in the high school, 9 through 12.
    Turnaround, I will tell you that--I took over, 5 years ago. 
I've worked at Elmont for 18 years. There was a time, where--
the first year and the second year, I wanted to walk away. It 
was not easy. And my wife wanted to walk away from me.
    [Laughter.]
    Voice: Mine wants to do that, too.
    Mr. Capozzi. But, it took awhile. It took 3, 4 years to get 
that culture re-established, I'll say.
    Senator Burr. I thank you.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Burr.
    Senator Bingaman.

                            Senator Bingaman

    Senator Bingaman. Thank you very much.
    Thank you all for being here.
    Let me pickup on your comment, Mr. Deshler. You urge the 
committee and the Senate to go ahead and pass several bills, 
including the Graduation Promise Act, which I appreciate very 
much. That's a bill we've worked on for several years. One of 
the strengths of that bill is that it has a very specific 
target. The target is the 2,000 so-called ``dropout factories'' 
that were identified by the study that Johns Hopkins did. And 
I'm concerned, frankly, that if we don't have a real, specific 
target, we will wind up doing this reauthorization, and not get 
the funds sufficiently concentrated where those so-called 
``dropout factories'' are.
    In my State, the figures I've got are that there are 41 
such dropout-factory high schools--that is, schools that have 
60 percent, or fewer, of their students graduating.
    When we get into the tiering business that the 
administration has used for the Recovery Act funds, about 11 of 
the 41 would actually get some funding, under that criteria.
    So, anyway, I would be interested in your view on that, Mr. 
Deshler. Is it important that we try to concentrate on that 
group of schools, or is there a different way that makes more 
sense?
    Mr. Deshler. If we concentrate, I would say--we need to 
keep at least two factors in mind.
    No. 1, there's a direct and unmistakable linkage between 
literacy proficiency and the success of turning schools around. 
We often try to dodge that bullet, in one way or another, and 
there's no dodging it. Well, there's a lot of things we need to 
learn about how to better deal with the literacy issue--there's 
a lot of things we know and enough to act on. That's point No. 
1.
    Point No. 2, while the schools you refer to clearly qualify 
for, and can benefit from, additional resources, one of the 
concerns that I have--as our center has worked in a lot of 
underperforming schools--is that money alone won't solve it. 
That is, oftentimes, when schools are low-performing in the 
classroom, they are also, infrastructure-wise, low-performing, 
and they lack the capacity, often, to wisely use the funds that 
come to them. So, I think very serious consideration should be 
given, as funding is allocated in any way. What is the 
qualifications and the capacity to use those funds wisely and 
as they are intended?
    I would offer those two things for serious consideration.
    Senator Bingaman. Mr. Habit, you talked a lot about change 
management. Could you comment on anything Mr. Deshler said, and 
elaborate as to, How do you help a school to institutionalize 
change management?
    Mr. Habit. Well, I think he answered very thoughtfully 
around the issue of literacy and the foundational aspect of 
literacy. If I could address my comments to that, we see that 
it's critical that reading and writing and thinking take place 
in every classroom, every day, at the secondary level. So, the 
need to make literacy an essential part of that culture becomes 
paramount as we set a standard for every child graduating 
college-ready.
    Teachers, quite frankly, at the secondary level--the 
historical pattern is that the English teacher is left down the 
hall, dealing with literacy issues, and we found that very few 
teachers are actually prepared for their role in helping 
students to read, write, and think. We know we've achieved 
success when we walk into a math class and a student will say, 
``I read and write as much in this classroom as I do in my 
English classroom.''
    Senator Bingaman. All right. I'll stop with that, Mr. 
Chairman.
    The Chairman. Senator Roberts.

                            Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman.
    Let me say, to the good doctor from the University of 
Kansas, that I apologize for not being here to introduce you 
properly. I think, in part, that was because the Chairman is 
from Iowa, and he's still pretty proud of that northern Iowa 
guy that put up the three--I'm sorry to even bring it up--as 
you know, I went to Kansas State, and we grieved with you about 
that.
    [Laughter.]
    He was supposed to dribble the ball, you know, and he put 
up a three, and made it. So, I think the Chairman was just--
anyway, I'm sorry I couldn't introduce you in the proper way. 
So, we'll both try next year.
    Thank you for your testimony. Thank you for your 
comprehensive statement. It is comprehensive. I hope every 
member reads it. Your six recommendations, your endorsement of 
the Murray, Reed, and Benjamin legislation, especially the 
paragraph on the Fusion program that worked so well in Iowa, in 
Dubuque. Thank you for your--I truly appreciate your warning to 
the committee that it's not too late for the middle school 
child, that we really concentrate on birth to 6, but 7 to 12, 
we just don't do as much as we could possibly do. I am guilty 
of that prejudice, that if they're going to keep up, it demands 
change, and certainly a whole bunch of skills.
    I read a lot to kids under the Reading is Fundamental 
program. A Coffeyville teacher started that, some years ago, 
way back, and then it came back again. Two hundred and sixty-
one different schools participate in that. We had about 300,000 
in Federal funding. And I concentrate on the second- and third-
graders, mainly because the fourth-graders get a little smarter 
than I am, and a little snippy, so I stick with the second- and 
third-graders. And that is entirely what you're talking about, 
that you ought to go to the middle-school folks, if you 
possibly can.
    In Kansas, we think we have several programs. We're not 
really on top of it, to the degree that other Senators have 
referred that we need to be, especially my good friend over 
here, Senator Franken.
    Senator Murkowski touched on the problem of rural 
education. I'm going to mention the name of the school where I 
talked to the second- and third-graders, and then the principal 
asked if I had time for a special program for middle-income 
kids, and I said, ``Sure.'' I wasn't going to say ``no.'' I 
went in, and the whole thing was different. The whole attitude 
was different. We had some kids there--well, a great majority 
of kids, who, (a) didn't want to be there, (b) were bored to 
death, (c) there was actual fear about going on to the next 
grade, for fear they couldn't compete, and the peer pressure 
involved.
    I started to read a book that was ridiculous, then I said, 
``Why don't you read to me?'' That also proved to be not worth 
much. So, I said, ``Why don't we just have a discussion about 
what language you speak at home, and what do you want to be? If 
you could be anybody that you wanted to be''--and obviously you 
got the sports hero, then you got the movie star, and you got 
this, that, or the other thing. And I said, ``I'll tell you 
what. If you're a movie star, you've got to read the script. If 
you're the star quarterback, you've got to know the play, you 
have to know the offense.'' Then I got to thinking about it, 
and I wondered--I asked the teacher, and they said, ``Well, 
we're doing the best with these kids, but, you know, there are 
just some of them that are not grasping what we need to have 
them do to really compete.'' Then, on page 9, you really refer 
to it, where people are ending up in jail, divorcing, not being 
a contributing member of the community. That's largely the base 
of a problem that we have in this country today that we're 
using other methods to try to solve, and we're not solving it 
the right way, or we could do it a lot better.
    Where do we find the teachers to do this? I mean, we don't 
have teachers to teach, period, out in the rural areas of 
Kansas. You know that. I just don't know--it would seem to me 
you're going to have to educate the teachers before you educate 
the middle-school kids to really get the total-school 
involvement, so these kids do not have the sense of fear and 
simply want to drop out and get a job at the local packing 
plant, girlfriend drops out, boom, they have a youngster, and 
the whole cycle starts over again.
    Mr. Deshler. One of the challenges we've got in all of 
education is getting into our teacher-preparation programs the 
best of what we know how to teach students. I think there's 
much more of what we know than actually what we do. If we can 
bring all of our teacher-preparation programs up to the highest 
standard--and there's many who are doing some great work, but 
in many instances, we do not arm teachers with the competencies 
that they need to, first and foremost, engage students, to make 
schooling and learning exciting.
    Senator Roberts. Right.
    Mr. Deshler. Where they want to be there, they feel valued 
and----
    Senator Roberts. Right.
    Mr. Deshler [continuing]. Counted. Second, to have the 
proficiency, as a teacher, to teach students the critical 
skills that they need, to read, to think, to express 
themselves, to write. When you have students doing those 
things, they get excited about performing and doing, and 
engaged in the learning process. Teachers get excited. The kind 
of culture in schools that we've heard about this afternoon 
starts to emerge, and then students really start to achieve in 
extraordinary ways.
    Senator Roberts. Well, I thank you for commitment.
    I thank all of the witnesses. I know it takes a lot of time 
to come up here and give testimony.
    I thank the Chairman for holding this hearing, which I 
think is exceedingly important.
    Many thanks. And I will be paying you a visit.
    Mr. Deshler. Thank you.
    The Chairman. Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. I really do 
appreciate this hearing.
    In your opening testimony, Dr. Habit, you mentioned a 
``cancer in education,'' and you said that, ``Simply put, low 
expectations are a cancer that can weaken a school enough to 
make significant changes in teaching impossible.''
    When we're looking at the early learning and the dual-
enrollment, the middle-colleges, can you give me a further 
explanation on how these programs can impact and make 
significant changes in this cancer?
    Mr. Habit. I think a theme of this afternoon's conversation 
has really been about that, and the crisis of low expectations. 
And if you are a teacher who has never seen or been in a 
classroom where all students are fully engaged, and all 
students are working at high levels academically, why would you 
believe it could be done? Why would you believe that could 
happen? So, we spend a great deal of time working with our 
faculties around this notion of expectations, and exposing them 
to classrooms that get those results, and then, over time, 
equipping them with the tools and skills and beliefs so that 
they can deliver on that promise.
    If I could add, I think in the conversation, earlier, about 
the colleges and schools of education, there are many exciting 
programs happening there, but this we see as sort of ground 
zero. There needs to be a great deal more work done, exposing 
pre-service teachers and principals to classrooms that succeed 
with all, and not some.
    Senator Hagan. In your opening comments, you talked about 
the difference in the achievement gaps--how do the new 
innovative high schools make achievements in that area?
    Mr. Habit. I think that, with the early-college high 
schools in particular, it's often described as the ``power of 
place.'' Removing young people from a conventional high school, 
where their peers and/or their teachers may be pulling them 
down and pulling them away from the academic mission. By moving 
them on to the campus of a college or university, you are 
really, then, constituting a culture about high expectations. 
They begin to see themselves as high-school completers, and 
then begin to see themselves as college-completers. But, it's 
as much about putting that team of teachers within that 
environment so they can incubate a culture that is highly 
results-driven. Not to be too critical of conventional high 
schools, but unfortunately conventional high schools often are 
driven by things like the number of seats in the cafeteria and 
the schedule that that allows that school to have. Early-
college is driven by a very, very crisp academic mission.
    Senator Hagan. Do you see any problems with parents 
accepting a change like this?
    Mr. Habit. It's very difficult. We work in more than half 
of our State's school districts in partnership, and in some of 
them, parents do not believe that all students need Algebra 2, 
for example, do not believe that all students can master 
Algebra 2. So, the role of growing the beliefs of parents, as 
well as classroom teachers, can't be overlooked.
    Senator Hagan. Senator Roberts talked about this, Mr. 
Deshler, and I was very surprised to hear your comments about 
the fact that only 20 percent of funding is going to grades 7 
through 12. I was very surprised to hear that. What sort of 
recommendations would you make to change that?
    Mr. Deshler. Well, I think the first recommendation would 
be that we need to understand that students at that age, if 
they're having difficulty, can indeed learn, as I mentioned 
before. It is not too late. We should not treat them as 
``throwaway kids.'' Many of our policies up to this point, I 
think, in reality, have done that.
    Senator Hagan. Is that low expectations of the teachers?
    Mr. Deshler. Yes, it's low expectations, oftentimes, for 
teachers.
    Second, we often fail to give teachers the kinds of skills 
and competencies that they need to really get some traction 
with students so they can get them onto that path of being 
successful.
    Then, third, we need to make some tough policy calls, in 
terms of--there are needs for students, for half of their 
school year--the school career, 6 through 12 that we really 
need to start tending to, because the demands that they are 
facing literacy-wise, emotionally, and the social pressures, 
are so significant and so different than when we went to 
school. We need to arm schools and arm teachers with the kinds 
of skills and supports that they can really make some headway 
to give students the kinds of skills and competencies they 
need.
    Senator Hagan. With 70 early-college high schools in North 
Carolina, I'm proud to be a cosponsor of the Fast Track to 
College Act, which is legislation introduced by Senator Kohl. 
This legislation authorizes a competitive grant program to 
provide schools serving low-income students with funding to 
establish and support these early-college high schools.
    Mr. Johnson, I know that your organization worked closely 
with Senator Kohl in developing this legislation, and I know 
that you recognize that, without innovation and intervention, 
we will not be able to meet the workforce needs of our country.
    As I commented, finding ways to replicate the effectiveness 
of early-college programs on a national level should be a top 
priority in the reauthorization effort we're undergoing right 
now. What sort of supports and resources do States need in 
order to implement early-college programs? Does every State 
need a not-for-profit organization like the one that North 
Carolina has in the New Schools Project to partner with these 
States?
    Mr. Johnson. Another State that has another, kind of, State 
intermediary is the State of Texas, leading the way in scaling 
early-college high schools. The State of Texas is also looking 
at Back on Track models, particularly models for those who are 
old and far, that may even need a GED-type option that's 
connected to a post-secondary opportunity----
    Senator Hagan. ``Old and far'' means what?
    Mr. Johnson. ``Old and far,'' 16, but many credit hours 
from obtaining a high school diploma. There's a way of thinking 
about the population--about off-track students, and one of the 
subgroups are the ``old and far,'' and you have to look at the 
different models.
    So, back to your question around the State role--that in 
this budget-type situation, it's a very difficult time to think 
about a State-run intermediary serving this role. So, we have 
to look at the Federal Government's role in supporting the 
State and building out such partnerships, because whether or 
not the State has the capacity, internally, to actually do the 
scaling work itself is questionable in most cases, and we've 
shown in North Carolina and Texas that the power of a New 
Schools Project or the Texas High School Project of providing 
political cover, of ensuring integrity of running the design, 
having professional development--Tony talked about the 
structural coaching component of it. Those are key technical 
assistant elements that need to be put in place. Conceivably, 
they could be shown to be effective in a department of 
education, for instance, but our experience has been that some 
type of relationship with an outside intermediary actually 
results in a better scale of these models.
    Senator Hagan. Thank you.
    You know, Mr. Chairman, I was co-chairman of the Budget 
Committee in the North Carolina State Senate, when the early-
colleges legislation came forward, and we did line items for 
coaching, for mentoring, and the fact that these young people 
can go to high school and, when they graduate go to a community 
college campus or a university, and have 2 years of college 
credits, is extraordinary. The fact that parents are not paying 
money out-of-pocket for this, it's a big impetus on a lot of 
students, and especially those that have already dropped out or 
are thinking about dropping out.
    Thank you.
    The Chairman. Senator Sanders.

                            Senator Sanders

    Senator Sanders. Thank you, Mr. Chairman.
    Thank you all for being here, and thank you for the work 
that you're doing.
    What I want to do is just throw out a couple thoughts, and 
anyone who feels like it, please comment on it. You guys are on 
the front lines of the educational struggle facing our country. 
We heard, a couple of months ago, testimony from a fellow who 
studies worldwide standards and raised a lot of concerns about 
how our kids are not really competing against young people from 
around the world. I want you to think about that and tell me 
what your understanding is about that.
    Second of all, in terms of our national priorities, we have 
the highest rate of childhood poverty of any major country on 
Earth, far higher than most of the European countries; and we 
end up with more people in jail than any other country. What do 
you think about that?
    I think it was Mr. Capozzi who used the term ``culture of 
high standards.'' Do you think, as a nation--and we know that, 
when the NCAA Final Four--you can't turn on TV without 
everybody talking about which, team's going to win--do you 
think, as a nation, we really take intellectual development 
seriously? Is it something that, as a nation, we really believe 
in, or are we kidding ourselves? Are you having to, kind of, 
fight against the trend? Are these kids saying, ``Hey, I want 
to be a great basketball player,'' ``I want be a great 
football''--``I want to be rich.'' ``I love these guys on Wall 
Street who made a billion dollars last year, sleazy though they 
may be. I can make quick money. Why do you want me to be a 
scientist? Why do you want me to be an engineer? Why do you 
want me to be an English professor? Who do you guys--are you 
kidding? I want to make money quick.''
    I also want you to think about, and talk to us about, the 
childcare situation, something which I worry about a whole lot. 
I know, in Vermont, it is very hard to come up with quality, 
affordable childcare. Many of the kids who are coming into 
school are already--especially from low-income families--
already pretty far behind, in a gap, perhaps, that they'll 
never overcome because their parents, mom and dad, are both 
working, or mom is working, and the kind of childcare and early 
childhood education they're getting is inadequate.
    So, those are some of my thoughts, and I'd appreciate 
anybody responding to them.
    Mr. Capozzi.
    Mr. Capozzi. As far as kids growing up and swimming against 
the tide, are we banging our heads against the wall? Growing 
up, I don't think, really, is any different than me wanting to 
be Mickey Mantle. I did want to be a pro baseball player, just 
like, today, kids want to be LeBron James. We had kids from 
Elmont Memorial High School who are also Intel's semifinalists. 
One went on to Harvard University last year. I think--our 
challenges are different, but I just think we need to focus on, 
How do we face the challenges?
    The challenges for kids are different. We're the adults, 
and I think we have to help them find out how to deal with the 
challenges. I don't think college--college is an expectation. 
If you walked into Elmont Memorial, every one of my students 
feel as though they're going to go to college. Yes, they do 
want to be a professional basketball player, but I think 
reality----
    Senator Sanders. Well, my point was--I understand that.
    Mr. Capozzi. OK.
    Senator Sanders. I agree with that. But, my point is, as a 
nation, Do we appreciate, and are we inculcating our young kids 
with, the understanding that intellectual development is a good 
idea, in addition to being a great basketball player?
    Yes, ma'am.
    Ms. Webber-N'Dour. I don't think we are. In addition to 
that, I think there's a culture of students feeling that it's 
not cool to be intellectual. So, to create a culture of high 
intellectual capacity within a school is fighting against the 
tide, because you're fighting a subculture, and then you're 
fighting the majority culture, which is seen on television.
    Senator Sanders. How do we turn--I agree with you. Then 
some people say that's more in the minority community. I'm not 
sure that that's the case. I think it's----
    Ms. Webber-N'Dour. I'm not, either.
    Senator Sanders [continuing]. It's pretty prevalent. How do 
we turn that around to say that, ``If some kid wants to study 
hard and become an engineer, you know what, that's pretty 
cool?''
    Ms. Webber-N'Dour. I think one of the ways we do it is by 
the early-college movement that we're speaking of now. Instead 
of pulling from the bottom and trying to bring it up to the 
top, try pulling from the top, because everyone really can do 
better.
    The other thing I wanted to say, about childcare----
    Senator Sanders. Yes.
    Ms. Webber-N'Dour [continuing]. It's not just the children, 
the young infants that are at stake, but in high school, for 
example, I see so many students whose work suffers because they 
are the childcare givers. They're the ones who run home to pick 
up brothers, sisters, and the like. I don't think that any of 
us fully appreciate the far reaches of poverty on children.
    Senator Sanders. Are many of the kids--you've raised a very 
interesting question. I was amazed that, in high schools in 
Vermont, you ask the kids, ``How many of you kids are working 
after school in McDonalds?'' A huge numbers of kids are 
working. Do you run into that, as well?
    Ms. Webber-N'Dour. Absolutely.
    Senator Sanders. OK.
    Ms. Webber-N'Dour. Absolutely. Especially since we're a 
career academy, so we highlight work ethics. Fortunately, many 
of them have other opportunities, because we provide other 
opportunities for careers. But, kids are working because they 
have to.
    The other thing I just wanted to mention briefly is that 
kids eat lunch at school because sometimes that's the only meal 
that they're getting that's a decent meal. If you're lucky, 
it's a decent meal.
    Senator Sanders. OK. Other thoughts?
    Mr. Harrison.
    Mr. Harrison. Yes, I want to go back to--really, the 
national ethos around teachers. There has to be some language 
that really ensures that, every school building, teachers are 
wearing that character and modeling the values that we need to 
shift in our country. It's a battle, when homework is up 
against TV. But, again, every teacher has to wear those 
expectations and communicate to students that success is really 
important, that we value learning, we value higher education, 
we value making mistakes in learning. I think that if every 
teacher in every classroom, every school leader, can 
communicate that, over and over again, and really wear those 
values, and really understand that school has to be more 
exciting if we're going to compete with TV or the----
    Senator Sanders. I agree with that, but in your heart of 
hearts, as a culture and as a nation, do we really say, ``You 
know, teachers are doing some of the most important work 
imaginable?''
    Yes, Mr. Deshler.
    Mr. Deshler. I think you're asking a highly significant 
question. We don't properly showcase the importance of 
intellectual growth and achievement and hard work. You made 
reference to the difficulties within families--mom and dad 
working, and so forth. But, we need to give thought to, How can 
we reestablish and strengthen families to provide the kind of 
support, and have those conversations with their children, and 
to provide the emotional fabric to give them encouragement?
    When we look back at the early years of our country, there 
was an awful lot of poverty that characterized our way of life 
then, but there's something about the family being together as 
a strong unit. I think we need to try to learn some lessons 
from what happened there. That won't solve it all, but I think 
often we ignore the powerful role that a strong family can play 
in inculcating those kind of values.
    Senator Sanders. Chairman, thank you very much. My time is 
long expired.
    The Chairman. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    Mr. Harrison, I wanted to ask you a question, based on 
something you had said, because you observed that you have a 
lottery for kids that come to DSST that now come into the sixth 
grade and the middle school. I think one of the things that 
really ails us, as policymakers, at every level of this 
equation, is that, too often, we don't look at this from the 
child's point of view, from their prospective. I wonder if you 
could describe for the committee what it looks like to come to 
DSST as a young person who's behind in reading and math and 
other subjects, and what it looks like for a young person that 
comes in at grade level. Does it look the same?
    Mr. Harrison. Yes, I think that's a great question. I 
always tell people that the hardest part of my job is saying, 
``no'' to the number of families that are on the wait list in 
the city of Denver who want to attend Denver School of Science 
and Technology. It really comes from both groups of students--
students who want the opportunity to be in a school where 
they're going to be caught up and be on the track to college, 
and for those students who are on grade level, who want to be 
part of a successful program.
    At the end of the day, the students still wear the same 
uniform. The students still receive praise. We value growth. We 
value growth more than achievement, so we want to praise those 
students who are making gains. That may be a student in the 
sixth grade, on a second- or third-grade reading level--who's 
made significant increases in 1 year. They may have to be 
retained and do the sixth grade again, but they're proud of 
being part of our school.
    I think there's a way that we manage the culture around 
really keeping those kids together. And I think that the 
students who are on grade level understand that and support 
that, as well.
    Senator Bennet. I asked the question poorly, that was a 
great answer, but it wasn't the answer to my question, which 
is, If I'm a child that comes in, and I'm reading at a second- 
and third-grade level when I get to the sixth grade at DSST, 
what does my day look like? What does my year look like at 
DSST? How are you going to get me from where I am to where I 
need to be?
    Mr. Harrison. I think that's the flexibility that I have, 
as a charter school principal, around making sure that there's 
a lot of time and investment around catching those students up. 
A student who's been behind a grade level in reading--all 
students take a 2-hour English block, the literacy block, but 
those students who are behind take an additional hour. We have 
some students who take 3 hours of English instruction every 
day. But, that's what it's going to take for them, to get them 
on grade level.
    The same thing with math. We have students who take 2\1/2\ 
hours of math a day. And, you know what, if we need all 
students at pre-calculus or calculus by the time they're 
seniors, that's what it's going to take for all sixth-graders 
who are behind, really getting those intervention supports. 
That's coupled with--you know, there's a programmatic aspect, 
and then there's the aspect of building relationships, to 
really getting the kid to understand that they need to roll up 
their sleeves and get a lot of positive work done.
    Senator Bennet. Thank you.
    Mr. Habit, I had a question for you. You mentioned that the 
early-college programs in North Carolina are generally situated 
on college campuses, and that the kids that go are able to get 
the college credit without cost to them, I think you said, or 
to their families. Can you explain to me how that funding works 
in North Carolina, the higher-ed pool versus the K-12 pool? How 
did you sort that out? That's been a challenge in my State.
    Mr. Habit. I think that's a challenge for every State. It 
leads to lots of debate about the funding streams, and so 
forth. In our State, we've had a working team of our education 
cabinet, over the last few years, to continue to sort through, 
decision by decision, how to get the best out of the resources 
that are available. So, a student moving on to a community 
college campus, for example, the community college would be 
reimbursed for the FTE for the course that student is enrolled 
in when they're in a college course, versus when they're on 
that campus, enrolled in a high school course being taught by 
one of their high school teachers.
    Senator Bennet. So, in other words, you've applied common 
sense to this question.
    [Laughter.]
    Mr. Habit. Yes. But, actually, the point that often gets 
overlooked is the cost of textbooks, because--if you're 
involved in post-secondary education, you know that's a big 
issue. Our State has been very committed, thus far, to paying 
for the textbooks for those students enrolled in those college 
courses.
    Senator Bennet. Thank you Mr. Chairman.
    The Chairman. Senator Merkley.

                            Senator Merkley

    Senator Merkley. Thank you very much, Mr. Chair.
    I want to thank you all for your work on the front line of 
education.
    I was out, this weekend, visiting with a superintendent in 
rural Oregon, and she made a couple of points I found fairly 
interesting. I wanted to share those and get your reactions to 
them.
    The first issue is that more diverse schools are much more 
likely to be labeled as failing, in the sense of not meeting 
annual yearly progress. The superintendent showed me a 
comparison between one of her schools and another school. She 
had, I think, seven breakouts, if you will. This other school 
had a single population and no breakouts. Her students, in the 
same area as the other school, were doing better than the other 
school, but she had six other areas where she could end up 
being marked as failing to meet annual yearly progress. So, she 
had a far more difficult challenge of meeting AYP in all the 
subgroups, and yet, much more likely to be labeled as failing, 
even though she was doing better than this school that wasn't 
labeled as failing. And she said, ``You know, it's a problem, 
because it basically creates a greater challenge for diverse 
schools, and it's not a fair measure,'' because most of her 
subgroups were doing far better than this other school, that 
wasn't labeled as failing.
    Second, the superintendent also said poor schools are much 
more likely to be publicized as failing schools. The reason why 
is because when you fail to meet AYP for a couple of years, and 
either the choice provision is triggered or the supplemental 
education services is triggered, then you have a big public 
interaction about these features that really brings it up again 
and again. Whereas a more affluent school, that isn't a title I 
school, could be doing a worse job, but, they send out one card 
in the mail, and people kind of forget about it. The poor 
schools are more likely to become framed as a public failure, 
even if they're doing better than a more affluent school and 
cause a loss of morale or a flight from that school and other 
bad effects.
    The third thing the Superintendent pointed out is that, 
when you turn to triggering the supplemental education 
services, 20 percent of the title I funds go to tutoring. She 
showed me this card, that I have right here, as an example of 
the types of mailings that her students get. It's designed to 
look like a little laptop computer, and it says, ``Hey, sign up 
for this and you'll get a free computer.'' She said other 
private tutoring firms were giving away free iPods to get the 
students to mail in the cards. It costs her $60 an hour for 
these private tutors, who are not even required to be college 
graduates or basically be capable in any certified way. 
Meanwhile, her teachers cost $20 an hour to do the tutoring. 
So, it costs three times as much. Plus, by doing small groups, 
they can get a lot more mileage out of that single teacher at 
$20 an hour. The result is that it is 10 times more expensive 
to do this private tutoring, that kids are being talked into 
doing, by being given free gifts when they mail in this coupon. 
Well, this is a problem, for a school with limited resources, 
because they're getting far less effect on the education of the 
children.
    The Superintendent pointed out these three things, and I 
just wanted to see if you all had any comments on them.
    Mr. Johnson. I'll take the supplemental educational 
services one; same as the last one, I'll take the last one. In 
the context of this hearing around secondary schools, first of 
all, supplementary educational services have not been shown to 
be very effective, across the board. But, as tailored, and as 
specific to secondary schools, it's not well designed for some 
of the unique challenges of high schools. So, in the 
reauthorization, I think it's important to look at, whether it 
be a high school improvement system or such, that we actually 
tailor the solutions and the interventions that actually work 
in high school. Credit recovery, intention to structural 
services, supports and such, and supplemental educational 
services is not a good proxy for that. So, this would be my 
firm statement on that.
    Senator Merkley. Thank you.
    Mr. Capozzi. As far as making AYP and subgroups, my school, 
close to 2,000 students, we had 60 students in special 
education in grades 7 and 8. We didn't make our AYP in that 
subgroup in 2 years, prior to when I was the principal, when I 
took over. If we did not make our AYP in one of those subgroups 
again, in math and English, there would have been school 
choice. So, 60 students were really--we were being held hostage 
from 60 students in two subgroups. We were publicized that we 
were going to be put on the list if it wasn't corrected.
    New York State had a--I believe it was a 31-point--there 
was a safe harbor after that, and then a 31-point addition to 
your safe harbor. And, with that, we did make it. I believe 
that's no longer there anymore.
    To hold an entire school hostage, from 60 students in two 
grades--it's such a small percentage--so, it really does affect 
the school, and it affects the community, as well.
    Senator Merkley. Are you saying that--I missed the point 
you made about a safe harbor that is no longer there. Could you 
explain?
    Mr. Capozzi. Yes. There is a safe harbor. If you don't make 
your AYP, you're given a safe harbor. It's a number to--that's 
your number that you have to make.
    In addition, if you're short of your safe harbor and you 
have a participation rate of--I believe it's above 90 percent-
95 percent--you are given an extra 31 points, I believe; and 
that takes you to your safe harbor. Hopefully. It was a safety 
net that was taken away. So, I know this year is the first year 
that it will not be given to subgroups to make their safe 
harbor, or AYP.
    Senator Merkley. Any other comments? Any comments about the 
practice of using laptops.
    Yes.
    Mr. Habit. I thought there was a great deal of validity to 
the observation you just shared about the cost and how 
efficiently to go about that. There really is no way to get 
around the fact that a highly effective and focused teacher 
working with the student over the long haul is the best 
solution. I'm reminded, a few days ago, of talking to a teacher 
in one of our schools--who knows a student so well, knows that 
student's family so well, that she recognized that what her 
student needed was Saturday work and after-school work around 
Algebra 1, and she knows the diagnostics around that student, 
and doesn't have to relearn his needs and styles, and that is, 
in my perspective, in our perspective, the most efficient way 
to go about accelerating a young person.
    Mr. Deshler. Yes.
    Senator Merkley. Yes.
    Mr. Deshler. I have no problem with them making laptops, 
iPods, available, and teaching kids how to use them in the 
correct way, as Senator Burr mentioned early. What does concern 
me is your other observation, that the tutors that these 
students are working with don't have the kind of proper 
training to make them effective tutors. That's the big concern.
    Senator Merkley. I am over my time, and I thank you all 
very much.
    The Chairman. Thank you.
    Senator Reed.

                              Senator Reed

    Senator Reed. Well, thank you very much, Mr. Chairman. 
Thank you for holding, again, a very impressive hearing. Thank 
you, to all the witnesses, for excellent testimony, but, also, 
when you leave here and you go back to the schools and back to 
the universities you continue to work hard, and I appreciate 
that very much.
    The focus is secondary schools. I want to thank Dr. Deshler 
for mentioning Success in the Middle. Because before secondary 
school, there's the middle school. One of the issues that comes 
up perennially with respect to secondary schools, is the 
dropout rate. You know, that's kind of, the shorthand for how 
you're doing. But, a lot of what you have done--and I know Mr. 
Johnson, particularly--has been with respect to those 
indications in the middle schools, of potential dropouts, in 
terms of looking at the early warning signals. Sometimes I get 
the sense that we're focusing a lot on the last few years--
efforts that are probably not as efficient as, focusing on the 
first few years--in the middle schools. I wonder, Mr. Johnson 
and Dr. Deshler, if you wanted to comment, and anyone else on 
this sort of issue of early warnings, middle schools, and 
preventing dropouts.
    Mr. Johnson. Well, the research is pretty significant and 
instructive, that we can tell, as early as sixth grade, with 
high predictability, who's going to drop out. I think that 
whatever solution the committee comes up with, they need to 
take in consideration the success and what it does about 
intensive interventions as early as sixth grade to get those 
young people back on track. It's an important part of the 
solution, it's important--a part--about sustaining the supports 
that we see in making gains in our early years, that we're not 
seeing sustained through middle and high schools. So, I think 
that's right, yes.
    Senator Reed. Dr. Deshler.
    Mr. Deshler. The power of highly effective educational 
experience on the academic side and the social side during the 
middle school is so pivotal. When students--as well as--
deliberately planning that transition into the high school, and 
that we don't just take that for granted and leave it up for 
luck, that it will happen correctly. There's some very exciting 
and encouraging work that is being done on, ``How do you put in 
place effective transitions from middle school to high 
school?'' But, a part of that is really having students geared 
up with the proper skill sets so that when they go to high 
school, then they can benefit from a challenging curriculum 
when they get there.
    Senator Reed. Mr. Capozzi and Mr. Harrison and Ms. Webber-
N'Dour, you are on the front lines. I don't know, maybe--I 
feel, some way, that high school principals shoulder the 
responsibility for dropouts. But, by the time the youngster 
gets there, as Mr. Johnson suggests, the indicators were 
already there, and the effective interventions are delayed by 
years. So, I'm just wondering what reaction you have, Mr. 
Capozzi, Mr. Harrison, and Ms. Webber-N'Dour.
    Mr. Capozzi. What we put in place--what we look at, No. 1, 
is where students are. In ninth grade, I have spoken about our 
interdisciplinary teaming program, that we will be implementing 
this year. We have safety nets in place. We get kids who aren't 
reading at grade level. We have programs, like READ 180, to 
catch students up. I would love to see it in the lower grades, 
because we're getting them in seventh and eighth grade, and, 
really, we're afforded the opportunity to put programs in, such 
as READ 180. We have language enrichment. We are a title I 
school. Our free and reduced lunch, I believe, is 33 percent. 
So, with that title I money, we do utilize that, to level the 
playing field, with the literacy programs.
    Senator Reed. Thank you.
    Mr. Harrison, please.
    Mr. Harrison. Yes, I wouldn't be surprised if Mr. Capozzi's 
intervention systems--you know, they're the same in the middle 
school, as well. I think that really thinking about making it 
systematic, in terms of what intervention looks like--from 
kindergarten through 12th grade--because, at the end of the 
day, it's the same system that we're going to use and really 
holding school leaders, like ourselves, accountable for making 
sure that the growth happens from the students who come in at 
those levels. That's something that I would feel comfortable, 
as a school leader, to be held accountable to. Because, at the 
end of the day, if those students aren't moving, we're not 
doing our jobs.
    Senator Reed. Ms. Webber-N'Dour.
    Ms. Webber-N'Dour. Something that Dr. Alonso, of Baltimore 
City Public Schools, recently started to do, and started with 
our school, is to annex failing middle schools with successful 
high schools. So, next year, I will take over a failing middle 
school. The thought in mind is to use the successful model we 
have and make a seamless transfer of information, both in terms 
of curriculum and culture, so that both schools are mirroring 
one another.
    The other issue that is of interest to me is to try to 
accelerate the students, that are already doing exceptionally 
well, into the high school forum in the similar way that we're 
doing with early-college.
    So, this is a model. It hasn't been testing out fully, but 
I'm sure it's going to succeed. High school teachers will make 
the decisions as to what the curriculum looks like in middle 
school, because we know best what the high school student 
needs.
    Senator Reed. Mr. Habit, do you have a comment, or----
    Mr. Habit. I just think it's a critical issue. We're 
exploring the ramp-up strategy to incorporate middle grades so 
that they're prepared for the rigors of ninth grade. If that 
goal of that high school is truly college readiness, it's got 
to ramp up in the middle grades.
    Senator Reed. Right. Just an observation, because my time 
is expired, but one of the things that I think we have to deal 
with is that too many principals are not educational leaders, 
because after monitoring buses, collecting the candy money--
well, we don't do that anymore--but all the extracurricular 
activities and I just wonder, am I off, or is that something 
that you sense, too?
    Mr. Capozzi.
    Mr. Capozzi. Absolutely. Running a school is a tremendous 
undertaking. It really is. I often say to myself--every day--
there's one incident that you say, ``They didn't teach me this 
in principal school.'' It is just overwhelming at times, and if 
it wasn't for my assistants--I have quality assistant 
principals, quality chairpeople, and it definitely helps. It is 
overwhelming. I don't want to be a manager, I want to be an 
instructional leader.
    Senator Reed. No, and that's the model, but we organize 
schools so that principals are managers, budgeters, etc. That's 
what they get hired on, and that's what they get fired on, in 
many cases.
    Mr. Capozzi. Absolutely.
    Senator Reed. Like everything I learned in kindergarten, 
everything I learned in the Army. I had 1st Sergeants who did 
all that stuff when I was a company commander, thank God, 
because I wasn't that good of a company commander, but they 
were----
    [Laughter.]
    Senator Reed [continuing]. They did all that, and I was 
expected to be a tactician you know, doing all that stuff.
    But, as I see the principals in my home State--you know, 
they just don't have the time to be the educational leaders 
they want to be.
    Also, to be honest, some are drawn to the job because they 
don't have to do educational leadership; and those are people 
we don't want as principals.
    But, thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hagan.
    Senator Hagan. Thank you, again, Mr. Chairman.
    I really do appreciate all of the testimony we've heard 
today. It's been excellent.
    One comment came up earlier in the hearing, regarding the 
length of the school day and year, when our students are 
looking at competing in a global economy today. I'd love to 
hear your comments on the impact of a longer school day.
    Please.
    Mr. Harrison. Sure. When you're behind in math or reading, 
you have to put in the extra time. We have students come in for 
summer school to get caught up, we have students staying until 
5 o'clock, getting tutoring. We have tutoring provided by our 
teachers. They invest an hour, after school, by department, to 
catch students up. And it does take time. That's a factor that 
should definitely be in the legislation, in terms of really 
making sure that there's certain protocols in place, 
particularly time, to catch students up.
    Senator Hagan. One of the things that I've read is that, by 
the time a student graduates in the United States, they are 
practically a year behind their European counterparts, who have 
had a much longer school year.
    Yes.
    Mr. Deshler. Yes, I would add to what Mr. Harrison said, 
that, yes, if students are behind, we do need more time on 
task, more time in instruction. However, we've completed some 
studies, within our research center, that tells us very clearly 
that we're not currently using, optimally, the time that we do 
have.
    Senator Hagan. So, what do we need to do?
    Mr. Deshler. Well, just adding extra time is not going to 
necessarily solve it. We need to, with that time, be adding 
it--or the time we're using now--is to check, ``How are we 
using it? How much time are students not engaged, or are 
teachers not engaged, in active instruction?'' so that we're 
fully utilizing the available time that we have.
    Senator Hagan. Do you have any examples or recommendations?
    Mr. Deshler. Sure. Well, in a study that we just completed, 
about 24, 25 percent of time during a classroom period, the 
teacher was not involved in active instruction. They were doing 
administrative things, e-mail, and so forth. So, I think some 
of the things, as Mr. Capozzi has said--you know, our primary 
mission is instruction----
    Senator Hagan. Right.
    Mr. Deshler [continuing]. And it's not all of the 
administrative things that are needed to keep the school 
moving. But, it is that culture that says, ``Our job is 
instruction,'' and there are certain things that we do during 
instruction that are paid greater dividends than other things, 
such as teacher modeling, elaborated feedback, scaffolded 
learning, and so forth. Then you really see student gain.
    Ms. Webber-N'Dour. Yes, I just wanted to say that my school 
is a turnaround school. We were in the 30 and 40 percentile 
range when I came in as principal. We're now in the 80s and 
90s. We didn't do that by adding any time to the day; in fact, 
I took away programs that were ineffective--Saturday programs 
that were not working, after-school programs that were not 
working. The emphasis had to be put on a 90-minute block, and 
what are you actually doing with that 90-minute block? How 
qualified is the person in that classroom? So, I don't think 
that more is always more.
    Senator Hagan. Dr. Habit.
    Mr. Habit. Yes, I'd just agree with what's been said. More 
of the same is exactly what's not needed. Some earlier 
questions from the panel had a lot to do with the need to 
engage young people by redefining what it means to be an 
effective teacher, which has a lot to do with inquiry and 
classroom collaboration and real-world connections.
    Senator Hagan. I have one last question. The goal of the 
early-college high schools is to keep the at-risk students in 
school by eliminating the divide between the high school and 
college, and to provide them with the opportunity to excel in a 
different educational setting. Are there specific criteria that 
are used to identify students who could benefit from attending 
an early-college high school? If so, how can we ensure that 
we're targeting the students who will actually benefit the most 
from these programs?
    Mr. Habit. Well, I'll respond----
    Senator Hagan. OK.
    Mr. Habit [continuing]. Quickly, because that's obviously 
an area we're spending a great deal of time on, along with 
Cassius and Jobs for the Future.
    I think that there is a great deal of conversation about 
this. There are discussions every day; but, generally, they 
come down to this: identifying young people, who, with extra 
support and extra time, can achieve at much higher levels, who 
have, maybe, not met with success in conventional schools, and 
who were typically the first in their family to attend and/or 
graduate from college.
    If I could add--earlier, you made, Senator, some 
conversation or, comments about the design of this work. We've 
had a history of very ad hoc approach to reforms and 
innovations. When we look at early-college in North Carolina, 
and our other redesigned schools, we look at some very tight 
core design principals, where it's really not a pick-and-
choose, it's a matter of a whole implementation of the model, a 
true fidelity to the set of design principles that are 
associated with highly successful early-colleges.
    Senator Hagan. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagan.
    Well, I thank all of the panel. This was a very instructive 
session.
    We've spent a lot of time, as you know, on elementary and 
secondary education, but I think we haven't focused enough, in 
the past--I'm hopeful we'll do that this year in the 
reauthorization--on the middle-school area. It seems to me that 
everyone's saying that you can identify these kids, you can 
find out, when they're in sixth or seventh or eighth grade--you 
can begin programs, that will challenge them and get them on a 
graduation-rate basis so that they'll be graduating, and that 
they will be ready for college--not just graduating, but 
they'll be ready for college or a career. It seems to me, you 
all talked about individual--I was just taking notes here--it 
seemed like everyone talked about the importance of 
individualized kind of focusing, not putting everybody in one 
big group. Well, I suppose that's kind of tough, to do that, 
with limited resources. But, you all seem to be doing it. There 
are these schools, like Mr. Capozzi's school and others, if 
you--not ``if,''--since what you've done has been so 
remarkable, how can we take that model and move it around the 
country? I mean, how do we incentivize? You all spoke about 
initiatives, incentives to get schools to do things. So, if 
there are models, like yours, that are out there, have done 
great things, well, what's the problem? Even in your home State 
of New York, what's the problem with taking your model and sort 
of replicating it? Obviously it's working. Well, why--if you 
can't do it on a city or county basis, or State basis, how can 
we do that on a national basis? I'm intrigued by this, why we 
can't take these examples.
    Mr. Capozzi. Senator Harkin, so am I. When you look on Long 
Island, alone, and you look at minority schools, it really is 
horrific. The graduation rate is 60, 70 percent. My students 
get 94-percent Regents diplomas. We're at 50 percent advanced 
Regents diplomas. I wish that I had an answer for you, where, 
``Why aren't more people coming to see us?'' I don't really 
know if I want all these people to come and see us, but it is 
being done, and everybody should know that. And the foundation 
is effective instruction in the classroom.
    Mike Schmoker, in his book, ``Results Now,'' talks about 
the No. 1 factor being the effective teacher, and I think that 
what we need to do is get the word out.
    The Chairman. Do you really do an outreach to parents, 
bringing them in? And how is that done? Teachers only have so 
many hours a day, you know.
    Mr. Capozzi. Well, that's really two issues. No. 1, I would 
love to have more parent involvement. I believe that the 
parents of Elmont Memorial High School--and it's been this way 
my past 18 years, where they really leave them on the doorstep, 
trust us and say, ``You know what, we trust that you're going 
to provide our students with a great education.'' Well, that's 
good; however, I want more parent involvement. That's not good 
enough.
    The other part is keeping the parents engaged. You know, we 
run title I programs, with parents. We're a title I school, so 
we run title I programs. It's not an easy task.
    The Chairman. Mr. Harrison, you wanted to say something 
about this?
    Mr. Harrison. I think Denver, in Colorado, is a really 
unique place. Denver Public Schools is encouraging the top-
performing charter schools to replicate, and supporting them in 
those efforts. Really, that question of scale and replication, 
that's really hard work. But, again, when the district is 
supporting charter schools to replicate to meet the needs of a 
diverse group of students, I think that's really central. I 
think the reason why that's happening is that--when Senator 
Bennet was the superintendent of Denver Public Schools, he 
encouraged principals to go see what's working. So, I've hosted 
a number of district principals, who've come to see how we do 
school culture, how we do math instruction. Yesterday, I even 
spent some time in southeast DC, looking at highly-performing 
charter schools that are doing great things here. Again, that 
learning has to happen, but also there has to be a partnership 
that really allows for highly successful schools to replicate 
and scale, and really providing them with the funding to do so 
and make a larger impact on student achievement.
    The Chairman. Mr. Johnson.
    Mr. Johnson. I would say two things. From the Federal 
perspective, nationally, I think there are two roles.
    First of all is to strengthen the supply of these quality 
options--and they're here, they're out there, they're here at 
this table, they're here beyond this table--and strengthen the 
role--the supply, rather--and recognize there's an important 
role to play for the Federal Government in inventing new models 
and strategies for some of the intractable issues that we still 
haven't had a lot of success with.
    It's like my father used to say, ``Know what you know, and 
know what you don't know.'' What we don't know, we need to get 
to the business of inventing solutions for that.
    The second piece for the Federal, nationally, I think, is 
to use the formal grant-making process as a lever to get States 
and districts to look for strategies and look for these type of 
solutions, and to install them in their communities throughout 
the country. I think we see, through the Race to the Top 
competition, through the School Improvement Grant competition 
they are already funding that States are reacting to this. We 
can have a conversation, another day, about whether this is the 
right set of strategies as such. But, the fact of the matter 
is, we are seeing tremendous activities in the department of 
education, in districts, collaborating in ways we've never seen 
before. I think that it's an important and an instructive set 
of activities as we move forward with this reauthorization.
    The Chairman. Well, hopefully within the next month or so, 
we're going to have States agree to a common core of standards. 
We haven't had that for a long time--well, we've never had 
that. So, maybe you're right, maybe we're getting to a thing 
where more and more States are saying, you know, there's a 
place for innovation and change, there's a lot of different 
models, but there ought to be some core standards that 
everybody adheres to. Hopefully we'll have that soon.
    Yes, Ms. N'Dour.
    Ms. Webber-N'Dour. I just wanted to say that--you asked 
what it is that we need to replicate--it's really the people, 
that we have to replicate. The model, the type, the form, none 
of that matters if you don't have the right person at the helm. 
Then we really are talking about trying to get people to 
understand what it is that Mr. Capozzi does, or what it is that 
Mr. Harrison does, or who he is. What qualities does he bring 
with him? What expectations does he have for his students? How 
does he select teachers? It can't rest with the teachers, 
because there are 40 or 50 of them. It has to rest with the 
principal and their ability to select, their ability to 
understand culture, their children, and so on and so forth. It 
really boils down to the principal.
    The Chairman. Mr. Capozzi.
    Mr. Capozzi. I applaud the national standards. I was 
thinking a lot about it, and if we don't have teachers who can 
teach to the national standards effectively, if they're not 
teaching to our standards now, that will be a problem.
    The Chairman. Well, does that get back to just making sure 
we get the best and brightest into education? I was looking at, 
what was it Finland? Finland, where they go to their secondary 
schools and they find the brightest kids, kids that are really 
doing well, not just academically, but show leadership 
examples, things like that. They groom them to be teachers. 
They provide them with support, they send them to college, they 
pay their way, they make them stars. They become, sort of, the 
creme de la creme. And they become the teachers.
    We don't do that in this country. I said, the other day--
this'll be the last thing. When I was a Congressman, a House 
Member, a Senator--you know who I'd come across as the 
brightest, most goal-oriented, leader, leadership-quality-type 
students in our schools? Who do you think they are? They're the 
kids who apply to go to the military academies. I tell you, I 
see these kids--they're smart--you should see it. I mean, it's 
hard--they're all 4.0 students. But, not only that--it's not 
just that they do well on tests, they have to be involved in 
the YMCA, they have to be on the sports team, maybe even 
acting, maybe the school plays, they're involved in 
extracurricular activities, maybe with their church. They put 
all that together. These kids, I'm telling you, they're really 
good. They're smart, they're leaders, and they're going to the 
Air Force Academy, Naval Academy, West Point, Merchant Marine 
Academy. They know they're going to get a good education. 
They're going to be challenged. They're going to be identified 
as a special kind of a person. But, I went and looked back. Of 
all the kids I've gotten appointed through to the academies in 
all my years here, somewhere around 7 or 8 out of 10 don't stay 
in the military. They're there for their 4 years or 5 years, or 
whatever their obligation is, and then they're out. And they go 
on to become business leaders and community leaders and 
everything else.
    Seems to me we ought to have that kind of a system for 
educators, to try to get into our schools, to have the best and 
the brightest--like have our academies have them apply, and pay 
their way through school, send them to the best schools, give 
them the best support. You know, there's no debt when you come 
out of the Air Force Academy, and you've got a great 
education--or Naval--Air, Navy, Army--they're all great 
education systems. I'm just wondering if we shouldn't be 
thinking about that, to find these kids in high school, groom 
them through. I don't know, it's just an idea I have.
    Yes.
    Mr. Habit. I'm just very excited about your observation. We 
have had a series of study visits from North Carolina to 
different countries, and one of those was to Singapore, to look 
at how they approach the building of top teachers and top 
leaders in their schools. It is a remarkable example of being 
singularly focused on quality. And, as you suggested, they go 
in and recruit the top 20 to 30 percent into their schools of 
education, and pay their tuition while they're there.
    The Chairman. Where is this?
    Mr. Habit. Singapore.
    The Chairman. Singapore.
    Mr. Habit. When you talk to the young people in the 
Singaporean colleges who are enrolled in their schools of 
education and colleges of education, they are very, very 
capable of talking about how to meet the individual needs of 
students.
    The last observation I'll make of that is that, in 
Singapore, the approach to identify top candidates for 
principalship isn't the choice of the teacher who goes into a 
master's program; it's really the choice of the search for top 
teacher-leaders, in schools, who are observed in classrooms, 
and then they are invited to apply into a program to prepare 
them to be leaders.
    What, in effect, happens is, you have the top candidates 
moving into teaching and the top in natural leaders among those 
faculties moving into the principalship. It is a beautiful 
model that should be studied here.
    The Chairman. I just asked them to get me stuff on 
Singapore. Find out about that.
    Mr. Habit. We have a study we can send you--if it would be 
helpful to you--by one of our organizations in North Carolina, 
the Public School Forum of North Carolina. It's online. The 
report can be downloaded.
    The Chairman. I'd like to find out more.
    Well, our time has expired. Thank you all very much, this 
was really, really great.
    Now, I will leave the record open for 10 days for other 
questions that may come in, but I also ask all of you to 
continue to follow our debates and deliberations on the ESEA, 
as we go forward, continue to give us your thoughts and 
suggestions.
    We have set up a separate e-mail site for this. It's just 
ESEA
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f6c6062626a617b7c4f676a637f217c6a616e7b6a2168607921">[email&#160;protected]</a> We're trying to just keep that 
separate, just for comments and stuff on Elementary and 
Secondary Education Act reauthorization.
    My only closing comment here would be that someone kept 
mentioning AYPs. Believe me, if there's one thing I know we're 
going to change, it's how AYPs are judged, rather than, ``How 
close are you getting to some unattainable goal?'' ``How far 
have you come from a base measurement?'' And that's true for 
making sure--we're going to differentiate groups, too. One of 
the things I focus on are kids with disabilities and rather 
than seeing how far they drag them down, I want to know how far 
you're bringing them up. You know? When you've got 60 to 70 
percent of people with disabilities unemployed, and they want 
to work, and they have abilities, something's wrong. That is 
one area to focus on, to find out how we bring them up, rather 
than just how far are they dragging you down.
    Thank you all. You're a wonderful panel. Thank you. I 
appreciate it very much.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 WHAT'S EVIDENCE GOT TO DO WITH IT? AN OBSERVATIONAL STUDY OF RESEARCH-
          BASED INSTRUCTIONAL BEHAVIOR IN HIGH SCHOOL CLASSES
                            by jake cornett
                             copyright 2010
    Submitted to the graduate degree program in Special Education and 
the Graduate Faculty of the University of Kansas in partial fulfillment 
of the requirements for the degree of Master's of Science in Education.

                      Chairperson, Donald D. Deshler, Ph.D.
                                    Thomas M. Skrtic, Ph.D.
                                       B. Keith Lenz, Ph.D.
                                 ______
                                 
    The Thesis Committee for Jake Cornett certifies that this is the 
approved version of the following thesis: What's Evidence Got To Do 
With It? An Observational Study Of Research-Based Instructional 
Behavior In High School Classes

    Committee: Chairperson, Donald D. Deshler, Ph.D.; Thomas M. Skrtic, 
Ph.D.; B. Keith Lenz, Ph.D.
    Date approved: April 27, 2010
                                 ______
                                 
                                Abstract
    This study examined typical instruction and management in general 
education classes that are co-taught by a special educator (co-taught 
CWC), general education classes that are taught by a special educator 
(adapted), and resource room instruction by a special educator. Over 3 
days, 12 teachers in a middle class urban high school were observed 
using momentary time sampling relative to four foci: student 
engagement, transition time, learning arrangement, and instructional 
activity. On average, across the three settings students were on-task 
83.9 percent of all intervals, in transition 4.4 percent of intervals, 
and teachers were disengaged from instruction during 23.2 percent. 
Whole group instruction, the least differentiated and effective mode of 
instruction, consumed the largest portion of observation intervals. If 
effective differentiated instructional practice is the sine qua non of 
providing students with disabilities access to general education 
curriculum, the data provide little evidence to suggest that 
appropriate instructional practice is frequently used.
             Chapter I: Introduction and Literature Review
    Enacted in 1975, the Individuals with Disabilities Education Act 
(IDEA) requires that students with disabilities be educated in the 
least restrictive environment (LRE). Moreover, amendments made to IDEA 
during the 1997 reauthorization require that every individualized 
educational plan (IEP) include how the student will progress in the 
general education curriculum. However, disagreement about how to 
interpret access to ``the general education curriculum'' (IDEA, 1997) 
has dogged the disability community; especially for students whose need 
for support is not as great, including students with learning 
disabilities. Greater clarity for integrating students with 
disabilities into the general education curriculum came with passage of 
IDEA amendments during the 2004 reauthorization (Individuals with 
Disabilities Education Improvement Act, IDEA, 2004). As Soukup, 
Wehmeyer, Bashinski, and Bovaird (2007) noted, ``IDEA requires that the 
IEPs of all students receiving special education services . . . 
identify specific accommodations and curriculum modifications to ensure 
student involvement with and progress in the general education 
curriculum'' (p. 101).
    According to the Digest of Education Statistics, approximately 13.4 
percent of students enrolled in public schools in the U.S. receive 
special education services (Snyder & Dillow, 2010). Among students to 
be given access to the general education curriculum under the IDEA, the 
largest categorical group is students with a specific learning 
disability (LD) (Snyder & Dillow, 2010). LD is defined as,

        Having a disorder in one or more of the basic psychological 
        processes involved in understanding or in using spoken or 
        written language, which may manifest itself in an imperfect 
        ability to listen, think, speak, read, write, spell, or do 
        mathematical calculations. The term includes such conditions as 
        perceptual disabilities, brain injury, minimal brain 
        dysfunction, dyslexia, and developmental aphasia. The term does 
        not include children who have learning problems which are 
        primarily the result of visual, hearing, or environmental, 
        cultural, or economic disadvantage (IDEA, 2004).

    The meaning of ``access to the general education curriculum'' is 
not well understood, however. Central issue in the debate over the 
meaning of access are physical placement and who delivers content 
(Daniel & King, 1998). Concerns about physical placement are focused on 
the type of classroom where students with disabilities are educated 
(e.g., regular, resource room, segregated, etc.). Concerns about who 
teaches the content are focused on questions of instructional training 
and certification (e.g., general education teacher, special educator, 
paraprofessional). Although this debate has continued among scholars, 
special education administrators appear increasingly to favor more 
integrated settings for students with mild disabilities (Waldron & 
McLeskey, 1998; Snyder & Dillow, 2010). For example, we have seen 
marked decreases over the past twenty years in the amount of time 
students with disabilities spend outside of general classrooms (Snyder 
& Dillow, 2010). Whereas in 1989, 31.7 percent of students with 
disabilities spent 80 percent or more of the school day in general 
education classrooms, by 2007 the number of students doing so had grown 
to 56.8 percent (Snyder & Dillow, 2010). Because students with 
disabilities spend larger portion of the school day inside general 
education these classroom are more academically diverse today than at 
anytime in the preceding 20 years.
    Unfortunately, receiving less attention in the debate on access to 
the general education curriculum is concern for instructional practice. 
That is, how curricular content is delivered and what instructional 
supports are provided to ensure students are benefiting from 
instruction. This latter concern for instructional practice should be a 
primary concern. This is not to question the importance of physical 
inclusion, but inclusive education is merely a half-victory for 
disability advocates if the only benefit is the reduction of social 
stigma. Students with disabilities should realize both academic and 
social benefits as a result of inclusion. This is the real meaning of 
gaining access to the general education curriculum. Accomplishing this 
requires greater focus on academic achievement and classroom 
instruction, especially at the high school level where student 
achievement appears to be stagnant.
    The academic achievement of 17-year olds taking the 2008 National 
Assessment of Educational Progress (NAEP) in reading did not differ 
from 2004 or 1971 (Rampey, Dion, & Donahue, 2009). Likewise, 2008 NAEP 
mathematics scores for 17-year olds did not differ from 2004 and only 
marginal increases were observed since 1978 (Rampey, Dion, & Donahue, 
2009). Wang, Haertel, and Walberg (1993) provide insight on the lack of 
progress in American education by distinguishing between distal and 
proximal variables. Distal variables, like state, district, and school 
level policy and demographics, are at least one step removed from the 
daily learning experiences of students. However, distal variables are 
the target of most educational innovation and attention in the U.S. As 
Wang et al. explain, ``implementing a policy of maximized learning 
time, for example, does not guarantee that students in a given 
classroom will receive instruction from a teacher who plans lessons 
with special attention to eliminating poor management practices and 
inefficient use of time'' (p. 276). Proximal variables like curriculum, 
instruction, and assessment that directly impact teaching and learning 
have a more immediate and direct influence on student achievement (Wang 
et al., 1993). These proximal variables are the epicenter of the 
instructional core of education. The stagnation of high school NAEP 
scores, some suggest, is due, at least in part, to a lack of focus on 
the instructional core of education (City, Elmore, Fiarman, & Teitel, 
2009).
    According to City et al. (2009), ``in its simplest terms, the 
instructional core is composed of the teacher and the student in the 
presence of content'' (p. 22). Outside the instructional core are the 
student's home life; school governance, financing, and administration; 
and peer effects. Using hierarchical linear modeling to estimate 
variance in student achievement in New Zealand, Hattie (2003) found 
that teachers account for approximately 30 percent of the total 
variance in achievement while the students account for approximately 50 
percent and their home life, school, and peers account for 15 to 30 
percent. What teachers know and how they instruct are powerful 
predictors of student achievement. Beyond what students arrive prepared 
to do, teacher effects are the largest single contributor to student 
achievement.
    The importance of the instructional core is central to student 
learning because teaching is the moderation of learning between a 
knowledgeable source (e.g., teachers, books, etc.) and a novice learner 
(i.e., student). In essence, learning itself is encapsulated within the 
instructional core. As such, there are three ways to manipulate the 
teaching and learning enterprise: (a) change the content to be learned, 
(b) change the student, or (c) change teaching. In the U.S., control 
over content is decentralized such that state and local education 
agencies determine what will be taught in public schools. Likewise, it 
appears untenable to change the student. Although much can be done to 
improve the school readiness of academically disadvantaged and at-risk 
students, social and cultural politics are a formidable barrier to 
doing much more in this regard. Therefore, educational improvement must 
be driven by the third component of the instructional core, the 
teacher. How teachers manipulate content to make it more accessible and 
thereby mediate content for the student, largely determines academic 
success (Hattie, 1999; Sanders & Rivers, 1996).
    Teachers impact student academic success by the control they 
exercise over a series of closely coordinated instructional activities 
and management strategies. Combining these in such a way that 
meaningful access to the general curriculum is achieved for all 
students, regardless of current skill, requires careful consideration 
of four separate yet interrelated categories of instruction and 
management foci: student engagement, transition time, learning 
arrangement of students, and instructional activity. In order to meet 
the needs of all learners, high school teachers must effectively use 
the instructional period, keep students engaged, create opportunities 
for individualized learning, and match instructional activities to the 
skill level of students. Given the importance of these four foci to the 
teaching and learning enterprise, and their centrality to this study, 
they warrant closer examination.
Student Engagement
    Research on classroom management indicates a variety of 
instructional activities and classroom management techniques can reduce 
the likelihood of student problem behavior and enhance student 
achievement (Doyle, 1986). McNamara and Jolly (1990a; 1990b) 
investigated ways to increase on-task behavior while reducing off-task 
and disruptive behaviors of 12 and 13-year old students, they concluded 
that, ``when disruptive behavior is dealt with by the promotion of on-
task behaviors then all types of off-task behavior, from innocuous to 
grossly disruptive, are reduced'' (1990b, p. 248). When off-task and 
disruptive behavior are reduced, the opportunity for student learning 
increases. Doyle (1986) made clear the link between the learning 
arrangement of the students and engagement when summarizing the 
research of several leading scholars (Gump, 1967; Kounin, 1970; 
Rosinshine, 1980). In general, Doyle concluded that student engagement 
was highest in teacher led small groups and lowest in unsupervised 
seatwork.
Transitioning Between Activities
    While students transition between places, activities, phases of a 
lesson, or lessons there is great opportunity for wasted time and off-
task behavior; moreover, there is little opportunity for student 
learning. Transition periods are lost instructional time that teachers 
should endeavor to reduce. Research in elementary classrooms has found 
that approximately 31 transitions occur daily accounting for about 15 
percent of classroom time (Burns, 1984; Gump, 1967). In high school 
classrooms, much less is known about the frequency or duration of 
transitions. However, it is commonly assumed that because the seating 
structure or ``room arrangements in secondary classes typically remain 
the same across activities, major transitions take less time'' (Doyle, 
1986, p. 406). Also, whereas the instructional period in elementary 
schools is typically 6-hours, in high schools each period is 45 to 90 
minutes; when the instructional period is shorter there should be fewer 
discrete tasks and less need for multiple transitions during a single 
instructional period. Therefore, transitions in high school classrooms 
should take less time (Doyle, 1986) and be fewer in number.
Learning Arrangement
    Although whole or large group instruction is most prevalent in high 
schools, it is not regarded as an appropriate learning arrangement for 
extended periods of time in academically diverse classrooms (Hughes & 
Archer, in press). During whole group instruction, the teacher gears 
the lesson to the average ability of the students in the classroom, 
assuming to thereby meet the educational need of the greatest number of 
students (Ornstein, 1995). This type of instruction is thought to be an 
economical and convenient format of teaching large quantities of new 
information, especially to large class sizes. However, students within 
high school classrooms have diverse academic needs, and whole group 
instruction only meets the needs of the few students whose ability is 
at the middle of the group average.
    Small group learning allows students to excise different skills not 
used in whole or large group instruction. Cohen (1994) found that 
students who worked well together in small groups were better able to 
manage competition and conflict among team members, listen to and 
combine different points of view, construct meaning, and provide 
support to one another. The most common means of creating small groups 
is within-class ability grouping, also referred to as skill 
grouping.\1\
---------------------------------------------------------------------------
    \1\ The term ``ability grouping'' implies that current assessment 
and group assignment is intrinsic, immutable, and a permanent 
reflection on the individual's potential to learn. The term ``skill 
grouping,'' however, suggests that current ability bear no reflection 
on the individual's intelligence or ability to learn. Therefore, skill 
grouping should be considered the preferable term such that grouping is 
not implied to be a reflection on an individual's potential for 
academic success or ability to learn. Further, skill grouping should 
not be a semester-long assignment for the student. Instead, for a 
struggling student, skill grouping should be used to remediate the 
skill rapidly then shift the student out of the lowest skill group. 
Although skill grouping is the preferable term the researcher's term 
will be used here.
---------------------------------------------------------------------------
    Chorzempa and Graham (2006) surveyed a random sample of primary 
teachers from across the U.S. and found that 63% of the respondents 
used ability grouping in their classroom. Research suggests that two or 
three homogeneous ability groups within one classroom is better than a 
larger number of very small groups because it permits frequent and 
extended monitoring and feedback by the teacher, reduces transition 
times, and limits time spent on individual seatwork (Hiebert, 1983; 
Webb & Farivar, 1994). Moreover, students in each skill group should be 
carefully and frequently monitored such that regrouping is common. When 
heterogeneous classes are split into small homogeneous learning groups 
then students academically benefit, especially struggling students, in 
the content areas of reading and mathematics (Gamoran, 1992; Oakes, 
1987; Slavin, 1989).
Instructional Activity
    Rosenshine and Stevens (1986) synthesized the work of several 
leading scholars (Gagne, 1970; Good & Grouws, 1979; Hunter & Russell, 
1981) on effective teaching practice to create a list of six 
``fundamental instructional `functions' '' (p. 379). These functions 
are,

    1. review, check previous day's work (and reteach, if necessary)
    2. present new content/skill
    3. guided student practice (and check for understanding)
    4. feedback and correctives (and reteach, if necessary)
    5. independent student practice
    6. weekly and monthly reviews (Rosenshine & Stevens, 1986, p. 379).

    Across these six functions are six instructional practices. These 
practices are presenting new information, describing new skills, 
monitoring, providing feedback, re-teaching, and scaffolding supports 
toward student mastery. Within each of these six practices are several 
instructional activities that are used by teachers; instructional 
activity is one of the foci of this study. Assessing student knowledge 
is an instructional activity associated with Rosenshine and Stevens' 
(1986) first and sixth functions. Assessing student knowledge and 
checking for understanding is an important instructional activity to 
monitor mastery of new skills, identify struggling students, and 
pinpoint what learning process was not mastered during initial 
teaching. Broadly, there are two types of assessments: formative and 
summative. Formative assessments are not for credit but rather are 
intended to inform future instruction by rapidly identifying current 
level of mastery and specific skills that a student did not grasp. 
Formative assessments are also referred to as progress monitoring 
assessment. Summative assessments include tests and quizzes intended to 
measure knowledge and assign credit based on that measurement. Both 
formative and summative, can be used to inform future instruction, 
provide feedback to students, and identify skills that need to be re-
taught. Assessments of learning are key to effective instructional 
practice.
    Reviews should be guided by results from formal assessments. Often, 
reviewing past content is used as an activity to re-teach and monitor 
student knowledge (Hughes & Archer, in press). Reviewing can focus on 
fact or concept recall, ability to manipulate or generalize previous 
learning to novel situations, or processes for learning that include 
broad skills (e.g., summarizing) or strategies (e.g., comparing 
concepts or writing paragraphs). Research indicates that reviewing and 
summarizing the key information from a lesson is associated with 
increased student achievement (Armento, 1976; Wright & Nuthall, 1970). 
Moreover, review activities can be used to re-teach content that was 
not mastered during initial teaching and learning. Reviewing past 
content is an opportunity to provide feedback to students and assess 
current knowledge.
    Four instructional activities used when initially presenting new 
information or skills are lecturing, describing, giving directions, and 
modeling. These instructional activities are associated with Rosenshine 
and Stevens' (1986) second function. These four activities are all led 
by the teacher and are typically characterized by the teacher talking 
to the class. Lecturing is thought to be an efficient way to present 
large blocks of information to students. When teachers lecture, 
students are typically instructed to take copious notes as the main 
method of learning the content. However, although commonly used, this 
is a passive learning process that may lead to disengagement and 
confusion on behalf of the student. Rarely is extended periods of 
lecture preferable to other instructional activities.
    Monitoring students is an instructional practice associated with 
Rosenshine and Stevens' (1986) third function. Teachers monitor 
students using a variety of instructional activities including multiple 
types of questioning, physically observing student work, and listening 
to students' academic talk while working in small groups. Effective 
teachers use these monitoring activities to assess student 
understanding of new content, provide correction or feedback, reteach, 
and adjust future instruction (Hughes & Archer, in press; Rosenshine & 
Stevens, 1986). Research has shown that when teachers circulate the 
classroom to physically observe student performance student engagement 
increases (Fisher et al., 1978), academic achievement may be bolstered 
(Evertson, Anderson, & Brophy, 1978), the pace of the lesson is 
maintained (Doyle, 1984; Evertson & Emmer, 1982), and a clear message 
is sent to the student that the teacher is available to help.
    Giving feedback is an instructional practice associated with 
Rosenshine and Stevens' (1986) fourth function. In his meta-analysis of 
more than 180,000 studies, encompassing 450,000 effect sizes, on the 
effects of instruction on student achievement, Hattie (1999) found that 
``the most powerful single moderator that enhances achievement is 
feedback'' (p. 9). According to Hattie, feedback is providing 
information about how and why a student understands, and next steps the 
student should take to continue toward mastery. There are multiple 
instructional activities associated with feedback. Hattie and Timperley 
(2007) examined other types of feedback and found them to be powerful 
moderators of student achievement also, but not all types were equally 
powerful. Notably, reinforcing student success, giving corrective 
feedback, and remediating feedback were shown to positively impact 
student achievement with average effect sizes of 1.13, 0.94, and 0.65, 
respectively (Hattie, 1999).
    Missing from the list of six instructional functions and practices 
synthesized by Rosenshine and Stevens (1986) is modeling and graphic 
organizers. Although they do include modeling ``the skill or process 
(when appropriate)'' as one element of presenting new skills or 
processes (p. 381), they fail to emphasize the importance of modeling 
at various stages of learning and to differentiate between explicit and 
implicit modeling as separate instructional activities. As an 
instructional activity, explicit modeling has two components--physical 
demonstration of the steps or procedure and verbalizing the meta-
cognitive thought process used to guide actions. Implicit modeling is 
teacher demonstration of the steps or procedures without verbalizing 
the meta-cognitive process. Research indicates that students with 
disabilities may not use self-talk to guide performance on academic 
tasks (Warner, Schumaker, Alley, & Deshler, 1989). Therefore, educators 
need to teach both the procedural steps of completing a task and the 
meta-cognitive process that guides self-talk and leads to successful 
completion. In other words, they need to both present and make explicit 
the thought process used by skilled learners. Such explicit modeling is 
key to the academic success of students, especially those who struggle 
with information processing, and those with LD (Gildroy, 2001). Given 
the diverse levels of academic skill found in most high school 
classrooms, explicit modeling is almost always appropriate as an 
instructional activity when presenting new skills or processes.
    Graphic organizers are a visual representation of ideas or concepts 
intended to show relationships and demonstrate the organization of 
concepts (e.g., hierarchical lists, flowcharts, outlines, concept 
maps). Graphic organizers are used for many purposes, including as 
reading enhancement (DiCecco & Gleason, 2002; Dunston, 1992; Griffin & 
Tulbert, 1995; Robinson, 1998; Vekiri, 2002), a mathematical problem-
solving tool (Ives & Hoy, 2003), note taking strategy (Katayama & 
Crooks, 2003; Katayama & Robinson, 2000), and an accommodation for 
students with disabilities (Boudah, Lenz, Bulgren, Schumaker, & 
Deshler, 2000; DiCecco & Gleason, 2002; Horton, Lovitt, & Bergerud, 
1990; Kim, Vaughn, Wanzek, & Wei, 2004). Evidence suggests that graphic 
organizers aid in comprehension by providing students a method to 
organize new information and understand the interconnections between 
newly learned and recently learned knowledge (Alvermann, 1981; Robinson 
& Kiewra, 1995). Stone's (1983) meta-analysis of the effects of graphic 
organizers presented in advance of the lesson found that long-term 
learning was on average .66 standard deviations better. Furthermore, 
when an organizer is provided at the beginning of the lesson it can 
help students with disabilities retain more of the information 
presented (Lenz, Alley, & Schumaker, 1987).
Purpose of Study
    There is little known about differences in classroom instruction 
and management among general education classes that are co-taught by a 
special educator (co-taught CWC), general education classes that are 
taught by a special educator (adapted), and resource room instruction 
by a special educator (resource room). Given the literature on 
effective instructional practices and activities, the purpose of this 
study was to systematically catalogue how teachers instruct students in 
these settings by observing how they manage and use the instructional 
period relative to four foci: student engagement, learning arrangement, 
transition time, and instructional activity. The goal of this study was 
to understand typical and routine instruction and management in high 
school classrooms that promote access to the general curriculum for 
students with disabilities.
                        Chapter II--Methodology
Setting and Participants
    Teachers in one public high school serving grades nine through 
twelve participated in this study. Within the school district this high 
school has a reputation for high academic achievement. The high school 
is located in a large urban city in the Midwestern United States with 
an approximate population of 350,000. The student population served by 
this high school is best characterized as middle class with 31.9 
percent of the students eligible for free or reduced meals (NCES, 
2009). Among the students who attend the high school, 3.0 percent are 
American Indian or Alaskan Native, 3.8 percent are Asian or Pacific 
Islander, 10.3 percent are Hispanic, 14.7 percent are African-American, 
and 68.2 percent are Caucasian (NCES, 2009). All teachers observed had 
at least 5 years of teaching experience and were certified in the area 
observed.
    Three types of instructional settings were observed: adapted 
classrooms, co-taught class-within-a-classroom (CWC), and resource 
rooms. Adapted classes use the same curriculum as regular education 
classes; however, the instructor is a certified special educator and 
all students enrolled in the class are qualified for special education 
services. McCall and Skrtic (in press) have referred to these classes 
as ``special regular classrooms.'' The number of students in these 
adapted classrooms is slightly fewer than in general education 
classrooms; this is intended to allow the special educator opportunity 
for more individualized instruction and greater student participation. 
Students in these adapted classrooms receive credit that applies toward 
earning a regular diploma.
    CWC classrooms are co-taught by a general education teacher and a 
certified special educator (Hudson, 1990; Schulte, Osborne, & McKinney, 
1990). In these classes, the general educator was primarily responsible 
for teaching the content with the special educator acting in a support 
capacity. The special educator would circulate the room providing 
assistance to individual students and would occasionally engage in 
whole group teaching to augment the general educator's instruction. 
Resource classrooms are taught by a certified special education 
teacher; all students enrolled in the class are qualified for special 
education services (Wiederholdt, 1974). Resource classrooms do not 
follow the general education curriculum but rather are intended to 
support individual student needs or small homogeneous groups of 
students. The number of students in these resource classrooms is very 
few, ranging from two to six at any given time. Special educators in 
these classrooms are expected to augment prior general education 
instruction received in content areas by tutoring students, pre-, and/
or re-teaching information, and working on other skills as needed 
(e.g., organizational strategies for assignments, note taking, learning 
strategies).
Measurement Instrument
    There is little known about differences in classroom instruction 
and management among co-taught CWC, adapted, and resource room 
settings. Given the literature on effective instructional practices and 
activities, the purpose of this study was to systematically catalogue 
how teachers instruct students in these settings by observing how they 
manage and use the instructional period relative to the four foci. The 
goal of this study was to understand typical and routine instruction 
and management in high school classrooms that promote access to the 
general curriculum for students with disabilities.
    There were four foci of the observation instrument. The first 
concern was to determine the level of student engagement. Student 
engagement is the amount of time students are on-task and involved in 
the assigned instructional activity. The second focus was to determine 
what portion of each class period was spent in major transitions. Major 
transitions are those transitions that occur while the class moves 
between places, activities, phases of a lesson, or lessons. The third 
focus was to determine the learning arrangement of the classroom. 
Several types of learning arrangements are possible, ranging from whole 
group instruction to independent work being completed by one student. 
The fourth focus was to determine the proportion of engaged time spent 
in each of 30 types of instructional activity appropriate for high 
school identified on the observational instrument. See Appendix B for 
the observation instrument.
    To develop the teacher observation instrument, a comprehensive 
literature search was conducted to identify empirical and prescriptive 
literature regarding instructional practice appropriate for secondary 
classrooms. Beginning with ERIC, PsycINFO, and Dissertation Abstract 
International online databases, the following keyword search terms were 
used: instructional practice, instructional method, teaching method, 
classroom instruction, and inclusion teaching. From this corpus of 
literature, seminal articles were identified and used for ancestral 
searches. Further, the three most recent editions of the Handbook of 
Research on Teaching was carefully examined (Gage, 1965; Richardson, 
2001; Wittrock, 1986).
    Culled from this literature base were 142 instructional and 
management activities. For each activity, a brief definition was 
written based upon the literature and printed onto 3-inch by 5-inch 
index cards. These index cards were then sorted into categories such 
that similar instructional and management activities were grouped 
together. After initial sorting was complete, some categories were 
combined due to their extreme similarity. Then, a description and 
operational definition was written for each instructional and 
management activity. These categories were presented to an expert panel 
with extensive background in conducting intervention research and 
teaching in inclusive settings. The panel had nine members, five of the 
nine hold doctorates in education or developmental psychology while the 
remaining four each have 15 or more years experience teaching students 
with disabilities in inclusive high schools. The panel was asked to (a) 
identify any missing instructional activities, (b) provide references 
for those activities, (c) critique the description and operational 
definition of the activities, and (d) offer advice on the organization, 
categorization, or elimination of the categories of activities.
    Based upon the literature and this expert advice, the following 
categories and subcategories of activities were identified. Presented 
below is a brief description for each category; the operational 
definitions used as decision criteria by both observers when using the 
observation instrument can be found in Appendix A.
    Student On-Task. Student on-task was a dichotomous category; either 
the student was on- or off-task during the observation interval. On-
task was recorded when the students were engaged in an instructional 
activity. Off-task was recorded when the students were not engaged, 
misbehaving, or out of the room.
    Learning Arrangement. Learning arrangement consisted of six 
subcategories. The subcategories were whole group instruction, large 
group instruction, small group instruction, individual teacher led 
instruction, student peer pairs, and individual-independent work.
    Transition Time. Transition time was a dichotomous category; either 
occurring or not during the observation interval. Transition time was 
recorded when the students were shifting between classroom activities.
    Instructional Activity. Instructional activity consisted of 30 
subcategories of activities and a not-engaged observational option. The 
subcategories of instructional activity were lecture, describe, two 
types of modeling, two types of giving directions, six types of 
monitoring, three types of reviews, two types of feedback, three types 
of graphic organizers, six reading activities, three types of formal 
assessment, and video. An additional not engaged time category was used 
to capture off-task teacher behavior during respective instructional 
activities.
Procedures
    Two independent observers conducted the observations over a three-
day time period; one served as the primary data collector and the 
second as the inter-observer agreement data collector. Both observers 
were trained on data collection procedures of momentary time sampling 
(MTS). First, both observers read and discussed the operational 
definition for each category of time-on-task, learning arrangement, 
transition time, and instructional activity. Second, both observers 
practiced data collection using the observation form in two classrooms 
in an urban public high school. Third, observers practiced recording 
the data using publicly available video recordings of students not 
involved in this study. Once the two observers were in 90 percent 
agreement in each of the four foci, data collection was scheduled.
    Data collection was conducted in real-time using MTS beginning when 
the teacher began instruction and ending when the teacher stopped 
instruction. Partial interval recording (PIR) and MTS are two commonly 
used time sampling methods in educational observation research. Both 
methods divide large blocks of time (e.g., a class period) into a 
number of small segments (e.g., 30 seconds). The small segment becomes 
the time sampling interval whereby behavior occurrence or nonoccurrence 
is coded based upon the pre-determined decision criteria described 
previously. Data is collected during each interval in each of the four 
foci.
    PIR and MTS differ by virtue of when the behavior is observed and 
coded and what decision rule is used to guide this. When PIR is used, 
the observer records the behavior if it occurs at least once during the 
interval period. In other words, the observer behaves like a video 
recorder, capturing behavior during the entire sampling interval (e.g., 
30 seconds). If the behavior is observed at all, the behavior is 
recorded. However, when MTS is used, the observer records the behavior 
that occurs the moment the sampling interval begins. In other words, 
the observer behaves like a still camera, capturing behavior at the 
beginning of the sampling interval. The first behavior observed is the 
only behavior recorded. Neither PIR nor MTS are concerned with 
frequency or duration of individual behavior within each interval; only 
one behavior is recorded each sampling interval.
    In this study, MTS was used to estimate percentage of time (a) on-
task, (b) spent in each learning arrangement, (c) lost in transitions 
between instructional activities, and (d) used for each instructional 
activity. Each of these four foci were recorded every 30-second 
observation interval. The research comparing PIR and MTS has determined 
that PIR overestimates time percentage of behavior whereas MTS gives a 
reasonably accurate estimate of behavior when brief intervals (30 
seconds or less) are used (Gardenier, MacDonald, & Green, 2004; Murphy 
& Goodall, 10980; Powell, Martindale, Kulp, Martindale, & Bauman, 1977; 
Tyler, 1979).
    The two observers arrived prior to the start of class and occupied 
seats in the rear of the classroom where they would not interfere with 
instruction but could see every student. Each observer sat with a data 
collection sheet and a clipboard in their lap, and a pen in hand. A 
digital 30-second repeating countdown clock was positioned near the two 
observers. When the teacher began class (e.g., asking students to sit 
or beginning to instruct) the clock was started. Once the clock reached 
zero, the two observers looked at the teacher and designated student, 
then recorded whether the student met the criteria for on-task 
behavior, what the learning arrangement of the class was, if the 
transition criteria was met, and what instructional activity was used 
by the teacher. The repeating countdown clock automatically reset to 30 
after each interval and began counting down again. After recording the 
behavior, the observers watched the clock until it reached zero again, 
this process was repeated in each classroom until the instructor ended 
the class period.
    When rating student time on-task, both observers began with the 
student in the front-left seat of the class, then worked their way 
across the first row of students, and then began the second row 
continuing until every student had been observed and rated on the 
observation sheet. Only one student was scored during each time 
interval. Once all students had been scored, the observers began again 
at the beginning front-left seat and would repeat this until the class 
ended. Both observers took care to ensure they were observing and 
rating the same student during each time interval. See Appendix B for 
the observation instrument sheet.
Inter-Observer Reliability
    To determine inter-observer agreement, the two data collectors 
independently observed and scored 98.7 percent of the time sample 
intervals. Inter-observer percent reliability agreement was calculated 
using the following formula: Percent Reliability = (Number of 
Agreements / Number of Agreements + Disagreements) X 100. Inter-
observer agreement across all intervals was 95.6 percent reliability. 
When both observers did not agree, the data was removed from analysis 
such that all results presented below represent 100 percent agreement 
between the two observers.
                          Chapter III--Results
    Results will be presented beginning with student on-task behavior 
and major transitions then continue with results from the learning 
arrangement and instructional activity. In each of the three sections 
that follow, data from all classrooms in all settings is summarized 
first; then results from each of the three types of settings are 
presented. A one-way between subjects ANOVA was calculated to compare 
the observation data collected in the three instructional settings for 
percentage of time intervals that students were on-task. A second one-
way between subjects ANOVA was calculated to compare the observation 
data collected in the three instructional settings for percentage of 
time intervals that major transitions occurred. However, no statistical 
test of mean difference was used for learning arrangement or 
instructional activity due to inadequate power. Instead, these 
comparisons are presented descriptively.
On-Task Behavior and Major Transitions
    Observations across all classrooms and settings indicated that on 
average students were on-task 83.9 percent of all intervals. A one-way 
between-subjects ANOVA indicated there was no significant difference in 
percent of time on-task between the three instructional settings, F(2, 
87) = 2.79, p > .05. See Table 1 for the mean percentage and standard 
deviation of on-task intervals in each type of setting (i.e., adapted, 
co-taught CWC, and resource room).
    In all settings, observations suggest that very little time was 
lost in major transitions during the class period. Transition time 
accounted for 4.4 percent of all intervals, which is markedly less time 
than Burns' (1984) and Gump's (1967) 15 percent of classroom time. 
Further, a one-way between-subjects ANOVA indicated that there was no 
significant difference in major transition time between the three 
instructional settings, F(2, 87) = 1.41, p > .05. See Table 1 for the 
mean percentage and standard deviations of major transition intervals 
in each type of setting (i.e., adapted, co-taught CWC, and resource 
room).

                                                     Table 1
   Mean percentage of intervals of student time on-task and major transitions for adapted,  co-taught CWC, and
                                             resource room settings
----------------------------------------------------------------------------------------------------------------
                                                                Adapted (N = 4   Co-Taught CWC    Resource Room
                       Observation Code                            Classes)     (N = 5 Classes)  (N = 3 Classes)
                                                                   Mean(SD)        Mean (SD)         Mean(SD)
----------------------------------------------------------------------------------------------------------------
On-Task......................................................       82.2(16.2)      81.6 (12.6)       89.9(11.9)
Transition...................................................        6.0(18.6)        5.4 (9.4)         0.5(1.5)
----------------------------------------------------------------------------------------------------------------

Learning Arrangement
    Table 2 shows the mean percentage of intervals in which teachers in 
all classrooms and settings arranged the students in the six formats. 
Students in these classes spent the largest portion of observation 
intervals in whole group instruction (47.2) and the second largest in 
independent work (33.3). During observations, teachers did not instruct 
students to work with one peer in any classroom. Teachers spent less 
than 10 percent of time intervals in each of the remaining 
instructional arrangement with 1.1 percent of intervals in small group 
learning.

                                 Table 2
   Mean percentage of intervals, standard deviation, and rank of each
               learning arrangement across all classrooms
------------------------------------------------------------------------
                                           Mean
         Learning Arrangement           Percentage      SD        Rank
------------------------------------------------------------------------
Whole Group...........................        47.2       44.7          1
Independent...........................        33.3       41.1          2
Large Group...........................         9.6       28.1          3
Teacher Led 1-1.......................         8.9       24.6          4
Small Group...........................         1.1       10.5          5
Peer Pairs............................         0.0        0.0          6
------------------------------------------------------------------------

    Table 3 shows the mean percentage of intervals in which teachers in 
each classroom setting arranged learning. In each of the three 
settings, whole group instruction consumed the largest portion of 
observation intervals. The percentage of intervals teachers used whole 
group instruction in adapted, co-taught CWC, and resource rooms is 
37.5, 51.0, and 55.5, respectively. Small group instruction occurred 
only in adapted classrooms, and infrequently in that setting. Teacher 
led one-on-one instruction occurred during 28.8 percent of the 
intervals in the resource room setting whereas 4.7 percent in the co-
taught CWC classrooms and not at all in adapted classrooms.

                                                     Table 3
Mean percentage of intervals in each learning arrangement for adapted, co-taught CWC, and resource room settings
----------------------------------------------------------------------------------------------------------------
                                                                                   Co-Taught CWC   Resource Room
                                                                  Adapted (N = 4      (N = 5          (N = 3
                      Learning Arrangement                           Classes)        Classes)        Classes)
                                                                     Mean(SD)        Mean(SD)        Mean(SD)
----------------------------------------------------------------------------------------------------------------
Whole Group.....................................................      37.5(45.5)     51.0 (42.9)     55.5 (45.6)
Independent.....................................................      36.3(45.7)     41.4 (42.3)     15.7 (25.0)
Large Group.....................................................      23.2(41.2)      2.9 (13.2)       0.0 (0.0)
Teacher Led 1-1.................................................        0.0(0.0)      4.7 (18.3)     28.8 (38.2)
Small Group.....................................................       3.0(17.4)       0.0 (0.0)       0.0 (0.0)
Peer Pairs......................................................        0.0(0.0)       0.0 (0.0)       0.0 (0.0)
----------------------------------------------------------------------------------------------------------------

Instructional Activity
    The mean percentage of intervals in which teachers in all settings 
engaged in instruction was 76.8 whereas the mean percentage not engaged 
in instruction is 23.2. Figure 1 shows the mean percentage of intervals 
in which teachers in all settings engaged in each of the 30 
instructional activities or did not engage in any instructional 
activity. The bars in Figure 1 are arranged from largest percentage of 
intervals to smallest percentage of intervals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 4 shows that in general teachers were not engaged in 
instruction for more intervals than any of the 30 instructional 
activities. Instructional activities in which teachers spent more than 
ten percent of time were lecturing, giving academic direction, and 
giving procedural directions. Teachers engaged in elaborated feedback, 
physical observation of students, asking questions for student verbal 
response, and simple feedback five to ten percent of time intervals. 
Few, if any, intervals were spent using instructional activities that 
research indicates are appropriate for diverse academic learners (e.g., 
using advance organizers, explicit modeling, monitoring progress with 
formative assessment).

                                 Table 4
   Mean percentage of intervals, standard deviation, and rank of each
              instructional activity across all classrooms
------------------------------------------------------------------------
                                       Mean
      Instructional Activity        Percentage       SD          Rank
------------------------------------------------------------------------
Lecture..........................         12.8         21.4            2
Describe.........................          1.8          4.0           10
Implicit Model...................          0.9          4.9           13
Explicit Model...................          0.7          3.1           15
Academic Directions..............         10.8         11.9            3
Procedural Direction.............         10.2         12.1            4
Physical Observation.............          7.9         15.8            6
Questioning for Self Answer......          0.2          1.1           20
Questioning for Verbal Response..          7.8         12.9            7
Questioning for Written Response.          0.8          5.9           14
Questioning for Action Response..          0.1          0.6           23
Listen...........................          1.7          4.7           11
Review Fact, Concept, Procedure..          0.7          2.1           17
Review by Generalization.........          0.1          0.8           22
Review Skill or Strategy.........          0.1          0.8           21
Simple Feedback..................          6.4         10.5            8
Elaborated Feedback..............          8.3         14.5            5
Advance Organizer................          0.0          0.0           24
Post Organizer...................          0.0          0.0           24
Other Graphic Device.............          0.0          0.0           24
Read to Students.................          2.3          9.6            9
Shared Reading...................          1.6          7.8           12
Simple Silent Reading............          0.0          0.0           24
Augmented Silent Reading.........          0.0          0.0           24
Reading Strategy.................          0.3          2.9           19
Computer Mediated Instruction....          0.0          0.0           24
Test.............................          0.0          0.0           24
Quiz.............................          0.4          4.1           18
Formative Progress Monitoring....          0.0          0.0           24
Watch Video......................          0.7          5.2           16
Not Engaged in Instruction.......         23.2         26.8            1
------------------------------------------------------------------------

    Table 5 display similar data to those reported above except they 
are organized according to the type of instructional setting. As a 
group, teachers in the adapted setting are on average involved in 
instructional activities 71.6 percent of time intervals and not engaged 
in instruction 28.4 percent of time intervals. While engaged, these 
teachers used four types of instructional activities most frequently 
(i.e., procedural direction, physical observation, questioning for 
verbal response, and simple feedback). These four instructional 
practices accounted for 41.6 percent of all time intervals in adapted 
classrooms. Modeling of any kind was not observed in any adapted 
classroom nor was use of graphic devices of any kind, silent reading of 
any kind, computer-mediated reading instruction, formative assessments, 
or tests.
    As a group, teachers in the co-taught CWC setting are on average 
involved in instructional activities 76.6 percent of time intervals and 
not engaged in instruction 23.4 percent of time intervals. Figure 2 
shows that only five instructional activities account for nearly three 
quarters of the time intervals that teachers in this setting were 
engaged in instructional activities. The five activities are elaborated 
feedback, procedural directions, academic directions, physical 
observation, and lecture. Several instructional activities were never 
observed (see Table 5).

                                                     Table 5
    Mean percentage of intervals of each instructional activity for adapted, co-taught CWC, and resource room
                                                    settings
----------------------------------------------------------------------------------------------------------------
                                                                                   Co-Taught CWC   Resource Room
                                                                  Adapted (N = 4      (N = 5          (N = 3
                     Instructional Activity                          Classes)        Classes)        Classes)
                                                                     Mean(SD)        Mean(SD)        Mean(SD)
----------------------------------------------------------------------------------------------------------------
Lecture.........................................................        2.5(6.4)       7.2 11.1)      30.5(29.9)
Describe........................................................        0.7(1.9)        0.9(2.5)        4.8(6.4)
Implicit Model..................................................        0.0(0.0)        2.8(9.5)        0.7(2.5)
Explicit Model..................................................        0.0(0.0)        0.2(1.1)        2.8(5.8)
Academic Direction..............................................        7.3(9.0)      11.3(13.3)      12.3(11.8)
Procedural Direction............................................      10.4(11.1)      13.3(16.1)        4.8(7.0)
Physical Observation............................................      10.4(21.9)        7.3(8.0)       3.2(10.8)
Question for Self-Answer........................................        0.0(0.0)        0.0(0.0)        0.6(2.1)
Question for Verbal Answer......................................      10.4(16.7)        3.4(6.1)      10.8(13.2)
Question for Written Answe......................................        2.3(9.7)        0.0(0.0)        0.0(0.0)
Question for Action Response....................................        0.0(0.0)        0.3(1.3)        0.0(0.0)
Listen..........................................................        0.8(2.2)        1.9(5.0)        2.1(3.8)
Review Fact, Concept, Procedure.................................        1.0(2.4)        0.0(0.0)        1.0(2.8)
Review by Generalization........................................        0.3(1.3)        0.0(0.0)        0.0(0.0)
Review Skill or Strategy........................................        0.3(1.3)        0.0(0.0)        0.0(0.0)
Simple Feedback.................................................      10.4(15.1)        4.1(5.9)        4.1(5.9)
Elaborated Feedback.............................................        5.0(9.3)      16.4(23.4)        6.4(9.1)
Read to Students................................................       6.3(15.1)        0.0(0.0)        0.0(0.0)
Shared Reading..................................................        2.7(7.9)       2.7(12.5)        0.0(0.0)
Reading Strategy................................................        0.8(4.8)        0.0(0.0)        0.0(0.0)
Quiz............................................................        0.0(0.0)        1.8(8.3)        0.0(0.0)
Watch Video.....................................................        0.0(0.0)       2.9(10.5)        0.0(0.0)
Not Engaged in Instruction......................................      28.4(34.6)      23.4(24.5)      15.8(16.9)
----------------------------------------------------------------------------------------------------------------
Note: Among the types of learning arrangements, no class used student peer pairs. Likewise, among the list of
  instructional activities no teacher used graphic devices of any kind, silent reading of any kind, computer
  mediated reading instruction, formative assessments, or tests. Therefore, means and standard deviations are
  not reported for these variables.

    Figure 2. Percentage of time intervals while engaged in instruction 
across all co-taught CWC classrooms
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a group, teachers in the resource classroom setting were on 
average involved in instructional activities 84.2 percent of time 
intervals and not engaged in instruction 15.8 percent of time 
intervals. This is the largest percent of time intervals engaged in 
instruction among the three settings. However, in resource classrooms 
much of the instructional time was used to lecture. Only a few time 
intervals were spent reviewing in resource classrooms. Further, reading 
instruction of any kind was not observed in any resource classroom nor 
was use of graphic devices of any kind or assessments of any type.
    Great variability among the classes was indicated by the large 
standard deviations, particularly in percentage of time intervals that 
teachers were not engaged in instruction and the percent of time 
intervals that whole group and independent learning arrangements were 
used. These results have limited generalization to adapted, co-taught 
CWC, and resource room settings in other schools.
                         Chapter IV--Discussion
    There is little known about differences in classroom instruction 
and management among co-taught CWC, adapted, and resource room 
settings. Given the literature on effective instructional practices and 
activities, the purpose of this study was to systematically catalogue 
how teachers instruct students in these settings by observing how they 
manage and use the instructional period relative to four foci. The goal 
of this study was to understand typical and routine instruction and 
management in high school classrooms that promote access to the general 
curriculum for students with disabilities.
    These three settings are common in large high schools that attempt 
to provide meaningful access for students with disabilities to the 
general education curriculum. Observations in four focused areas were 
used to create a profile of instruction in each of these settings. The 
four foci were student engagement, major transition time, learning 
arrangement of the students, and instructional activity. Learning 
arrangement was split into six subtypes spanning from whole group 
instruction to independent learning. Likewise, instructional activity 
was split into 30 separate instructional practices plus not engaged 
time.
Conclusions and Implications
    Four major findings emerged from this study. First, disengaged from 
instructional activity was the most frequently observed behavior. 
Second, instructional activities that occurred frequently (e.g., giving 
academic or procedural direction and lecturing) are not associated with 
student academic outcomes in the empirical or prescriptive literature. 
Third, practices that have been shown to increase learning (e.g., 
feedback, graphic organizers, modeling) were observed sporadically. 
Fourth, students spent the class period engaged primarily in whole 
group or independent learning arrangements.
    When examining the proportion of time teachers were engaged and not 
engaged in instruction the results show that a large amount of 
instructional time is not utilized. In the adapted and co-taught CWC 
settings, this was the largest percentage of time, and second largest 
in resource classrooms. However, in the resource setting teachers were 
engaged in instruction during more intervals than were teachers in the 
adapted or co-taught CWC settings, 12.6 and 7.6 percent respectively. 
On average, teachers were not engaged during 23.2 percent of 
observation intervals; in a 90-minute class period this represents 20.9 
minutes per school day per class period, or nearly 1.75 hours per 
school week per class. Typically, teachers were checking, writing, or 
reading emails at a computer in the classroom or preparing to teach the 
lesson for the next class period. Although these are necessary tasks 
that teachers must complete, it is inappropriate to be completing those 
tasks during instructional time. This is cause for great concern 
because if approximately one-quarter of all instructional time is used 
by teachers to check their email, there is a reduction in the potential 
for learning.
    Across the three settings, lecturing, giving academic direction, 
and giving procedural direction were the second, third, and fourth most 
frequently observed instructional practices, respectively. In other 
words, when teachers are engaged in instruction, they were found to be 
spending a large portion of the class period talking; that is, of the 
time teachers are engaged in instruction, the teacher is talking 44 
percent of the time. These instructional activities, although common in 
most high schools, are not regarded as appropriate practice when 
teaching new content or skill (Hughes & Archer, in press), and rarely 
are these instructional activities preferable, especially for students 
with disabilities (Deshler, Ellis, & Lenz, 1996; Hughes & Archer, in 
press; Swanson & Deshler, 2003).
    More effective teaching practices such as explicit modeling, 
frequently reviewing, using graphic organizers, giving formative 
assessment, and small group instruction occurred infrequently across 
the three settings. These instructional practices have been shown to 
impact student academic achievement (Armento, 1976; Gildroy, 2001; 
Hattie, 2003; Hattie & Timperley, 2007; Lenz, Alley, & Schumaker, 1987; 
Stone, 1983) and should be used more frequently during instruction. 
Across the three settings, students were arranged as a whole group for 
nearly half of the observation periods. Teachers in the resource room 
setting used the whole group learning arrangement 18 percent more 
thanteachers in the adapted setting and 4.5 percent more that teachers 
in the co-taught setting. However, research has shown that regardless 
of the size of class, whole group learning is less effective than one-
to-one tutoring or small group learning (Ornstein, 1995; Slavin, 1989). 
On average students were instructed to work independently during 36.3 
percent of time intervals in adapted classrooms, 41.1 percent in co-
taught CWC classrooms, and 15.7 percent in resource rooms. Moreover, 
across the three settings, students were instructed to work 
independently on a task during one third of the observation periods. 
Although independent work is important for progressing toward and 
displaying mastery learning, it appears to be used as an activity to 
occupy students so that the teacher can engage in non-instructional 
behavior (e.g., checking email, grading papers). Rarely is it 
appropriate for students to spend 30 minutes during a 90-minute class 
period working independently on a task, especially given that on 
average teachers in this study were disengaged from the learning 
process for 21 minutes during a 90-minute class. These disappointing 
results may be related to the increasing content demand of curriculum 
and the prevalence of pacing guides that require large quantities of 
information be covered in relatively short time. Teachers may feel the 
only conceivable way to teach the prodigious required content is by 
using less effective but more efficient instructional activities (e.g., 
lecture, video, describing). In effect, curricular demands and 
standards based accountability may result in a race to the bottom with 
regard to instructional activities. In essence, sacrificing 
differentiated instruction and scaffolds of support for curriculum 
content.
    When taken together, the four major findings from this study raise 
serious questions about meaningful access to the general education 
curriculum for students with disabilities. The results indicate that 
physical inclusion in the general education classroom does not 
guarantee access to the general curriculum as required by IDEA. 
Moreover, it is questionable whether co-taught CWC classrooms are the 
least restrictive environment given the learning arrangements students 
are placed into and the instructional activities that teachers use. 
And, the same conclusion can be drawn regarding adapted and resource 
room instruction. In summary, the quality of education, as assessed by 
the instructional and management activities observed in this study, is 
of questionable quality in each of the three instructional settings. 
These four findings raise questions about the quality of education not 
only for students with disabilities but for all students.
Limitations
    This study has several limitations. Data collection occurred over 
three days and only in one high school. Therefore, limited 
generalization can be justified. However, given the middle class nature 
of the school where data were collected and the school's reputation 
within the community for high academic achievement, it is doubtful that 
dramatically better instruction would have been observed elsewhere.
    Another limitation of this study is that the observational 
methodology of MTS does not capture all behavior. When behaviors are 
extremely brief or occur infrequently MTS can underestimate percentage 
of intervals in those behaviors (Repp, Roberts, Slack, Repp, & Berkler, 
1976); however, Murphy and Goodall (1980) and Gardenier, MacDonald, and 
Green (2004) establish that MTS is preferable to other time sampling 
methodology because it results in lower measurement error when 
intervals are brief. Nevertheless, results of this study related to 
student time on-task and major transitions should be viewed with some 
skepticism. After all, in well-managed high school classrooms, spotting 
off-task behavior can be difficult due to infrequency and the skill 
with which adolescents disguise off-task behavior. Finally, skilled 
instructors quickly transition between instructional activities and 
learning arrangements. However, with MTS these transition periods are 
only recorded if they occur at the beginning of the time interval; 
therefore, more transitions may have occurred than is reflected by 
percentage of time intervals, thereby underestimating transition time. 
Given these limitations, these findings are preliminary, but they do 
point to several trends in the educational experience of students with 
disabilities in large urban high schools.
Future Research
    The following issues should be considered in future research 
efforts. First, research should continue in the area of typical 
instructional practice and activity in both general education and 
special education high school classrooms. Much attention has been paid 
to instructional practice in general education elementary classrooms, 
but little is known about the typical instructional experience of high 
school students. Continuing research in this area requires that 
measurement systems, like the observational system in this study, be 
developed, tested, and validated. Measurement systems could be used for 
three separate activities: first, as a research instrument to compare 
different instructional settings, content areas, and educational 
systems; second, as a teacher evaluation tool for administrators; and 
third, as a data collection tool for coaches. As a research tool, the 
observation instrument used in this study may be appropriate. However, 
as an administrative teacher evaluation tool or coach's data collection 
tool the number of learning arrangements and instructional activities 
may need to be reduced in order to improve reliability among un- or 
less-trained observers.
    Second, for students with disabilities, access to the general 
education curriculum requires at least two elements: physical inclusion 
with their peers and pedagogy that opens the curriculum to diverse 
learning needs. Given the results of this study, a new pedagogy may 
need to be learned by general and special educators who support 
students with disabilities in the general education curriculum. 
Regardless of what new practices must be learned, this will likely 
require changes to pre-service training at the academy and ongoing 
professional learning for currently practicing teachers. Research in 
this area is suggested.
    Third, one variable not explored in this study was whether or not 
general and special educators co-plan for instruction prior to co-
teaching a lesson, something that researchers (Walther-Thomas, 1997; 
Walther-Thomas, Bryant, & Land, 1996) have described as necessary for 
co-teaching. Moreover, co-planning was included in nearly all studies 
of co-teaching where improved student performance was found (Bear & 
Proctor, 1990; Harris et al., 1987; Klinger, Vaughn, Hughes, Schumm, & 
Elbaum, 1998; Marston, 1996; Patriarca & Lamb, 1994; Self, Benning, 
Marston, & Magnusson, 1991). It may be that co-planning for instruction 
has greater impact on instructional practice than the presence of a 
special educator inside the general education classroom. Results from 
this study suggest there is a gap between the research and prescriptive 
literature and the instructional practices used by teachers in schools. 
Additional research is necessary to confirm this finding, ideally using 
a nationally representative sample of schools.
    Fourth, research to understand why teachers are not engaged in 
instruction for such a large portion of the instructional class period 
is suggested. Qualitative research methods are uniquely suited to 
identify the barriers that prevent teachers from utilizing this time. 
Once these barriers have been identified, interventions can be 
developed and implemented that reduce the portion of class time that 
teachers are not engaged in instruction, therefore increasing the 
potential for learning in high schools. These interventions may be 
focused on the individual teacher, organizational configuration, or 
communication systems. Once these interventions have been implemented, 
research should continue to measure the effects.
    Finally, learning arrangements and instructional practices used in 
the adapted and resource classroom settings closely mirrored teaching 
in co-taught general education classrooms. This raises questions about 
whether instructional differences exist between general education and 
special education for students with LD. Granted, adapted class sizes 
were smaller than co-taught classes, however the profile of 
instructional activities looked largely the same. Therefore, more 
research on the typical educational experience of students with 
disabilities in various settings is warranted.
                               references
Alvermann, D.E. (1981). The compensatory effect of graphic organizers 
    on descriptive text. Journal of Educational Research, 75, 44-48.
Armento, B. (1977). Teacher behaviors related to student achievement on 
    a social science concept test. Journal of Teacher Education, 28, 
    46-52.
Bear, G.G., & Proctor, W.A. (1990). Impact of a full-time integrated 
    program on the achievement of nonhandicapped and mildly handicapped 
    children. Exceptionality, 1, 227-238.
Boudah, D.J., Lenz, B.K., Bulgren, J.A., Schumaker, J.B., & Deshler, 
    D.D. (2000). Don't water down? Content learning through the unit 
    organizer routine. Teaching Exceptional Children, 32, 48-56.
Burns, R.B. (1984). How time is used in elementary schools: The 
    activity structure of classrooms. In L.W. Anderson (Ed.), Time and 
    school learning: Theory, research and practice. London: Croom Helm.
Chorzempa, B.F., & Graham, S. (2006). Primary-grade teachers' use of 
    within-class ability grouping in reading. Journal of Educational 
    Psychology, 98, 52-541.
City, E.A., Elmore, R.F., Fiarman, S.E., & Teitel, L. (2009). 
    Instructional rounds in education: A network approach to improving 
    teaching and learning. Cambridge, MA: Harvard Education Press.
Cohen, E.G. (1994). Restructuring the classroom: Conditions for 
    productive small groups. Review of Educational Research, 64, 1-35.
Daniel, L.G., & King, D.A. (1998). Impact of inclusion education on 
    academic achievement, students behavior and self esteem, and 
    parental attitudes. Journal of Educational Research, 91, 67-80.
Deshler, D.D., Ellis, E.S., & Lenz, B.K. (1996). Teaching adolescents 
    with learning disabilities: Strategies and methods (2nd ed.). 
    Denver, CO: Love Publishing.
DiCecco, V.M., & Gleason, M.M. (2002). Using graphic organizers to 
    attain relational knowledge from expository text. Journal of 
    Learning Disabilities, 35, 306-320.
Doyle, W. (1984). How order is achieved in classrooms: An interim 
    report. Journal of Curriculum Studies, 16, 259-277.
Doyle, W. (1986). Classroom organization and management. In M.C. 
    Wittrock (Ed.), Handbook of Research on Teaching (3rd ed.) (pp. 
    392-431). New York: MacMillan Publishing Company.
Dunston, P.J. (1992). A critique of graphic organizer research. Reading 
    Research & Instruction, 31, 57-65.
Evertson, C., Anderson, L., & Brophy, J. (1978). Texas Junior High 
    School Study: Final report of process-outcome relationships (Report 
    No. 4061). Austin, TX: University of Texas, R&D Center for Teacher 
    Education.
Evertson, C., & Emmer, E. (1982). Effective management at the beginning 
    of the school year in junior high classes. Journal of Educational 
    Psychology, 74, 485-498.
Fisher, C.W., Filby, N.M., Marliave, R., Cahon, L.S., Dishaw, M.M., 
    Moore, J.E., & Berliner, D.C. (1978). Teaching behavior, academic 
    learning time, and student achievement: Final Report of Phase III-
    B, Beginning Teacher Evaluation Study. San Fransico: Far West 
    Educational Laboratory for Educational Research and Development.
Gage, N.L. (1965). Handbook of research on teaching: A project of the 
    American Educational Research Association. Chicago: Rand McNally.
Gagne, R. (1970). The conditions of learning. New York: Holt, Rinehart 
    & Winston.
Gamoran, A. (1992). Synthesis of research: Is ability grouping 
    equitable? Educational Leadership, 50, 11-13.
Gardenier, N.C., MacDonald, R., & Green, G. (2004). Comparison of 
    direct observational methods for measuring stereotypic behavior in 
    children with autism spectrum disorder. Research in Developmental 
    Disabilities, 25, 99-118.
Good, T.L., & Grouws, D. A. (1979). The Missouri mathematics 
    effectiveness project. Journal of Educational Psychology, 71, 355-
    362.
Gildroy, P.G. (2001). The development and evaluation of an 
    instructional modeling routine for students with learning 
    disabilities. Dissertation Abstract International, 63 (10), 3516 
    (UMI No. 3067084).
Griffin, C.C., & Tulbert, B.L. (1995). The effect of graphic organizers 
    on students' comprehension and recall of expository text: A review 
    of the research and implications for practice. Reading & Writing 
    Quarterly, 11, 73-89.
Gump, P.V. (1967). The classroom behavior setting: Its nature and 
    relation to student behavior (Final report). Washington, DC: U.S. 
    Office of Education, Bureau of Research. (ERIC Document 
    Reproduction Service No. ED 015 515).
Harris, K.C., Harvey, P., Garcia, L., Innes, D., Lynn, P., Munoz, D., 
    Sexton, K., Stoica, R. (1987). Meeting the needs of special high 
    school students in regular education classrooms. Teacher Education 
    and Special Education, 10, 143-152.
Hattie, J.A. (1999, June). Influences on student learning (Inaugural 
    professorial address, University of Auckland, New Zealand). 
    Retrieved April 11, 2010, http://www.education.auckland.ac.nz/uoa/
    home/about/staff/j.hattie/hattie-papers-download/influences.
Hattie, J.A. (2003, October). Teachers make a difference: What is the 
    research evidence? Retrieved April 11, 2010, http://
    www.education.auckland.ac.nz/webdav/site/education/shared/hattie/
    docs/teachers-make-a-difference-ACER-(2003).pdf.
Hattie, J., & Timperley, H. (2007). The power of feedback. Review of 
    Educational Research, 77, 81-112.
Hiebert, E. (1983). An examination of ability grouping for reading 
    instruction. Reading Research Quarterly, 18, 231-255.
Horton, S.V., Lovitt, T.C., & Bergerud, D. (1990). The effectiveness of 
    graphic organizers for three classifications of secondary students 
    in content area classes. Journal of Learning Disabilities, 23, 12-
    22.
Hudson, F. (1990). Research reports for Kansas City, Kansas public 
    schools division of special education on CTM--collaborative 
    teaching model at Stony Point Sough Elementary School, 1989-90. 
    Kansas City: University of Kansas Medical Center, Department of 
    Special Education.
Hughes, C.A., & Archer, A. (in press). Teaching students with learning 
    difficulties: Making instruction effective and explicit. New York: 
    Guilford Publications.
Hunter, M., & Russell, D. (1981). Planning for effective instruction: 
    Lesson design. In Increasing your teaching effectiveness. Palo 
    Alto, CA: The Learning Institute.
Individuals with Disabilities Education Act (IDEA) of 1997, 20 U.S.C. 
    1400 et seq. (1997).
Individuals With Disabilities Education Improvement Act (IDEA) of 2004, 
    20 U.S.C. 1400 et seq. (2004).
Ives, B., & Hoy, C. (2003). Graphic organizers applied to higher-level 
    secondary mathematics. Learning Disabilities Research & Practice, 
    18, 36-51.
Katayama, A.D., & Crooks, S.M. (2003). Online notes: Differential 
    effects of studying complete or partial graphically organized 
    notes. Journal of Experimental Education, 71, 293-312.
Katayama, A.D., & Robinson, D.R. (2000). Getting students ``partially'' 
    involved in note-taking using graphic organizers. Journal of 
    Experimental Education, 68, 119-133.
Kim, A., Vaughn, S., Wanzek, J., & Wei, S. (2004). Graphic organizers 
    and their effects on the reading comprehension of students with LD: 
    A synthesis of research. Journal of Learning Disabilities, 37, 105-
    118.
Klinger, J.K., Vaughn, S., Hughes, M.T., Schumm, J.S., & Elbaum, B. 
    (1998). Outcomes for students with and without learning 
    disabilities in inclusive classrooms. Learning Disabilities 
    Research & Practice, 13, 153-161.
Kounin, J.S. (1970). Discipline and group management in classrooms. New 
    York: Holt, Rinehart & Winston.
Lenz, B.K., Alley, G.R., & Schumaker, J.B. (1987). Activating the 
    inactive learner: Advance organizers in the secondary content 
    classroom. Learning Disability Quarterly, 10, 53-67.
Marston, D. (1996). A comparison of inclusion only, pull-out only, and 
    combined service models for students with mild disabilities. 
    Journal of Special Education, 30, 121-132.
McNamara, E., & Jolly, M. (1990a). The reduction of disruptive behavior 
    using feedback of on-task behavior: An across setting study of a 
    class of 12- and 13-year-olds. Behavioural Psychotherapy, 18, 103-
    119.
McNamara, E., & Jolly, M. (1990b). Are disruptive behaviours reduced 
    when levels of on-task behaviours increase? An across settings 
    study of a class of 12- and 13-year-old pupils--II. Behavioural 
    Psychotherapy, 18, 239-249.
Murphy, G., & Goodall, E. (1980). Measurement error in direct 
    observations: A comparison of common recording methods. Behavior 
    Research and Therapy, 18, 147-150.
NCES. (2009). CCD public school data 2007-2008. National Center for 
    Education Statistics, Institute of Education Sciences, U.S. 
    Department of Education. Washington, DC. Retrieved April 9, 2010, 
    http://nces.ed.gov/.
Oakes, J. (1987). Tracking in secondary schools: A contextual 
    perspective. Educational Psychologist, 22, 129-153.
Ornstein, A.C. (1995). Synthesis of Research: Teaching whole-group 
    classrooms. Peabody Journal of Education, 70, 104-116.
Patriarca, L.A., & Lamb, M.A. (1994). Collaboration, curriculum 
    development and reflection as frameworks for exploring the 
    integration of general and special education. B.C. Journal of 
    Special Education, 18, 95-100.
Powell, J., Martindale, B., Kulp, S., Martindale, A., & Bauman, R. 
    (1977). Taking a closer look: Time sampling and measurement error. 
    Journal of Applied Behavior Analysis, 10, 325-332.
Rampey, B.D., Dion, G.S., & Donahue, P.L. (2009). NAEP 2008 trends in 
    academic progress (NCES 2009-479). National Center for Education 
    Statistics, Institute of Education Sciences, U.S. Department of 
    Education, Washington, D.C.
Repp, A.C., Roberts, D.M., Slack, D.J., Repp, C.F., & Berkler, M.S. 
    (1976). A comparison of frequency, intervals, and time-sampling 
    methods of data collection. Journal of Applied Behavior Analysis, 
    9, 501-508.
Richardson, V. (2001). Handbook of research on teaching (4th ed.). 
    Washington, D.C.: American Educational Research Association.
Robinson, D.H. (1998). Graphic organizers as aids to text learning. 
    Reading Research and Instruction, 37, 85-105.
Robinson, D.H., & Kiewra, K.A. (1995). Visual argument: Graphic 
    organizers are superior to outlines in improving learning from 
    text. Journal of Educational Psychology, 87, 455-467.
Rosenshine, B.V. (1980). How time is spent in elementary classrooms. In 
    C. Denham & A. Lieberman (Eds.), Time to Learn. Washington, DC: 
    National Institute of Education.
Rosenshine, B., & Stevens, R. (1986). Teaching functions. In M.C. 
    Wittrock (Ed.), Handbook of Research on Teaching (3rd ed.) (pp. 
    376-391). New York: MacMillan Publishing Company.
Sanders, W.L., & Rivers, J.C. (1996). Cumulative and residual effects 
    of teachers on future student academic achievement. Knoxville, TN: 
    University of Tennessee.
Self, H., Benning, A., Marston, D., & Magnusson, D. (1991). Cooperative 
    teaching project: A model for students at risk. Exceptional 
    Children, 58, 26-33.
McCall, Z., & Skrtic, T.M. (in press). Intersectionality as a policy 
    frame for disproportionality and other wicked problems. Multiple 
    Voices.
Schulte, A.C., Osborne, S.S., & McKinney, J.D. (1990). Academic 
    outcomes for students with learning disabilities in consultation 
    and resource programs. Exceptional Children, 57, 162-171.
Slavin, R.E. (1989). Class size and student achievement: Small effects 
    of small classes. Educational Psychologist, 23, 99-110.
Snyder, T.D., & Dillow, S.A. (2010). Digest of Education Statistics 
    2009 (NCES 2010-013). National Center for Education Statistics, 
    Institute of Education Sciences, U.S. Department of Education. 
    Washington, DC.
Soukup, J.H., Wehmeyer, M.L., Bashinski, S.M., & Bovaird, J.A. (2007). 
    Classroom variable and access to the general curriculum for 
    students with disabilities. Exceptional Children, 74, 101-120.
Stone, C.L. (1983). A meta-analysis of advance organizer studies. The 
    Journal of Experimental Education, 51, 194-199.
Swanson, H.L., & Deshler, D.D. (2003). Instructing adolescents with 
    learning disabilities: Concerting a meta-analysis to practice. 
    Journal of Learning Disabilities, 36, 124-135.
Tyler, S. (1979). Time sampling: A matter of convention. Animal 
    Behavior, 27, 801-810.
Waldron, N.L., & McLeskey, J. (1998). The effects of an inclusive 
    school program on students with mild and severe disabilities. 
    Exceptional Children, 64, 395-405.
Vekiri, I. (2002). What is the value of graphical displays in learning? 
    Educational Psychology Review, 14, 261-312.
Walther-Thomas, C.S. (1997). Co-teaching experiences: The benefits and 
    problems that teachers and principals report over time. Journal of 
    Learning Disabilities, 30, 395-407.
Walther-Thomas, C., Bryant, M., & Land, S. (1996). Planning for 
    effective co-teaching: The key to successful inclusion. Remedial 
    and Special Education, 17, 255-265.
Wang, M.C., Haertel, G.D., & Walberg, H.J. (1993). Toward a knowledge 
    base for school learning. Review of Educational Research, 63, 249-
    294.
Warner, M.M., Schumaker, J.B., Alley, G.R., & Deshler, D.D. (1989). The 
    role of executive control: An epidemiological study of school-
    identified learning disabled and low achieving adolescents on a 
    serial recall task. Learning Disabilities Research, 4, 107-118.
Webb, N.M., & Farivar, S. (1994). Promoting helping behavior in 
    cooperative small groups in middle school mathematics. American 
    Educational Research Journal, 31, 369-396.
Wiederholdt, J.L. (1974). Planning resource rooms for the mildly 
    handicapped. Focus on Exceptional Children, 8, 1-10.
Wittrock, M.C. (1986). Handbook of research on teaching (3rd ed.). New 
    York: Macmillan.
Wright, C., & Nuthall, G. (1970). Relationships between teacher 
    behaviors and pupil achievement in three experimental elementary 
    science lessons. American Educational Research Journal, 7, 477-491.
                               APPENDIX A
  scoring protocols and decision criteria--classroom observation sheet
    Student on Task: At each time interval, please score this box. You 
should begin with the student in the front-left seat of the class, then 
work your way across the first row of students, and then begin the 
second row continuing until every student has been observed and scored 
on the observation sheet. If all students have been observed, begin 
again at the beginning front-left seat. If the student is on-task, mark 
``1'' in the box. If the student is off-task, mark ``O'' in the box. 
Take care to ensure that both raters are observing and scoring the same 
student during each time interval.
    Student on Task will be checked whenever the student is not 
actively engaged in the appropriate instructional activity. The student 
is off task if they are violating rules, engaging in social talk with 
peers, doing nothing, throwing something away, in the restroom, playing 
a non-instructional computer game, getting organized for a task (e.g., 
putting papers away into backpack), using their cell phone, etc. For 
example, if the teacher is lecturing and the student is looking through 
her backpack for a pencil, the student is not engaged and therefore off 
task.
    Learning Arrangement: At each time interval, please score one of 
the following learning arrangements. Mark ``1'' in the box that best 
describes the learning arrangement of the students. If there is more 
than one type of learning arrangement in the classroom, only score the 
learning arrangement that the teacher is instructing or monitoring. For 
example, if a large group of students is working independently while 
the teacher provides additional instruction for a small group of 
students you should score the learning arrangement as ``Small Group.'' 
The focus is on the teacher's behavior or activity.
    Whole Group will be checked whenever all the students in a 
classroom are being instructed together. For example, the teacher might 
be lecturing, the class might be involved in a class-wide discussion, 
or the class might be watching a movie.
    Large Group will be checked when most students in the classroom are 
provided the same instructional activity directed at most students 
simultaneously. Large groups range in size from greater than 1/3 of the 
students to one less than the entire class.
    Small Group will be checked whenever the students have been 
assigned to work in small groups. Small groups range in size from 3 
students to 1/3 of the class. For example, students might be doing a 
cooperative learning activity or engaged in small group reading 
instruction.
    Individual Student-Teacher Led will be checked whenever the 
students are working one-on-one with a teacher in a clinical manner. 
For example, the teacher may be doing ``experimental teaching,'' direct 
phonics instruction, or monitoring reading errors.
    Student Peer Pairs will be checked whenever the students are 
working in pairs and have been formally instructed to work in pairs. If 
the class contains an odd number of students, one group may contain 3 
students and still be scored ``Student Peer Pairs.'' For example, 
students might be doing a ``Turn-to-Your-Neighbor'' activity or a 
class-wide peer tutoring activity.
    Individual-Independent Work will be checked whenever the students 
are working independently. Students may be working quietly at their 
desks on a worksheet or whispering to a peer, but they have been asked 
to work on their own.
    Transition Time: At each time interval, score this box. If the 
class is transitioning between activities, mark ``1'' in the box. If 
the class is NOT transitioning between activities, mark ``O'' in the 
box. Note, if some students appear to be transitioning and others 
students are not transitioning score ``1.''
    Transition Time will be checked when the students are transitioning 
between classroom activities but not yet engaged in any learning 
activity. For example, if the bell rings to begin class and students 
are not seated yet. Or, if the teacher completes the lecture then asks 
students to begin working on their homework, the time between ending 
the lecture and when student beginning to work is transition time. 
Finally, if students quit working before the end of class, this is also 
transition time.
    Instructional Activity: At each time interval, score one of the 
following instructional activities. Mark ``1'' in the box that best 
describes instructional activity. If more than one instructional 
activity is observed during the observation time period, only score the 
first instructional activity observed.
    Lecture will be checked when the teacher talks to students without 
any, or minimal, student participation. The teacher may use the 
chalkboard, maps, or an electronic media (e.g., PowerPoint) while 
lecturing.
    Describe Skill or Strategy will be checked for each interval the 
teacher is observed giving task explanations or explaining how to do 
something orally that requires several steps. For example, ``In order 
to write this paper, you will need to do the following four things. . . 
. '' ``To complete this experiment, you will need to follow the five 
following procedures. . . .,'' ``This math algorithm has three parts. . 
. .,'' ``This strategy has five steps . . . .''. The steps or parts 
must be described.
Modeling
    Implicit Modeling will be checked for each interval the target 
teacher spends modeling how to do something for instructional purposes. 
This refers to showing how to do an academic task that is to be copied 
or imitated by the student. For example, the teacher demonstrates how 
to solve a math problem. Please note, if the teacher physically 
demonstrates while also thinking out loud to verbalize the teacher's 
thinking, then you should check ``Explicit Modeling.''
    Explicit Modeling will be checked for each interval the target 
teacher spends modeling how to do something for instructional purposes. 
This refers to showing how to do an academic task that is to be copied 
or imitated by the student WHILE verbally modeling the thought process 
the teacher is using to complete the task. For example, the teacher 
demonstrates how to do a lab experiment while asking questions and 
answering the questions so that students understand the thought process 
of a scientist. Please note, if the teacher only physically 
demonstrates while stating each step, then you should check ``Implicit 
Modeling.'' Also, if the teacher does not physically demonstrate the 
procedure, a designation would be placed in the ``Describes a Skill or 
Strategy'' column.
Give Directions
    Give Academic Directions will be checked for each interval the 
teacher spends orally giving simple instructional directions. This 
includes verbally directing, supervising, or managing classroom 
academic tasks and describing a grading rubric. For example, the 
teacher saying, ``Turn to chapter 9 in your book,'' or ``Please do the 
first 10 math problems on the worksheet.''
    Give Classroom Procedure Directions will be checked for each 
interval the teacher spends orally giving simple procedural directions. 
This includes (a) verbally directing students' behavior, (b) managing 
classroom procedures (e.g., bathroom and hall passes), (c) giving non-
instructional directions to students (e.g., ``Please shut the window, 
Susan.''), (d) telling students how many points an assignment is worth, 
or (e) expressing disapproval, dislike, dismay, dissatisfaction, or 
disgust with a student's class work, appearance, or behavior. For 
example, the teacher saying, ``Jonathan, please take your seat,'' or 
``Allison, that is not what our bathroom pass procedure is; you need to 
. . . ''
Monitoring and Questioning
    Physical Observation will be checked for each interval the target 
teacher spends doing physical observation of students in order to 
monitor students. Examples of physical observation for the purpose of 
monitoring are: The teacher walking around students' desk or visually 
observing students to determine if they have completed work or are 
successfully doing work. When the teacher is monitoring a cooperative 
group activity or a pair activity, please note what the activity is in 
the description area. Please note, this activity should not be confused 
with giving feedback.
    Questioning for Self-Answer will be checked when the teacher 
invites student to ask self-questions by way of engaging the learner 
but allows the learner not to self-disclose on a potentially sensitive 
subject (e.g., no response is required from the student). For example, 
the teacher asked a question to the class as a whole and said, ``I 
don't want a verbal answer or show of hands, but think to your self: 
`How many of you ever thought you'd wished you could be more confident 
when talking to your peers at school?' ''
    Questioning for Verbal Response will be checked when the teacher 
poses a question pertinent to the instructional topic at hand and asks 
one or more students to respond orally. Students are instructed to 
respond with a verbal answer but answers can be provided to a partner, 
generated by a team, individually, or as a choral response.
    Questioning for Written Response will be checked when the teacher 
poses a question pertinent to the instructional topic at hand and asks 
one or more students to respond in writing. Students are instructed to 
respond with a written answer using response cards, response slates, by 
writing on the chalkboard, or writing on a sheet of paper.
    Questioning for Action Response will be checked when the teacher 
poses a question pertinent to the instructional topic at hand and asks 
one or more students to respond with an action or movement. Students 
are instructed to respond with a physical movement by touching/
pointing, acting out something, using gestures such as thumbs up, or 
giving facial expressions (smiley face/sad face).
    Listening will be checked when the teacher is attentively listening 
to a student's verbalizations for 10-seconds or longer. The teacher 
must emit at least one attentive behavior during the interval. 
Attentive behaviors include eye contact, ``uh-uh'' verbalizations, head 
nodding, and/or linguistic listening cues. (e.g., ``I understand,'' 
etc.).
Review
    Facts/Concepts/Procedure will be checked when the teacher makes a 
statement or asks a question(s) that requires the student to show that 
the student remembers or understands the factual content or concept or 
knows the steps/procedures for completing a task (e.g., solving a 
particular type of math problem or the steps for constructing a good 
outline). For example, the teacher may ask the class to state the 
formula for calculating the area of a triangle.
    Manipulate/Generalize will be checked when the teacher makes a 
statement or asks a question(s) that requires the student to show that 
the student can generalize or apply a previously learned skill, or 
manipulate new information using a recently learned skill to new 
content or to a novel or practical life situation. For example, if the 
class recently learned about osmosis and selective diffusion by 
experimenting with chicken eggs, the teacher may ask about how osmosis 
would occur in human cells.
    Skill or Strategy will be checked when the teacher makes a 
statement or asks a question(s) that requires the student to show that 
the student understands the underlying skills or strategies of 
effective academic performance. For example, if students in astronomy 
are learning about the life cycle of stars, reviewing how to examine 
the textbook organization would be helpful to structuring student 
thinking and finding appropriate information in the text.
Feedback
    Simple Feedback will be checked for each interval during which the 
teacher verbally tells a student or group of students whether their 
answer or performance is correct or incorrect. This includes 
summarizing information that students have said. For example, when 
student gives the correct answer and the teacher simply acknowledges it 
but does not give more elaborate feedback. Please note, if the teacher 
provides elaborated feedback or asks follow-up questions as a means of 
giving elaborated feedback, this should be scored as ``Elaborated 
Feedback on Learning.''
    Elaborated Feedback will be checked for each interval during which 
the teacher orally provides private or specific feedback to a student 
with regard to something the student has done. Teacher gives 
information on student performance when constructing meaning, or 
related to the processes underlying strategies or skills of completing, 
relating, or extending a skill or strategy. The feedback might include 
describing an error category or pattern of error, explaining how to 
avoid the error, modeling a new way or performing, having the student 
practice a new way of performing, having the student paraphrase how to 
perform in the future, and having the student set one or more goals for 
the next performance. For example, if the student gives the correct 
answer to a math question but doesn't seem to understand how they 
reached the correct answer, the teacher provides elaborated feedback on 
the process used to reach the answer while checking for student 
understanding at different points in this re-teaching process.
Graphic Devices and Organizers
    Advance Organizer will be checked for each interval the teacher 
orally presents information about the upcoming lesson in a relatively 
simple way. The oral presentation should provide an overview, cite the 
purpose or goal(s) of the lesson or activity, state the topic or 
present a specific order that the lesson or activity will follow. For 
example, the teacher might state, ``Today we are going to be studying 
about the causes of the Civil War.'' This is different from the "Other 
Graphic Devices" category in that it does not involve a content map for 
the lesson, lesson questions, and other parts of the Content 
Enhancement Routines.
    Post Organizer will be checked for each interval the teacher orally 
presents information about that day's lesson in a relatively simple 
way. This statement should be at the end of the lesson or instructional 
activity and should summarize the main points of the lesson or 
activity. For example, the teacher might state, ``We just learned about 
the various causes of the Civil War. These causes were . . ..''
    Other Graphic Devices (e.g., study guide, CE) will be checked for 
each interval the teacher is presenting information about the lesson 
with the aid of a graphic device. Teacher uses a graphic device to 
enhance learning by transforming, repackaging, or manipulating the 
content. Some examples of graphic devices include Venn diagrams, 
content maps, or study guides.
Reading Instruction
    Teacher Reads to Students will be checked when the teacher is 
verbally reading a passage that students are expected to ``follow 
along'' with.
    Shared Reading will be checked when one student in the class is 
reading out loud while other students are expected to follow along in 
the text. After a period of time, another student begins reading aloud 
and the first student stops, this continues at the direction ofthe 
teacher.
    Simple Silent Reading will be checked when the teacher instructs 
all students to read silently to themselves.
    Augmented Silent Reading will be checked when the teacher instructs 
all students to do the following two tasks: (1) To find the answer to a 
question in the reading and (2) instructs students who finish early to 
re-read the passage.
    Reading Strategy will be checked when the teacher directs students 
to use a comprehension learning strategy while reading. For example, 
the teacher may ask a student to predict what will happen next, 
summarize plot developments for each chapter, or infer the meaning of 
some words and give a rationale.
    Computer Mediated Instruction will be checked when the primary mode 
of instruction involves the use of a computer or computerized mechanism 
to either present reading instruction to the student, test a student, 
or provide assistance to a student during a learning task. This 
includes computerized reading instructional programs such as Read 180. 
Please note, if the teacher is working in small groups with some 
students engaged in instruction while other groups are using a 
computerized instructional program, do not check this item; instead, 
mark the appropriate instructional practice the teacher is using.
Formal Assessment of Learning
    Test will be checked when the teacher instructs students to 
complete a long assessment during the class period. The test is a long 
exam given to students for the purpose of assigning a grade/value to 
the student's performance.
    Quiz will be checked when the teacher instructs students to 
complete a short assessment during the class period. The quiz is a 
short exam given to students for the purpose of assigning a grade/value 
to the student's performance.
    Formative Progress Monitoring will be checked when the teacher 
instructs students to complete a very short formative assessment. The 
results of the task are not assigned a grade/value but instead are used 
to inform the teacher about individual student's degree of mastery of a 
new body of knowledge or skill.
    Video will be checked when a film, video, or clip is shown in class 
as the primary means of instruction.
Un-Engaged Time
    Not Engaged in Instruction Time will be checked for each interval 
during which the teacher spends (a) grading papers, (b) passing out 
papers, (c) taking attendance/writing student pass, (d) having a 
discussion with another adult in the classroom, (e) completing 
paperwork or computerized forms, (f) talking on phone for any purpose, 
(g) engaging in personal activities (e.g., reading a newspaper, filing 
nails, etc.), (h) reading professional reading materials, or (i) 
accessing, writing, or sending emails.
                               Appendix B
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      KU Center for Research on Learning--The University of Kansas
the content literacy continuum: a school reform framework for improving 
                  adolescent literacy for all students
         b. keith lenz, barbara j. ehren, and donald d. deshler
    Making the commitment to improve literacy in secondary schools must 
be at the very heart of school reform efforts. Too often, literacy 
improvement efforts are parenthetical to other goals in secondary 
education. Teachers and educators systematically discriminate against 
those who do not have the literacy skills to meet course demands and 
against teachers and staff involved in advocating for or providing 
literacy services. This unfortunate situation lessens the importance of 
secondary schools in preparing our children to succeed in college and 
to compete in society. It also has consistently and systematically left 
millions of students behind.
    Recent evidence indicates that policymakers and advocates of 
secondary school reform are taking seriously the problems of adolescent 
literacy and are turning their attention to supporting research-based 
efforts to improve it. These groups place increasing emphasis on 
students successfully completing more rigorous secondary core content 
courses, on students meeting standards as measured on state 
assessments, on schools addressing the needs of an increasing number of 
English language learners in classrooms, and on moving all students 
toward a standard of college readiness that will allow them to be 
successful after high school.
    For the past 15 years, a significant research thread at the 
University of Kansas Center for Research on Learning (KU-CRL) has been 
to design and test effective school-wide literacy instruction in 
secondary schools. A series of studies focused on how to increase the 
success of high school students in rigorous academic courses revealed 
several factors that challenge secondary educators who are seriously 
concerned about improving the performance of all students to make 
literacy a central part of school improvement and reform agendas:

     1. Requirements for teachers to ensure that all students meet 
standards have put pressure on teachers to teach more content faster. 
This has led to an instructional focus on breadth of coverage rather 
than depth of understanding. Consequently, students are required to be 
more independent and self-sufficient learners, leaving students who 
have limited literacy skills and strategies unable to acquire the 
content and, as a result, meet standards.
     2. Because many students do not have the literacy skills and 
strategies necessary to meet these standards, core curriculum teachers 
must face the challenge of compensating for the lack of these skills 
and strategies to ensure mastery of critical content, regardless of 
literacy levels.
     3. Attention to the connected development of increasingly complex 
vocabulary and background knowledge is needed if comprehension is to 
improve and students are to benefit from instruction in grade-
appropriate comprehension strategies.
     4. Students must have authentic and successful experiences using 
newly acquired literacy skills and strategies in core curriculum 
courses to solve problems and meet high school course demands if they 
are to become motivated to develop literacy skills.
     5. Direct instruction, teacher modeling, and practice in literacy 
strategies must become authentically embedded in the teaching practices 
of all secondary teachers so that students will have sufficient 
opportunities to practice and generalize these skills and strategies.
     6. Secondary core curriculum teachers can promote literacy by 
planning and focusing on critical content and critical comprehension 
strategies so that instruction is targeted and mastery is achieved for 
all learners.
     7. Even when instruction, modeling, and practice is provided 
across secondary courses, many poor readers will need additional 
intensive instruction and practice in these strategies if they are to 
master and use them effectively.
     8. Students who do not comprehend well but who have developed 
fluent word recognition skills through the fourth-grade level need 
opportunities for direct, systematic, and intensive instruction in 
learning strategies that are appropriate for handling both expository 
and narrative text.
     9. Opportunities for direct, systematic, intensive instruction in 
sound-symbol correspondence, word automaticity and fluency are needed 
to address the word recognition skills for those adolescents who are 
reading below the fourth-grade level.

    Collectively, these factors challenge secondary schools to make a 
dramatic shift in the way they organize and deliver instruction, if 
both content and literacy goals are to be realized. Only by adopting a 
schoolwide approach to literacy in which every teacher is committed, 
involved, and championing coordinated literacy improvement efforts can 
we make our secondary schools count for all students.
                         meeting the challenge
    There have been efforts to reform secondary schools to improve 
learning in ways that lead to outcomes that meet the standard of 
college readiness and post-secondary success. Most efforts to reform 
secondary schools have focused on creating infrastructure supports by 
adding block and flexible scheduling of courses, providing additional 
time for teacher learning and planning, providing behavioral supports 
to improve discipline, and creating opportunities for more personalized 
learning by restructuring schools into smaller learning communities. 
Other school reform efforts have focused on creating system learning 
supports to more closely monitor student progress, collaboratively make 
decisions to address problems in learning, encouraging coaching among 
one another to improve instructional effectiveness, and creating a 
culture in which staff value and embrace continuing collaborative 
learning and school improvement.
    Although many of these secondary school reform efforts have 
addressed important problems that have been barriers to improving the 
academic achievement of students, they have not been able to 
significantly affect the quality of classroom instruction provided nor 
improve the outcomes of academically diverse groups of students. More 
recently, it has become clear that structural and systemic supports 
must be accompanied by attention to improvement to the instructional 
core of the secondary school. This instructional core must include 
attention to an aligned instructional system that is based on 
standards-informed instruction, connected and coherent courses, 
engaging instructional materials and activities, and instruction that 
is informed by the knowledge and backgrounds of students to anchor 
relevant and meaningful learning. Furthermore, the instructional core 
must be centered on a view of secondary schools that is grounded in 
providing a continuum of literacy instruction that ensures the ongoing 
development of those learning skills and strategies required for 
college readiness and post-secondary success. (See Figure 1)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a result of our research, the staff of the KU-CRL has developed 
a framework called the Content Literacy Continuum (CLC; LenzEhren, 
1999). This structure provides a vehicle for (a) considering the 
factors that influence the success of secondary literacy efforts, (b) 
leveraging the talents of secondary school faculty, and (c) organizing 
instruction to increase in intensity as the deficits that certain 
subgroups of students demonstrate become evident.
    The CLC has been used to guide the use of interventions in the 
Strategic Instruction Model (SIM) developed by KU-CRL over the past 27 
years. However, as a framework, the CLC is sufficiently comprehensive 
in scope to accommodate any research-validated intervention that has 
been effective with adolescent populations. In short, the CLC is a tool 
for enabling all secondary teachers and administrators to participate 
in the development and evaluation of a literacy initiative that is 
consistent with the goals of secondary education for all students and 
that will dramatically improve literacy outcomes for those who are at 
risk of academic failure.
    The five levels or types of instruction associated with the CLC are 
presented and described in Figure 2. These five levels are based on 
keeping content as a central focus in literacy efforts, defining roles 
and responsibilities of all school-level educators, providing a 
continuum of instructional intensity for ensuring success for a wide 
range of students, and providing a framework for integrating a variety 
of literacy improvement efforts. Each of these levels collectively 
represent a framework for organizing secondary reform around the goals 
of improved literacy.
    It is important to note that secondary educators must work 
collaboratively to synchronize instruction across the five levels to 
ensure the success of a schoolwide literacy effort. The continuum of 
instruction represented in the CLC framework is more than a way of 
sorting or organizing instructional practices and commercial 
educational programs. Several instructional principles define how the 
levels of instruction should be implemented to complement and reinforce 
one another to ensure a coherent learning experience for students. 
First, the instruction provided at each level should reinforce a common 
set of literacy strategies that can be enhanced and leveraged at each 
level of the continuum. This cross-level focus ensures that students 
are learning a set of critical core strategies with sufficient 
opportunities to practice different applications across different 
content areas and under different conditions. Second, content 
enhancements used to ensure content area learning at Level 1 of the CLC 
that compensates for poor learning strategies should be built on and 
around the critical core set of literacy strategies taught and 
practiced at the other levels of the continuum. Third, the literacy 
strategies that define Levels 2 and 3 should help students apply the 
skills acquired from instruction in Level 4. Fourth, the intervention 
provided by a speech-language professional represented in Level 5 
should be informed by the core set of literacy strategies and content 
enhancements. In other words, CLC should not be thought of as framework 
for siloing programs that seem to fit at a given level. Regardless of 
the program, there are instructional conditions that must be created 
across the levels regardless of the goals of individual programs to 
create the type of instructional synergy necessary to improve literacy 
in secondary schools.
              the clc adoption and implementation process
    Adopting the CLC requires a focused schoolwide effort. A school 
interested in putting the CLC in place needs to take stock of the 
literacy and content mastery performance of students, as well as its 
existing efforts to meet literacy needs. Faculty should consider how 
the efforts already under way fit into each of the five CLC levels and 
learn how to integrate SIM and other necessary components into current 
practices. Initial adoption takes place over a 3- to 5-year period as 
school staff work through activities associated with the phases of 
planning, implementing, and sustaining a literacy improvement 
initiative. A commitment for the duration of the adoption process on 
the part of the administration and faculty is a necessary component.
    A hallmark of the entire adoption process is that it is co-
constructed with school leaders, resulting in a growth partnership. It 
is clear that one of the reasons that secondary school reform efforts 
have failed to significantly improve the academic performance of all 
students is that few efforts have addressed the unique culture that 
shapes the likelihood of change in secondary schools. System change in 
secondary schools must be closely tied to the individual in the system 
responsible for the nature and quality of classroom instruction. 
Therefore, the success of literacy- centered secondary school reform is 
likely to hinge on the ability of school leaders to collaboratively co-
construct change with teachers. School leaders must be able to create a 
shared (a) vision that allows for individual contributions, (b) 
knowledge base that leads to individual learning, (c) system of 
leadership that seeks the voice of individuals, (d) sense of 
responsibility that shapes individual planning and action, (e) system 
of evaluation that guides self assessment, and (f) accountability 
system that motivates individual action. Using this set of values to 
guide reform would call into question traditional systemic approaches 
that rely solely on top-down models to accomplish school change.
                               conclusion
    Although professional development is required to implement the CLC, 
it is more appropriate to conceptualize CLC adoption as a school-
improvement initiative requiring more than professional development. 
Adopting the CLC is framed in the context of helping schools meet their 
school-improvement goals. The current focus of schools and school 
districts on meeting the No Child Left Behind requirements regarding 
Adequate Yearly Progress (AYP) typically enhances the motivation of 
schools to target improvement efforts on behalf of all learners. 
Serious attention must be paid to tapping into or creating the 
infrastructures to promote individual and systemic change, including 
data-based decision making, effective leadership activities, and the 
creation of professional learning communities.
                               references
Lenz, B.K., Bulgren, J., Kissam, B., & Taymans, J. (2004). SMARTER 
    planning for academic diversity. In Lenz, B.K., Deshler, D.D., & 
    Kissam, B. (Eds.), Teaching content to all: Inclusive teaching in 
    grades 4-12 (PP. 47-77). Boston: McGraw-Hill.
Lenz, B.K. & Ehren, B. (1999). The strategic content literacy 
    initiative: Focusing on reading in secondary schools. Stratenotes, 
    8.1. Retrieved June 1, 2005, from University of Kansas Center for 
    Research on Learning Web site: http://www.kucrl.org.
Lenz, B.K., Schumaker, J.B., Deshler, D.D., & Beals, V. (1984). The 
    learning strategies curriculum: The word identification strategy. 
    Lawrence: University of Kansas, Center for Research on Learning.
Lenz, B.K., with Bulgren, J.A., Schumaker, J.B., Deshler, D.D., & 
    Boudah, D.J. (1994). The unit organizer routine. Lawrence, KS: Edge 
    Enterprises.
Schumaker, J.B., Denton, P.H., & Deshler, D.D. (1984). The learning 
    strategies curriculum: The paraphrasing strategy. Lawrence: 
    University of Kansas, Center for Research on Learning.

                                    Figure 2: The Content Literacy Continuum
          A Framework for Guiding the Development of Schoolwide Literacy Services in Secondary Schools
----------------------------------------------------------------------------------------------------------------
         Level of Instruction              Teacher Actions              Example          Professional Competence
----------------------------------------------------------------------------------------------------------------
    Level 1: Enhanced Content          Teachers: (a) ensure     Teachers use Content     Teachers responsible
     Instruction.                       mastery of critical      Enhancement Routines     for ensuring content
    Goal: Students learn critical       core content for all     such as The Unit         mastery must select
     content required in the core       students regardless of   Organizer Routine to     the critical content,
     curriculum regardless of           literacy levels by       deliver content.         learn how to enhance
     literacy levels.                   leveraging the           Teachers use standards-  that content for
                                        principles of            based planning models    mastery, and then
                                        universal design in      to target critical       implement these
                                        explicit teaching        content that needs to    enhancements through
                                        routines, (b) ensure     be enhanced.             the use of explicit
                                        that all students                                 and sustained teaching
                                        acquire the vocabulary                            routines. Special
                                        and background                                    service providers must
                                        knowledge required for                            help core curriculum
                                        basic literacy                                    teachers provide this
                                        associated with                                   type of instruction.
                                        comprehension and                                 This facilitates a
                                        communication through                             mindset in which
                                        classwide                                         instruction is
                                        accommodations,                                   delivered in ways that
                                        individual                                        students acquire
                                        accommodations, or                                content information as
                                        technology, and (c)                               well as active
                                        respond to                                        approaches to learning
                                        increasingly complex                              and responding.
                                        content demands
                                        requiring strategic
                                        manipulation of
                                        content such as
                                        categorizing,
                                        developing analogies,
                                        comparing,
                                        questioning, or
                                        evaluating.
----------------------------------------------------------------------------------------------------------------
Level 2: Embedded Strategy             From a small set of      Teachers teach the       Teachers adopt a
 Instruction.                           powerful learning        steps of a               mindset that it is
Goal: Students are presented            strategies, teachers     paraphrasing strategy    important to embed
 opportunities to learn and apply a     select one or two        (RAP), regularly model   instruction in
 set of powerful learning strategies    strategies that match    its use, and then        learning strategies
 for improving literacy across core     the specific demands     embed paraphrasing       within content-area
 curriculum classes to learn critical   needed to learn the      activities in course     instruction. Content
 content.                               critical content in      activities through the   teachers learn a
                                        their core curriculum    year to create a         shortened form of an
                                        courses. Teachers use    culture of ``reading     Eight-Stage
                                        direct explanation,      to retell.'' Graphic     Instructional Sequence
                                        modeling, and group      organizers (e.g., The    for selected learning
                                        practice to teach the    Unit Organizer)          strategies (e.g.,
                                        strategy and then        introduced as part of    Paraphrasing, Self-
                                        prompt student           Level 1 instruction      Questioning, etc.)
                                        application and          are used to model and    that they can use to
                                        practice in content-     prompt paraphrasing of   provide classwide
                                        area assignments         critical chunks of       instruction. Teachers
                                        throughout the school    content.                 assist in the
                                        year. For students                                generalization of
                                        receiving more                                    strategies that may
                                        intensive strategy                                emerge from Level 1
                                        instruction (Level 3),                            instructional
                                        teachers assist them                              routines; these
                                        in generalizing                                   emerging strategies
                                        strategy use to core                              may guide students in
                                        curriculum courses.                               strategic approaches
                                        Instruction in                                    to content literacy
                                        strategies is embedded                            demands such as making
                                        across a number of                                comparisons,
                                        instructional                                     categorizing, or
                                        settings, including                               questioning.
                                        settings in which
                                        tutoring is provided.
----------------------------------------------------------------------------------------------------------------
Level 3: Intensive Strategy            Special education        Instructional options    Special education and
 Instruction.                           teachers, reading        such as additional       other support
Goal: Students who need more            teachers, and other      courses are created to   personnel learn how to
 intensive strategy instruction than    support personnel        systematically and       provide intensive and
 what can be provided through           provide more intensive   intensively teach        explicit instruction,
 embedded strategy instruction are      instruction through      learning strategies      practice, and feedback
 provided more intensive and explicit   additional learning      that students need to    in specific learning
 strategy instruction.                  experiences. These may   meet course demands.     strategies and the
                                        be provided in the       When core curriculum     process of strategic
                                        general education        teachers notice          tutoring that shows
                                        classroom, in a          students having          students how to apply
                                        pullout program,         difficulty learning      strategies as they
                                        through the offering     and using strategies     complete assignments.
                                        of a separate course,    such as paraphrasing,    Professional
                                        or through beyond-       they work with support   development focuses on
                                        school tutoring          personnel to provide     helping teachers learn
                                        programs. Assessments    more intensive           the strategies and
                                        for screening and        instruction.             course management
                                        ongoing data-based                                competencies required
                                        decision making are                               to provide the
                                        put in place to help                              intensive instruction
                                        identify students who                             required to ensure
                                        may profit from these                             student mastery of
                                        courses. These                                    learning strategies.
                                        students are generally
                                        those who minimally
                                        have developed the
                                        decoding skills and
                                        fluency levels
                                        associated with
                                        reading proficiency at
                                        the third- to fourth-
                                        grade level and need
                                        to develop the
                                        comprehension
                                        strategies to
                                        successfully meet the
                                        reading demands of the
                                        core curriculum.
----------------------------------------------------------------------------------------------------------------
Level 4: Intensive Basic Skill         Special education        The staff develops       Special education
 Instruction.                           teachers, reading        course options for       teachers and reading
Goal: Students develop the              specialists, and         support services that    specialists learn
 foundational decoding, fluency, and    speech-language          directly address         research-based
 comprehension skills associated with   pathologists team to     deficits that cannot     approaches to
 K3 literacy through specialized,       develop intensive and    be addressed Through     implement programs
 direct, and intensive instruction.     coordinated              less intensive           that develop
                                        instructional            efforts. Students        foundational literacy
                                        experiences designed     still participate in     skills and strategies
                                        to address several       the history class        in students who read
                                        literacy deficits.       because the teacher is   below a fourth-grade
                                        Special education        presenting content in    level.
                                        teachers and reading     ways that take into
                                        specialists will most    consideration literacy
                                        likely deliver these     problems. Intensive
                                        services. They also      research-based
                                        assist content           programs, such as The
                                        teachers in making       Corrective Reading
                                        appropriate              Program, typically are
                                        adaptations in content   chosen.
                                        instruction to
                                        accommodate severe
                                        literacy deficits.
                                        Intensive instruction
                                        in listening,
                                        speaking, and writing
                                        can also be part of
                                        these services.
                                        Services may be
                                        delivered in a pullout
                                        program, through the
                                        offering of a separate
                                        course, or through
                                        beyond-school programs.
----------------------------------------------------------------------------------------------------------------
Level 5: Therapeutic Intervention....  Speech-language          Students identified as   Speech-language
Goal: Students with underlying          pathologists learn       language impaired may    pathologists deliver
 language disorders learn the           curriculum-relevant      have difficulty          curriculum-relevant
 linguistic, related cognitive,         approaches to language   learning The             language therapy in
 metalinguistic, and metacognitive      therapy that interface   Paraphrasing Strategy.   collaboration with
 underpinnings they need to acquire     with other intensive     They may need support    special education and
 content literacy skills and            intervention provided    to provide more          other support
 strategies.                            to students. Speech-     language-sensitive       personnel who are
                                        language pathologists    instruction or           teaching literacy.
                                        and special education    clinical intervention    Speech-language
                                        teachers learn to        delivered by speech-     pathologists
                                        collaborate to provide   language pathologists    collaborate with
                                        coordinated and          who can address the      special education
                                        integrated services.     linguistic and           teachers to assist
                                                                 metalinguistic           content teachers in
                                                                 underpinnings of the     making appropriate
                                                                 Paraphrasing Strategy    modifications or
                                                                 (RAP) and the academic   accommodations in
                                                                 content.                 content instruction to
                                                                                          address the needs of
                                                                                          students with language
                                                                                          disorders. Speech-
                                                                                          language pathologists
                                                                                          work with special
                                                                                          education teachers to
                                                                                          help students with
                                                                                          language disorders
                                                                                          acquire learning
                                                                                          strategies.
----------------------------------------------------------------------------------------------------------------


    [Whereupon, at 4:35 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
